APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order and Judgment of the United States
Court of Appeals for the Tenth Circuit
(April 14, 2021) ................................................... 1a
Memorandum and Order of the United States
District Court for the District of Kansas
(March 26, 2020) ............................................... 37a
REHEARING ORDER
Order of the United States Court of Appeals for
the Tenth Circuit Denying Petition for
Rehearing (May 10, 2021) ................................ 91a
STATUTORY PROVISIONS
Relevant Statutory Provisions ............................... 93a
OTHER DOCUMENTS
Appellant’s Opening Brief—Relevant Excerpts
(July 22, 2020) ................................................ 123a
Plaintiff’s Memorandum in Opposition to
Defendant’s Motion for Summary Judgment
—Relevant Excerpts (October 22, 2019) ........ 143a

App.1a
ORDER AND JUDGMENT OF THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
(APRIL 14, 2021)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
JOSHUA O. THOMAS,
Plaintiff-Appellant,
v.
FARMERS INSURANCE EXCHANGE,
Defendant-Appellee.
________________________
No. 20-3076
(D.C. No. 2:18-CV-02564-DDC) (D. Kansas)
Before: PHILLIPS, MURPHY, and
McHUGH, Circuit Judges.
Farmers Insurance Exchange (“Farmers”) employed
Joshua Thomas as a service advocate in its Olathe,
Kansas, office. Mr. Thomas is gay and male. He claims
Farmers discriminated against him by not selecting
 This order and judgment is not binding precedent, except under
the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with Federal Rule of Appellate Procedure 32.1 and Tenth
Circuit Rule 32.1.

App.2a
him for an Account Underwriter Specialist (“AU”)
position, retaliated against him by issuing a final
warning when he filed a discrimination complaint,
and then retaliated against him again by terminating
his employment when he filed this lawsuit. The district court granted Farmers’ motion for summary
judgment and Mr. Thomas appeals. Exercising jurisdiction pursuant to 28 U.S.C. § 1291, we affirm.
I. Background
A.

Factual History

Farmers is a Nevada corporation registered to do
business in Missouri, with a service center in Olathe,
Kansas. On March 9, 2015, Farmers hired Mr. Thomas
to work as a service advocate at the Olathe service
center. Farmers originally hired Mr. Thomas as a
Service Advocate II, and promoted him to Senior
Service Advocate in April 2016. In both positions,
Mr. Thomas was responsible for handling calls about
policies and accounts. Mr. Thomas had three direct
supervisors over the course of his employment with
Farmers: he reported to Jeanann Sebers from March
2015 to March 2018, Jarrod Shelton from March
2018 to September 2018, and Curt Sims from September 2018 until his termination in October 2018.
According to his affidavit, Mr. Thomas “did not
conform to stereotypes of how males behave and
act[ed] in a way that was noticeable to [his] coworkers”
during his employment with Farmers. App., Vol. III
at 538. This included wearing clothing which, “though
professional, was very stylish and fashionable”; being
“very attentive to [his] appearance and hygiene and
ke[eping his] desk very tidy”; and “socializ[ing] prima-

App.3a
rily with [his] female co-workers while most male coworkers socialized with other male co-workers.” Id. at
538–39.
1. Performance History
Mr. Thomas’s supervisors periodically monitored
and reviewed his performance as a Senior Service
Advocate. The record reflects interactions between
Mr. Shelton and Mr. Thomas beginning in March
2018 regarding Mr. Thomas’s demeanor during service
calls. During these “coaching sessions,” Mr. Shelton
instructed Mr. Thomas to stop exhibiting obvious frustration, interrupting others, and using a condescending
tone during calls with agents.1 Numerous instances
of these coaching sessions appear in Mr. Shelton’s
weekly reports. See App., Vol. II at 297 (“I’ve been
working very closely with [Mr. Thomas] on . . . how he
tends to let his aggression show when frustrated”–
email dated March 21, 2018); id. at 299 (“I’m still
working closely with [Mr. Thomas] on his verbal
skills toward agents. This is one of my highest
priorities at the moment”–email dated March 31,
2018); id. at 301 (“Had a very in-depth conversation
yesterday with [Mr. Thomas] with how he gets frustrated on the phone”–email dated April 4, 2018). In a
May 10, 2018, email, Mr. Shelton reported he had
“coached [Mr. Thomas] as much as I can, so now I’m
in an observation period to see if he responds to the
coaching or keeps with his ways and this will determine my next steps of corrective action.” Id. at 319.
1 Mr. Thomas’s prior supervisor, Ms. Sebers, also coached Mr.
Thomas about his tone and demeanor in a phone call in January
2018.

App.4a
Mr. Thomas also received some positive feedback
over this period. For example, on March 31, 2018,
Mr. Shelton wrote to Mr. Thomas: “I appreciate how
open you are to feedback and I know you’re going to
do well in this area.” App, Vol. III at 659. And on May
1, 2018, Ms. Canton described a coaching experience
with Mr. Thomas as particularly positive.
2. Application for AU Position
On April 2, 2018, Mr. Thomas applied to fill one
of two AU vacancies in Phoenix, Arizona. Farmers
accepted only internal applications and ten Farmers’
employees applied. Mr. Thomas was the only candidate
from Olathe. Eight of the other candidates already
worked in Phoenix and the final candidate worked in
Round Rock, Texas.
John Radliff, a Personal Lines Field Underwriting
Manager with Farmers, was the person making the
hiring decisions for the AU positions. Mr. Radliff
worked in Olathe. While the positions were open, Mr.
Shelton, Mr. Thomas’s supervisor at the time, mentioned to Mr. Radliff that Mr. Thomas could easily
move to Phoenix because Mr. Thomas was single,
had no children, and owned a condominium he could
sell. Mr. Shelton later described this conversation to
Mr. Thomas as an attempt to bolster Mr. Thomas’s
candidacy.
Along with another manager, Mr. Radliff interviewed all ten candidates. An interview guide contained
a set of competencies to be explored during the interviews: “Teamwork; Decisiveness; Persuasiveness;
Customer Service Skills/Customer Orientation; Manage
Change.” Id. at 646. In his deposition, Mr. Radliff
testified he “was looking for three characteristics

App.5a
[:] . . . decisiveness, customer service, and . . . leadership or teamwork.” App., Vol. I at 222. Mr. Radliff
checked a box indicating Mr. Thomas had demonstrated
teamwork and leadership during his interview. Ultimately, Mr. Radliff did not select Mr. Thomas for
either position; he instead promoted Brittany Harris
and James Parchment Chavez. Both Ms. Harris and
Mr. Chavez were already located in Phoenix. Ms.
Harris is female, and Mr. Chavez is gay. Mr. Radliff
was unaware of Mr. Chavez’s sexual orientation at
the time of the promotion. And there is no evidence
that Mr. Radliff knew Mr. Thomas’s sexual orientation
when Mr. Radliff filled the AU positions.
After learning he had not been selected for an
AU position, Mr. Thomas asked Mr. Radliff for feedback. Mr. Radliff suggested that he and Mr. Thomas
meet in person, rather than communicate by email.
The two met on April 23, 2018, and Mr. Thomas
surreptitiously recorded the meeting.2 Mr. Radliff
told Mr. Thomas that although Mr. Thomas’s interview went well, Mr. Thomas had not displayed the
necessary leadership skills. Mr. Radliff stated that if
he was hiring for another position or location at some
point, “I might not need a leader, I might have a
bunch of alphas over there.” App., Vol. III at 647; see
also App., Vol. II at 351 (rendering the punctuation as:
“in the future, I might not need a leader—I might
have a bunch of alphas over there”). Mr. Radliff also
advised that in the future, Mr. Thomas might wish
to have more and earlier interactions with the hiring
manager. It is undisputed, however, that neither Ms.
2 There are three recordings in the record, including this one.
We cite to their location in the district court docket.

App.6a
Harris nor Mr. Chavez had such contacts with Mr.
Radliff.
3. Internal Complaint
On April 25, 2018, Mr. Thomas contacted Amy
Canton, a Human Resources Consultant with Farmers
based in Olathe. In his email, Mr. Thomas expressed
concern that Mr. Shelton had told Mr. Radliff about
Mr. Thomas’s marital status, age, and lack of children,
when suggesting Mr. Thomas would be able to relocate
to Phoenix for the AU position. Mr. Thomas also
stated, “I believe my orientation adds another
underlying factor to this.” Id. at 309. And he questioned
the appropriateness of Mr. Radliff’s suggestion that
Mr. Thomas develop “a ‘Personal Relationship’ . . . with
the hiring manager.” Id. Mr. Thomas did not mention
the “alphas” comment in this email.
Mr. Thomas and Ms. Canton met in person the
next day to discuss his complaint. During that meeting,
Ms. Canton offered to contact Farmers’ Talent
Acquisition Department to obtain additional feedback.
A Farmers employee contacted Mr. Radliff on May
8, 2018, to discuss Mr. Thomas’s desire for further
explanation.
On May 10, 2018, Ms. Canton emailed Mr. Thomas
additional feedback. Mr. Thomas responded by taking
issue with much of the information. Specifically, Mr.
Thomas challenged Mr. Radliff’s comments that Mr.
Thomas lacked a prior relationship with Mr. Radliff;
claimed Mr. Radliff had concluded Mr. Thomas “was
not ‘Alpha enough’ (Alpha meaning male characteristics, dominating)”; and alleged Mr. Radliff had
improperly “prescreened” Mr. Thomas “by coming up
to [his] direct supervisor, asking and inquiring about

App.7a
[his] Marital status, Age, and the number of dependents
[he] had, also the financial situation [he was] in.” Id.
at 314.
On May 11, 2018, Ms. Canton suggested she and
Mr. Thomas meet with Mr. Shelton to discuss Mr.
Thomas’s concerns. Six days later, on May 17, 2018,
Mr. Thomas indicated he wished to meet.
4. May 17, 2018, Call
Also on May 17, during a service call with an
agent, Mr. Thomas refused to apply a policy change
based on a supporting document Mr. Thomas deemed
unacceptable. The agent seeking the change requested
a callback from a supervisor; Mr. Thomas therefore
emailed Mr. Shelton. Mr. Shelton decided to accept
the document. Mr. Thomas responded to Mr. Shelton’s
decision in an email, explaining, “I deal with this
agent all the time. They call in yell and scream until
someone gives them what they want. They are clearly
lying, committing fraud, and misrepresenting this
household in order to get the discount.” Id. at 321.
Noting he “disagree[d] 100 percent” with applying
the discount, Mr. Thomas listed five reasons he
thought the document should not be accepted. Id.
In response, Mr. Shelton asked Mr. Thomas to
come by his desk. In his interaction log, Mr. Shelton
stated his intent was “to talk about how I came to my
conclusion” to accept the document. Id. at 291. The
log and Mr. Shelton’s deposition testimony reflect
that when Mr. Shelton attempted to explain his decision, Mr. Thomas stated “Look, this should have
taken five minutes to pull the [recording of the] call.
If you’re not going to do it, I will.” Id. at 291–92.
When Mr. Shelton indicated he did not need to pull

App.8a
the call, Mr. Thomas “said ‘whatever’ and stood up
and walked back to his desk during [Mr. Shelton’s]
coaching.” Id. at 292; see also App., Vol. I at 210 (Mr.
Shelton stating Mr. Thomas “stood up in the middle
of the conversation and said, Look, if you’re not going
to pull the call, I will. And got up and walked off”).
5. Final Warning
Later that same day, May 17, 2018, Farmers,
through Mr. Shelton, issued Mr. Thomas a final
warning. At Farmers, a final written warning prevents
an employee from using tuition reimbursement or
moving to another position in the company, and it
may impact the employee’s performance rating which
in turn may negatively impact bonuses or merit
increases in the employee’s salary. It is the step
before termination in Farmers’ discipline process; it
is unusual to issue a final written warning without
first trying other forms of discipline. Mr. Thomas had
not been formally disciplined prior to May 17, 2018.
Mr. Shelton asked Mr. Sims to attend the meeting
at which Farmers issued Mr. Thomas the final warning.
The final warning provides:
You are receiving a Final Notice for a violation of Farmers policy.
In addition to the coaching provided to you
by your previous supervisor, you have been
coached on multiple occasions over the past
two months about emotional resilience,
accepting and applying feedback to grow, as
well as creating a low effort experience for
our agents. Despite this ongoing coaching,
you have not made improvements in these

App.9a
areas and you are not meeting expectations.
I’ve offered you opportunities to grow, by
speaking in team huddles and outlining
documents to streamline our processes, to
which you declined.
Your continued lack of professionalism shows
through your interactions with others;
including the agents as well as with your
direct supervisor. This behavior also creates a
negative work environment with your peers.
When you are approached with constructive
feedback, you give pushback, you become
argumentative, and are unwilling to accept
the coaching. This lack of response to feedback resulted in an additional coaching on
05/17/18, in order to highlight how to create
a low effort experience. Your behavior during
this coaching session was unprofessional and
you displayed behaviors of insubordination.
This further demonstrates your lack of
openness and unwillingness to take constructive feedback to help you grow. To further
detail what happened, see my recap of the
coaching session below:
When trying to help you better understand my thought process on thinking
outside the box to make the agents[’]
experience easier on a specific transaction,
you made comments to me that display
an extreme lack of professionalism. You
also got up and walked out of our
coaching session before it was over.
I expect you to immediately correct your
behavior in compliance with Farmers poli-

App.10a
cies, Vision, Mission and Values. Any further instances of this behavior, or other
behavior in violation of Farmers policies
will result in action up to and including
termination of your employment.
App., Vol. II at 323. Mr. Thomas refused to sign the
final warning.
After receiving the final warning, Mr. Thomas
sent an email to Ms. Canton, indicating that Mr.
Thomas was no longer interested in meeting with
Mr. Shelton to discuss the AU selection process. Mr.
Thomas was unwilling “to be harassed or picked
apart, interrogated.” Id. at 325.
6. EEOC Complaint
On May 21, 2018, Mr. Thomas filed an EEOC
charge, alleging Farmers denied him the AU position
on the basis of sex and that it issued the final warning
as retaliation for his internal complaint about the
AU position hiring process. In September, Mr. Thomas
began reporting to Mr. Sims instead of Mr. Shelton.
After becoming Mr. Thomas’s supervisor, Mr. Sims
contacted Mr. Shelton about Mr. Thomas multiple
times, including noting that a coaching session would
again be necessary due to Mr. Thomas’s unprofessional telephone demeanor.
Ms. Canton, Farmers’ human resources consultant,
was asked at her deposition whether she “resolved”
the internal complaint before Mr. Thomas filed an
EEOC charge. She responded:
I felt as though [Mr. Thomas’s] concerns were
resolved after we had gone through the providing information to him from Talent Acquis-

App.11a
ition offering to meet with him and [Mr.
Shelton] to discuss further. Ultimately, he
did end up on a final warning, but he had
the open door with . . . his director, so based
off of [the director] sharing with me how
that conversation went, I felt as those concerns were resolved.
App., Vol. II at 500–01.
7. Filing of Complaint
Mr. Thomas filed the instant lawsuit on October
19, 2018. That same day, he mailed a waiver of service
and the complaint to Farmers’ Olathe office. When
Farmers received notice of a lawsuit, the employees
at the Olathe office who distribute the mail provide it
to someone in human resources. There were three
human resources employees who might receive a
lawsuit in Olathe, one of whom was Ms. Canton. For
example, Mr. Thomas mailed his Right to Sue Letter
to the Olathe office on August 1, 2018, and Ms.
Canton received it on August 2, 2018.
8. October 22, 2018, Call
On October 22, 2018, Mr. Thomas received a call
from an agent seeking to make a policy discount
retroactive. An audio recording of this call is included
in the record. Mr. Thomas refused to backdate the
discount based on the proffered documentation. The
agent asked who she could talk to “to get that
approved,” and Mr. Thomas responded, “what do you
mean?” App., Vol. III at 629; App., Vol. II at 368. The
agent clarified she wanted to know who could help
her backdate the discount, to which Mr. Thomas
replied the agent had not provided the proper docu-

App.12a
mentation. The agent asked again who she could
speak with to find out if backdating was possible, to
which Mr. Thomas said, “you’re talking to me.” App.,
Vol. II at 368–69. When the agent asked to speak to
Mr. Thomas’s supervisor, Mr. Thomas stated he
believed his supervisor was in a meeting, but he
offered to have his supervisor, Mr. Sims, call her.
The agent next asked to be transferred to Mr. Sims’s
voicemail. Mr. Thomas stated that Mr. Sims’s voicemail
was not set up, although it is undisputed that Mr.
Sims’s voicemail was in operation. The agent told
Mr. Thomas she would call back with the documents
but speak with someone else, stated that it was
ridiculous he would not apply the discount, and
asked his name. Mr. Thomas provided his name and
told her he was “sorry that you think it’s ridiculous.”
App., Vol. III at 669. The agent disconnected the call.
Mr. Thomas did not report the call to Mr. Sims.
9. Termination
Mr. Sims nonetheless learned about the October
22, 2018, call, and met with Mr. Thomas and another
supervisor, Cintia Mazzetta, on October 24, 2018.
Mr. Thomas surreptitiously recorded this meeting
and the recording is in the record. Although Mr.
Thomas had followed Farmers’ guidelines regarding
backdating, Mr. Sims indicated Mr. Thomas should
have handled the call better, especially by putting
the agent in touch with a supervisor when requested.
At the end of the meeting, Mr. Sims told Mr. Thomas
that the meeting was a coaching opportunity to provide feedback for Mr. Thomas to use going forward.
On October 24 or 25, 2018, Mr. Thomas saw Ms.
Canton visit Mr. Sims’s desk, an interaction he thought

App.13a
unusual. Mr. Thomas points to this interaction as
evidence that Mr. Sims knew about the lawsuit. But
there is no direct evidence that either Mr. Sims or
Ms. Canton was aware of the lawsuit prior to Farmers’
termination of Mr. Thomas, and both Mr. Sims and
Ms. Canton claim they first learned of the lawsuit
after Farmers terminated Mr. Thomas’s employment.
On October 25, 2018, Mr. Sims wrote a memorandum seeking support to terminate Mr. Thomas’s employment. In the “Reason for Termination Recommendation” section, he wrote:
[Mr. Thomas] was placed on a final warning
on May 17, 2018 for policy violation regarding
his emotional resilience, accepting/applying
feedback and his professionalism and conduct
with agents as well as his direct supervisor.
While reviewing a call that [Mr. Thomas]
received from an agent on October 22, 2018,
he showed no resilience during the coaching
session as to what could have been improved
or changed during the interaction. From his
viewpoint, it was a typical call with our
customers. When the agent asked for a
supervisor, he did not seek guidance and did
not provide this information to leadership
concerning the interaction nor the request
for a supervisor. This type of behavior with
the agents was also observed on an additional
call on October 19, 2018. Due to his inability
to accept feedback and apply emotional
resilience and professional [sic] while
interacting with our agents, the recommendation for termination is being made.

App.14a
App., Vol. II at 335. Farmers terminated Mr. Thomas’s
employment the same day, October 25, 2018.
B.

Procedural History

Mr. Thomas’s initial complaint alleged (1) discrimination on the basis of sex, due to Mr. Thomas’s
alleged nonconformance to male sex stereotypes, with
respect to the AU position and (2) retaliation by
Farmers in issuing him the final warning after he
had filed an internal complaint of discrimination. On
July 17, 2019, Mr. Thomas amended his complaint to
add a claim alleging (3) that his firing was discrimination based on sex and retaliation for filing his
charge of discrimination with the EEOC and filing
this suit. Farmers moved for summary judgment on all
counts.
The district court granted Farmers’ motion.
With respect to Mr. Thomas’s claim that Farmers
denied Mr. Thomas the AU position on the basis of
sex discrimination, the district court held the “alpha”
comment did not constitute direct evidence of discrimination because it could bear a nondiscriminatory meaning. It assumed without deciding that Mr.
Thomas had put forth a prima facie case of discrimination, but held Farmers had offered legitimate, nondiscriminatory reasons for not offering Mr. Thomas
the AU position and, later, for terminating his employment. And the district court held Mr. Thomas
had not adduced evidence of pretext regarding the AU
position. It therefore granted summary judgment to
Farmers as to the sex discrimination claim regarding
the AU position.
Regarding the claim that Mr. Shelton’s issuance
of a final warning was in retaliation for Mr. Thomas’s

App.15a
internal complaint, the district court rejected Mr.
Thomas’s argument that Ms. Canton’s testimony
constituted direct evidence of retaliation. The district
court then held Mr. Thomas had established a prima
facie case of retaliation due to the timing of his discrimination complaint and the final warning. Mr.
Thomas conceded Farmers had articulated a legitimate,
nonretaliatory reason for issuing the final warning,
but claimed it was pretextual. The district court held
that, although the temporal proximity of the final
warning and the internal complaint supported a
prima facie case, Mr. Thomas had failed to present
evidence of pretext aside from that timing, which
standing alone, was insufficient. The district court
therefore granted summary judgment to Farmers on
the final notice retaliation claim.
Next, the district court held Mr. Thomas had
waived a claim of discrimination with respect to his
termination. Turning to Mr. Thomas’s argument that
his termination was retaliatory, the district court
considered his claim under the circumstantial evidence
framework, noting Mr. Thomas had not pointed to
any direct evidence. It then assumed without deciding
that Mr. Thomas had put forth a prima facie case of
retaliation. The district court acknowledged that
Farmers claimed to have fired Mr. Thomas for the
legitimate, nondiscriminatory reason of his handling
of the October 22, 2018, service call combined with
his previous performance issues. And the district
court held Mr. Thomas had not come forward with
evidence sufficient to create a genuine issue of material
fact regarding pretext. The district court therefore
granted summary judgment to Farmers on the claims

App.16a
of discrimination and retaliation relating to Mr.
Thomas’s termination.
The clerk entered judgment on March 26, 2020,
and Mr. Thomas filed a timely notice of appeal.
II. Discussion
Mr. Thomas argues the district court erred in
granting summary judgment on his (1) discrimination
claim relating to Farmers’ decision not to promote
him, (2) retaliation claim relating to Farmers’ issuance
of a final warning, and (3) retaliation claim relating
to Farmers’ termination of his employment.3 He
maintains he put forth direct evidence that Farmers’
decision not to hire him for the AU position was
discriminatory and its issuance of the final warning
was retaliatory. Mr. Thomas further contends he
demonstrated by circumstantial evidence that Farmers’
explanations for each of the adverse employment
decisions are pretextual covers for discrimination and
retaliation. We begin our analysis by setting forth the
standard of review and the relevant legal background.
We then consider each of his three claims in turn.
A.

Standard of Review

This court “review[s] de novo a district court’s
grant of summary judgment.” Carolina Cas. Ins. Co.
v. Burlington Ins. Co., 951 F.3d 1199, 1207 (10th Cir.
2020). Like the district court, “we must draw all reasonable inferences and resolve all factual disputes in
favor of the non-moving party.” Jordan v. Maxim
3 Mr. Thomas does not argue the district court erred in holding
he failed to support a claim of discrimination regarding his termination.

App.17a
Healthcare Servs., Inc., 950 F.3d 724, 730 (10th Cir.
2020). “But an inference is unreasonable if it requires
a degree of speculation and conjecture that renders
[the factfinder’s] findings a guess or mere possibility.”
Pioneer Centres Holding Co. Emp. Stock Ownership
Plan & Tr. v. Alerus Fin., N.A., 858 F.3d 1324, 1334
(10th Cir. 2017) (alteration in original) (internal quotation marks omitted) (“Pioneer Centres”). We affirm
“if the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Jordan, 950 F.3d at
730 (quoting Fed. R. Civ. P. 56(a)).
B.

Legal Framework

“To survive summary judgment on a Title VII
claim of discrimination based on race, color, religion,
sex, or national origin, a plaintiff must present either
direct evidence of discrimination or indirect evidence
that satisfies the burden-shifting framework” the
Supreme Court set forth in McDonnell Douglas Corp.
v. Green, 411 U.S. 792 (1973). Bekkem v. Wilkie, 915
F.3d 1258, 1267 (10th Cir. 2019). A Title VII retaliation
claim also may be proven “either by direct evidence
or by reliance on the McDonnell Douglas framework.”
Id.
1. Direct Evidence
To constitute direct evidence, a piece of evidence
must demonstrate on its face the employment decision
was reached for discriminatory or retaliatory reasons.
Fassbender v. Correct Care Sols., LLC, 890 F.3d 875,
883 (10th Cir. 2018) (applying this definition in the
discrimination context); Vaughn v. Epworth Villa,
537 F.3d 1147, 1154 (10th Cir. 2008) (applying this

App.18a
definition in the retaliation context). Evidence is
“direct” only if it “proves the existence of a fact in
issue without inference or presumption.” Id. (quotation
marks omitted). A statement that “reflect[s] personal
bias” does not constitute direct evidence of discrimination “unless the plaintiff shows the speaker had
decisionmaking authority and acted on his or her discriminatory beliefs.” Tabor v. Hilti, Inc., 703 F.3d 1206,
1216 (10th Cir. 2013). And even then, to be considered
direct evidence, statements must be “closely linked to
the adverse decision” by “the context or timing of the
statements.” Id. “Furthermore, if the content and
context of a statement allow it to be plausibly
interpreted in two different ways—one discriminatory and the other benign— the statement does not
qualify as direct evidence.” Id.
In Tabor, for example, we held that where a
decisionmaker “explicitly stated a view that women
ha[d] inferior knowledge . . . and inferior ability” regarding “central requirements of the job” during an interview and within the context of a woman’s “discussion
about her fitness for the position,” the remarks
constituted direct evidence of discrimination. Id. at
1217; see also id. (“The content of [the interviewer’s]
statements, the interview context, and the temporal
proximity to the adverse employment decision directly
link the discriminatory statements to his decision
not to promote Ms. Tabor.”).
But by contrast, in Vaughn v. Epworth Villa we
determined a plaintiff had not shown direct evidence
of retaliation where her employer asserted “it terminated her because she provided unredacted medical
records to the EEOC.” 537 F.3d at 1154. We explained,
“one can easily interpret [the employer’s] statements

App.19a
benignly to mean that it would have terminated [the
plaintiff] for intentionally disclosing unredacted medical records to any third party,” an act which “would
have been contrary to the [employer’s] policies and
procedures, and ostensibly, the law.” Id. at 1155. Because there was a benign explanation, the statement
was not direct evidence of retaliation. Id. at 1154–55.
2. McDonnell Douglas Framework
The McDonnell Douglas “three-step burdenshifting framework” is used “to evaluate whether
circumstantial evidence of discrimination presents a
triable issue.” Fassbender, 890 F.3d at 884; see also
Bekkem, 915 F.3d at 1267 (explaining the McDonnell
Douglas framework applies to retaliation claims).
First, the plaintiff must establish a prima facie case.
For a discrimination claim, this entails showing, by a
preponderance of the evidence “that [he] is a member
of a protected class, [who] suffered an adverse employment action, and the challenged action occurred
under circumstances giving rise to an inference of
discrimination.” Bennett v. Windstream Commc’ns,
Inc., 792 F.3d 1261, 1266 (10th Cir. 2015). For a
retaliation claim, the plaintiff “must show (1) that
[he] engaged in protected opposition to discrimination,
(2) that a reasonable employee would have found the
challenged action materially adverse, and (3) that a
causal connection existed between the protected activity
and the materially adverse action.” Bekkem, 915 F.3d
at 1267 (quotation marks omitted).
The burden of production then shifts to the defendant, who must articulate a legitimate, nondiscriminatory or nonretaliatory reason for its actions. Bennett,
792 F.3d at 1266; Bekkem, 915 F.3d at 1267. If the

App.20a
defendant does so, the burden shifts back to the
plaintiff “to show that the defendant’s explanation
was merely pretextual.” Bennett, 792 F.3d at 1266.
“A plaintiff can meet this burden to show pretext in
either of two ways: (1) by showing that the proffered
reason is factually false or (2) by showing that discrimination was a primary factor in the employer’s
decision.” Tabor, 703 F.3d at 1218. This latter showing
is often accomplished by demonstrating the proffered
reasons “were so incoherent, weak, inconsistent, or
contradictory that a rational factfinder could conclude
the reasons were unworthy of belief.” Bekkem, 915
F.3d at 1268 (quotation marks omitted). But “[m]ere
conjecture that the employer’s explanation is a pretext
for intentional discrimination is an insufficient basis for
denial of summary judgment.” Id. (quotation marks
omitted).
C.

The AU Position
1. Direct Evidence

In providing feedback to Mr. Thomas on his interview for the AU position, Mr. Radliff said that in the
future, “I might not need a leader, I might have a
bunch of alphas over there.” App., Vol. III at 647.
The district court held this was not direct evidence of
discrimination on the basis of sex because the comment
“d[id] not explicitly state anything discriminatory
about [Mr. Thomas’s] failure to conform to male sex
stereotypes.” Id. at 719. We agree with the district
court.
As we require for direct evidence, there is a
nexus between the statement and the adverse employment action: Mr. Radliff was explaining to Mr.

App.21a
Thomas why Mr. Thomas was not offered the AU
position. See Tabor, 703 F.3d at 1216. But nexus
alone is not enough. Tabor explains “if the content
and context of a statement allow it to be plausibly
interpreted in two different ways—one discriminatory
and the other benign—the statement does not qualify
as direct evidence.” Id. Mr. Thomas’s argument on
appeal is, essentially, that Tabor cannot mean what
it says and we are not bound to follow it because the
relevant statement is dicta. Mr. Thomas further
asserts that Tabor is at odds with Price Waterhouse
v. Hopkins, 490 U.S. 228 (1989), and Perry v.
Woodward, 199 F.3d 1126 (10th Cir. 1999), if
interpreted to mean an ambiguous statement is not
direct evidence of discrimination. For the reasons we
now discuss, we are not persuaded.
First, this panel is bound to reject Mr. Thomas’s
argument. In Vaughn v. Epworth Villa, this court
held a statement was not direct evidence of retaliation
because it could be interpreted benignly. 537 F.3d at
1154–55. So, even if the statement in Tabor were
dicta, our holding in Vaughn is not. And Mr. Thomas
directs us to no prior-in-time inconsistent holding of
this court, subsequent en banc decision of this court
departing from Vaughn, or intervening decision of
the Supreme Court casting doubt on Vaughn’s holding.
Accordingly, we must apply Vaughn here. See Crowson
v. Washington County, 983 F.3d 1166, 1188–91 (10th
Cir. 2020) (holding a panel of this court is bound by
an earlier-in-time published holding, absent an
intervening inconsistent en banc or Supreme Court
decision).
Nor does our precedent conflict with the Supreme
Court’s decision in Price Waterhouse. There, the

App.22a
Court noted several “clear signs” of discrimination
where an inference was necessary: male partners
advised a female employee to take “a course at charm
school” and criticized “her use of profanity.” 490 U.S.
at 235 (plurality opinion). Even if we assume these
comments are similar to the “alphas” statement here
because an inference is needed to determine the
comments are motivated by sex stereotypes, we are
not persuaded Mr. Thomas can prevail. As the district
court explained, the Supreme Court “never considered
whether those statements—alone—constituted direct
evidence,” given that the Supreme Court also said
“the evidentiary ‘coup de grace’ was that a partner
told the female manager that to improve her chances
for partnership, she should ‘walk more femininely,
talk more femininely, dress more femininely, wear
make-up, have her hair styled, and wear jewelry.’”
App., Vol. III at 719–20 (quoting Price Waterhouse, 490
U.S. at 235 (plurality opinion)). Mr. Thomas does not
explain why the district court’s decision is inconsistent with Price Waterhouse despite these significant
differences. Nor does he point to evidence in this case
that is the equivalent of the Price Waterhouse “evidentiary ‘coup de grace.’” Id. Accordingly, we do not
read Price Waterhouse as precluding the district
court’s holding here.
Mr. Thomas next argues “Perry . . . permitted plaintiff[s] to show direct evidence with ‘allegedly discriminatory statements.’” Appellant Br. at 21 (emphasis
in Appellant Br.) (quoting Perry, 199 F.3d at 1134).
In his view, an “‘allegedly’ discriminatory statement”
is different from “an unambiguously discriminatory
statement.” Reply Br. at 7. That is, Mr. Thomas
equates “allegedly” as used in Perry, as synonymous

App.23a
with a statement supporting either a discriminatory
or a benign meaning. But the language Mr. Thomas
relies upon from Perry is a quotation from Cone v.
Longmont United Hospital Ass’n, 14 F.3d 526, 531
(10th Cir. 1994). Perry, 199 F.3d at 1134. It is not
surprising that we used the word “allegedly” in Cone
because it was unclear whether the statements there
had been made at all. 14 F.3d at 531 (“Since a summary judgment decision is under review, we will
assume that indeed [the relevant actors] made these
comments in the contexts asserted by [the plaintiff].”). Regardless, Cone and Perry were decided on
other grounds—in both cases, we held the comments
did not have a sufficient nexus to constitute direct
evidence of discrimination. Id.; Perry, 14 F.3d at
1134–35.
Mr. Thomas concedes on appeal that the “alphas”
comment can be interpreted as non-discriminatory.
He is right to do so. While a trier of fact could
conclude the word “alpha” is laden with gender-based
connotations, the statement nonetheless can be
plausibly interpreted as benignly referencing leadership
qualities. Accordingly, the district court was correct
when it concluded the comment does not constitute
direct evidence of discrimination. See Vaughn, 537
F.3d at 1154–55.
2. McDonnell Douglas Framework
As there is no direct evidence of discrimination,
we turn to the McDonnell Douglas burden-shifting
framework. Like the district court, we assume without
deciding that Mr. Thomas’ claim Farmers discriminated
against him because he did not conform to male sex
stereotypes establishes a prima facie case of discrimi-

App.24a
nation on the basis of sex.4 And Mr. Thomas concedes
that Farmers met its burden of proffering a legitimate, nondiscriminatory reason for not offering him
the AU position—namely, that the two people selected
were more qualified than he. Our analysis therefore
focuses on whether Mr. Thomas has demonstrated
pretext.
Mr. Thomas argues he demonstrated pretext because: (1) there are inconsistencies in Farmers’
proffered explanation, including Mr. Radliff noting
Mr. Thomas had not previously developed a relationship
4 On appeal, Mr. Thomas argues that his sexual orientation is
another way in which he was discriminated against with
respect to the AU position. The Supreme Court recently ruled
that “it is impossible to discriminate against a person for being
homosexual . . . without discriminating against that individual
based on sex.” Bostock v. Clayton County, 140 S. Ct. 1731, 1741
(2020). But Mr. Thomas cannot succeed on this theory for several reasons. First, this claim was not raised in the complaint.
Lawmaster v. Ward, 125 F.3d 1341, 1351 n.4 (10th Cir. 1997)
(holding this court focuses on the claims in the complaint).
Indeed, the operative complaint makes no mention of Mr. Thomas’s
sexual orientation. Second, there is no genuine dispute that Mr.
Radliff was unaware of Mr. Thomas’s sexual orientation when
he filled the AU positions. See App., Vol. II at 378 (Mr. Thomas
controverting the statement that Mr. “Radliff did not know [Mr.
Thomas] was gay” only by pointing to evidence that Mr. Radliff
learned Mr. Thomas was gay after the complaint was filed—
which was after Mr. Radliff selected other candidates for the
AU positions). Thus, even if Mr. Thomas could raise this theory
now, it would necessarily fail. See Singh v. Cordle, 936 F.3d
1022, 1043 (10th Cir. 2019) (holding, in the retaliation context,
that an inference of retaliation could not be drawn where no
evidence showed the decisionmakers were aware of the plaintiff
engaging in protected action). Third, as we explain, Mr. Thomas
has not shown the proffered nondiscriminatory reasons were
pretextual.

App.25a
with the hiring manager (Mr. Radliff), Mr. Radliff
claiming leadership was a qualification for the position
despite the position not being a leadership position,
and Mr. Radliff checking the box that Mr. Thomas
demonstrated teamwork and leadership; and (2) Mr.
Radliff’s desire to provide feedback in person, which
Mr. Thomas suggests could allow a jury to infer Mr.
Radliff knew his feedback was improper. Mr. Thomas
also argues the district court improperly analyzed
these reasons individually rather than collectively.
Our review of the district court’s decision indicates
it properly concluded the inconsistencies Mr. Thomas
alleged, taken together, are insufficient to demonstrate
pretext. First, Mr. Radliff requesting an in-person
meeting does not give rise to a reasonable inference
of discrimination. See Riggs v. Airtran Airways, Inc.,
497 F.3d 1108, 1117 (10th Cir. 2007) (noting at summary judgment a court must determine whether the
nonmoving party has adduced sufficient evidence to
allow the jury to draw an inference). We have explained
that an inference is unreasonable—that is, it is speculation—where it “renders [the factfinder’s] findings
a guess or mere possibility.” Pioneer Centres, 858
F.3d at 1334 (alteration in original) (quotation marks
omitted). Here, a jury would have to make two speculative leaps to hold Farmers liable: it would first need
to assume the reason Mr. Radliff wanted to meet in
person was to avoid a written record, and then also
assume Mr. Radliff wished to avoid a written record
because he “knew there was something improper
about [his] reasons.” Appellant Br. at 30. Because no
evidence suggests either conclusion would be more
than a guess, the district court properly rejected this
as baseless speculation, rather than a proper inference.

App.26a
Second, no reasonable jury could find Mr. Radliff
did not hire Mr. Thomas for the AU position because
Mr. Thomas did not have sufficient prior interactions
with Mr. Radliff. The audio recording of the April 23,
2018, meeting reveals that when Mr. Radliff raised
the importance of interactions with hiring managers,
he was providing advice “for future reference.” ECF
No. 61-10 3:00–3:50. Thus, that advice cannot
undermine the reasons provided for not selecting Mr.
Thomas for one of the AU positions.
Third, there is no genuine dispute that while the
AU position was not posted as a leadership position,
Mr. Radliff viewed leadership as a desirable quality
in the candidates. Indeed, the guide for the interviews
listed leadership as an area to be explored with the
candidates. Further, checking the box that Mr. Thomas
demonstrated leadership does not indicate he exhibited
the desired skillset more than the successful candidates
did.
Taken together, Mr. Thomas’s speculative reasons
do not constitute evidence from which a rational trier
of fact could reasonably infer pretext. We therefore
affirm the grant of summary judgment on the AU
position discrimination claim.
D. Final Written Notice
1. Direct Evidence
Mr. Thomas points to a statement from Ms.
Canton’s deposition as direct evidence of retaliation.
Ms. Canton testified:
I felt as though [Mr. Thomas’s] concerns were
resolved after we had gone through the pro-

App.27a
viding information to him from Talent
Acquisition offering to meet with him and
[Mr. Shelton] to discuss further. Ultimately,
he did end up on a final warning, but he
had the open door with . . . his director, so
based off of [the director] sharing with me
how that conversation went, I felt as those
concerns were resolved.
App., Vol. II at 500–01.
Direct evidence in this context must “prove[ ] the
existence of a fact in issue without inference or presumption.” Fassbender, 890 F.3d at 883 (quotation
marks omitted). Ms. Canton’s testimony does not
meet that standard. Even assuming Ms. Canton’s
testimony meant the final warning resolved Mr.
Thomas’s complaint, the jury would be left to infer
whether Mr. Thomas’s complaint happened to be
resolved because Farmers issued him a final warning
based on his performance issues or whether Farmers
“resolved” his complaint by issuing the final warning.
Ms. Canton’s testimony says nothing about this
question and is therefore not direct evidence of retaliation.
Mr. Thomas argues that our precedent limits
the instances in which the need for an inference
prevents a statement from being “direct evidence” to
only the precise circumstances of Riggs: “the inference
that because a decision maker holds a certain bias
towards a group, his adverse action towards a member
of the group was made because of that bias.” Appellant
Br. at 34. According to Mr. Thomas, statements requiring an inference constitute “direct” evidence in
all other circumstances. Mr. Thomas misapprehends
Riggs, however, and has failed to provide a citation

App.28a
to any decision in which we have treated evidence as
direct when its probative value depends upon an
inference. But even if the forbidden category of
inferences were as narrow as Mr. Thomas suggests,
he could not prevail.
The inference Mr. Thomas advances is that because he made an internal complaint about not being
offered a job within the company, and the final
warning prevented him from seeking an internal
position, we can infer the final warning was retaliatory.
This is similar to inferring that, because a decisionmaker had a bias and a person belonging to a group
against whom he was biased suffered an adverse employment action, the adverse employment action was
because of that bias. In sum, the inference necessary
here is analogous to the type of inference forbidden
in Riggs. The district court did not err in holding
that Ms. Canton’s statement is not direct evidence of
retaliation.
2. McDonnell Douglas Framework
Again, we must turn to circumstantial evidence
and the McDonnell Douglas framework. Farmers
concedes the “proximity in timing” between the internal
complaint and the final warning—three weeks—”is
likely sufficient to establish a prima facie case” of
retaliation. Appellee Br. at 42. And Mr. Thomas
concedes Farmers met its burden of articulating a
nonretaliatory reason for issuing the final warning
by offering evidence that it issued the final warning
due to Mr. Thomas’s insubordination, lack of professionalism, and failure to improve in response to
feedback. Accordingly, the parties again engage on
the issue of pretext.

App.29a
Mr. Thomas argues evidence of pretext includes:
(1) the temporal proximity between the final warning
and the internal complaint; (2) the inconsistency
between his supervisors’ criticisms that he was not
accepting or applying feedback and their praise for
him being open to coaching; (3) the absence of any
complaints from his coworkers to support the claim
he was creating a negative work environment; (4)
Mr. Shelton’s issuance of a final warning without
first using lesser discipline; and (5) Mr. Shelton’s
inconsistent behavior regarding Mr. Thomas.5 Mr.
Thomas also contends the district court erred by
taking his arguments individually rather than as a
whole.
The fact that Mr. Thomas sometimes accepted
feedback and demonstrated occasional improvement
does not change that the record is replete with
instances of his failure to do so, including during the
May 17, 2018, phone call and meeting. Similarly, Mr.
Shelton’s behavior toward Mr. Thomas was not
inexplicable or inconsistent. After Mr. Shelton provided
feedback to Mr. Thomas on numerous occasions, Mr.
Shelton informed his own supervisor that the coaching
phase was done: “now I’m in an observation period to
see if [Mr. Thomas] responds to the coaching or keeps
with his ways and this will determine my next steps
5 Mr. Thomas also argues that the nature of a final warning,
which prevented him from applying for other internal positions,
constitutes circumstantial evidence that the discipline was
retaliatory. But he did not raise this argument before the district
court. See App., Vol. II at 421–24 (Mr. Thomas’s response in
opposition to summary judgment, not making this argument).
We therefore do not consider it. Strauss v. Angie’s List, Inc., 951
F.3d 1263, 1266 n.3 (10th Cir. 2020) (“Generally, this court does
not consider arguments raised for the first time on appeal.”).

App.30a
of corrective action.” App., Vol. II at 319. Although
Mr. Shelton praised Mr. Thomas on the occasions he
accepted coaching, Mr. Shelton acknowledged that
only future observation would reveal whether Mr.
Thomas “keeps with his ways,” warranting further
“corrective action.” There is nothing inconsistent in
these statements. When the events of May 17, 2018,
showed Mr. Thomas had not responded to coaching,
Mr. Shelton took “next steps of corrective action.” In
short, no rational trier of fact could agree with Mr.
Thomas that Mr. Shelton’s statements are so inconsistent as to show pretext.
Next, Mr. Thomas contends that because none of
his coworkers complained about his behavior, Mr.
Shelton’s statement that Mr. Thomas was creating a
negative working environment is evidence of pretext.
Again, Mr. Thomas merely speculates that the absence
of employee complaints demonstrates Mr. Shelton
did not believe Mr. Thomas was creating a negative
work environment. Even in the absence of complaints,
Mr. Shelton could perceive Mr. Thomas’s attitude as
a bad influence on other employees. And Mr. Thomas
offers no evidence suggesting Mr. Shelton did not
sincerely hold that belief. See DePaula v. Easter Seals
El Mirador, 859 F.3d 957, 970–71 (10th Cir. 2017)
(holding that to be worthy of credibility the employer’s
reason need not be objectively correct, but rather the
employer must subjectively believe the reason).
Nor could a factfinder reasonably infer only from
the timing and the severity of punishment that Mr.
Shelton’s reasons were pretextual. See Bird v. West
Valley City, 832 F.3d 1188, 1204 (10th Cir. 2016)
(“[E]ven though the timing leading up to an employee’s
termination is evidence of pretext, it is not sufficient

App.31a
standing alone to establish pretext.” (emphases in
original) (citation omitted)). The record reflects Mr.
Shelton had been coaching Mr. Thomas about his
telephone demeanor since March, with no lasting
success. Mr. Shelton also documented Mr. Thomas’s
insubordinate behavior immediately prior to the final
warning. Under these circumstances, the decision to
issue a final warning does not support an inference
of pretext. Although Mr. Shelton could have pursued
lighter discipline, he was not required to do so. See
Timmerman v. U.S. Bank, N.A., 483 F.3d 1106, 1120
(10th Cir. 2007) (holding, in an age discrimination
case, where “progressive discipline was entirely discretionary” and the employer “did not ignore any
established company policy in its choice of sanction,
the failure to implement progressive discipline [was]
not evidence of pretext”); Dyer v. Lane, 564 F. App’x
391, 395 (10th Cir. 2014) (unpublished) (same, in a
Title VII discrimination case). We therefore affirm
the grant of summary judgment on the retaliation
claim regarding the final warning.
E.

Termination

Mr. Thomas relies solely on circumstantial evidence to support his claim that Farmers terminated
him in retaliation for protected activity. We therefore
analyze his claim only under the McDonnell Douglas
framework. Like the district court, we assume without
deciding that Mr. Thomas has made out a prima
facie case of retaliation. And Mr. Thomas concedes
Farmers met its burden of articulating a nonretaliatory
reason for his termination—namely, his handling of
the October 22, 2018, call and his inability to accept
feedback. So, here too, our analysis narrows to the
issue of pretext.

App.32a
Mr. Thomas argues his handling of the October
22, 2018, call was a pretextual reason for Farmers
terminating his employment because (1) Mr. Thomas’s
offer of a supervisor callback was sufficient, (2) Mr.
Thomas followed Farmers’ policy on backdating, (3)
despite Mr. Sims’s citing the final warning in the
memorandum recommending termination, the final
warning did not discipline Mr. Thomas for failing to
bring a call to his supervisor’s attention, and (4) Mr.
Sims initially decided not to terminate Mr. Thomas,
instead telling Mr. Thomas the feedback should be
applied going forward. Mr. Thomas also contends the
termination memorandum’s statement that he was
fired because of his inability to accept feedback is inconsistent because the recording of the October 24,
2018, meeting showed he was receptive to feedback,
and he had received substantial praise for accepting
feedback in the past.
The first three arguments about the October 22,
2018, call all fail for the same reason: the legitimate,
nondiscriminatory reason offered for termination was
not the merit of Mr. Thomas’s substantive position
on the call, but rather Mr. Thomas’s tone with the
agent and his subsequent unwillingness to accept
feedback about the call. In the memorandum regarding
termination, Mr. Sims indicated Mr. Thomas “showed
no resilience during the coaching session as to what
could have been improved or changed during the”
October 22, 2018, call. App., Vol. II at 335. The
memorandum identifies Mr. Sims’s other primary
concern as Mr. Thomas’s “inability to . . . apply emotional resilience and professional [sic] while interacting
with . . . agents.” Id.

App.33a
Nowhere has Farmers asserted that it terminated
Mr. Thomas for refusing to backdate a discount.
Regarding Mr. Thomas’s failure to alert his supervisor
about the call, the record is clear that Mr. Sims
expected Mr. Thomas to do so. Whether or not Mr.
Thomas was required to inform Mr. Sims under
Farmers policy is immaterial—he does not meaningfully
contest the sincerity of Mr. Sims’s belief. “Evidence
that the employer should not have made the termination decision—for example, that the employer was
mistaken or used poor business judgment—is not
sufficient to show that the employer’s explanation is
unworthy of credibility.” DePaula, 859 F.3d at 970–71
(internal quotation marks omitted). Relatedly, while
the final warning did not involve a failure to bring a
call to a supervisor’s attention, the final warning
disciplined Mr. Thomas for exhibiting inappropriate
behavior toward an agent seeking assistance on a
service call and for being unreceptive to feedback.
These were the same issues that Mr. Sims cited in
support of Mr. Thomas’s termination. We agree with
the district court that the circumstances are not so
dissimilar as to suggest the reasons for termination
were pretextual.
Mr. Thomas next argues he was receptive to
feedback in the October 24, 2018, meeting, relying on
his summary judgment response and the recording of
the meeting. But the issue is whether a reasonable
jury could find that Mr. Sims did not sincerely view
Mr. Thomas as being unreceptive to feedback. DePaula,
859 F.3d at 970–71. Such a finding is not supported
by the record evidence. In Mr. Thomas’s view, he
said “okay” receptively to several points of feedback
during the meeting. But the recording of the meeting

App.34a
reveals numerous instances of Mr. Thomas disagreeing
with Mr. Sims’s and Ms. Mazzetta’s feedback and
characterization of the call. Indeed, near the end of
the meeting, Ms. Mazzetta says: “I feel like there’s a
lot of pushback and you’re not trying to see that right
now, so we’re wasting a lot of time. So I think that
maybe come back to it later when you’re ready to
talk to [Mr. Sims] about it and say, ‘you know what, I
could have improved in that.’” ECF No. 61-9 33:02–
33:14. No rational jury could conclude after listening
to the recording of the discussion that Mr. Sims’s
concern about Mr. Thomas not accepting feedback
was pretextual.
Mr. Thomas’s final argument is that Mr. Sims
had decided not to terminate him at the end of the
October 24 meeting, and that nothing after that
meeting is offered as a reason for termination. It is
true Mr. Sims closed the meeting by saying “This is a
coaching opportunity. It’s something for you to listen
to, to reflect on, to hear the feedback that [we] . . . have
provided and apply that to those calls going forward,
so we don’t encounter a situation like this.” Id. at
35:37–35:54. Thus, it is possible Mr. Sims had not
yet decided what to do about Mr. Thomas when the
meeting concluded. But as Farmers maintains, “there
is [also] no evidence in the record that [Mr.] Sims had
decided at the end of the . . . meeting not to terminate”
Mr. Thomas. Appellee Br. at 54. The district court
noted Mr. Sims’s statement “suggests no imminent
termination” but because the termination “was based,
in part, on [Mr. Thomas’s] behavior in [that] meeting,
[Mr.] Sims’s comment is insufficient to support a
finding of pretext.” App., Vol. III at 741. Even assuming
Mr. Sims had not yet decided to fire Mr. Thomas at

App.35a
the end of the October 24 meeting, nothing about
that indecision supports a finding that the reasons
given for termination when the decision was made
were pretextual.
Mr. Thomas claims the jury could reasonably infer
that Mr. Sims changed his mind and fired Mr. Thomas
because Mr. Sims learned about the lawsuit after the
October 24 meeting. He bases this on his testimony
that he observed Ms. Canton stop by Mr. Sims’s
desk. To make that inference, though, the jury would
have to conclude Ms. Canton went to Mr. Sims’s desk
(1) for the purpose of informing Mr. Sims about Mr.
Thomas filing this lawsuit and (2) after Mr. Thomas’s
October 24 meeting (which ended at 11:48 a.m., see
ECF No. 61-9 36:14–36:15). Both conclusions would
require the jury to speculate.
The evidence establishes only that Ms. Canton
was one of three people at the Olathe office who
might receive notice of a lawsuit. Nothing demonstrates
she in fact received this lawsuit, and she denies that
she did. Mr. Thomas suggests it is more likely that
Ms. Canton was the employee who received the lawsuit
because of her involvement in the case, but he offers
no evidence in support, only speculation. And even if
the jury could conclude Ms. Canton eventually would
receive the lawsuit, it would be pure speculation to
conclude she received it by October 25, 2018.
As for timing, the evidence proffered by Mr.
Thomas shows Ms. Canton went to Mr. Sims’s desk
sometime on the 24th or 25th of October, but not which
day, or whether it was before or after his meeting
with Mr. Sims. Accordingly, even if the evidence suggests Mr. Sims changed his mind about terminating
Mr. Thomas’s employment, no rational jury could

App.36a
find his reasons were pretextual.6 We therefore affirm
the grant of summary judgment on Mr. Thomas’s
claim of retaliatory termination.
III. Conclusion
We AFFIRM.
Entered for the Court
/s/ Carolyn B. McHugh
Circuit Judge

6 Mr. Thomas also argues that because the final warning was a
but-for cause of Farmers’ decision to terminate his employment,
if the final warning was retaliatory, his termination was as
well. Because we hold that Mr. Thomas has failed to show the
issuance of the final warning was retaliatory, section II.D.2,
supra, this argument necessarily fails.

App.37a
MEMORANDUM AND ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
(MARCH 26, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
________________________
JOSHUA O. THOMAS,
Plaintiff,
v.
FARMERS INSURANCE EXCHANGE,
Defendant.
________________________
Case No. 18-2564-DDC-ADM
Before: Daniel D. CRABTREE,
United States District Judge.
Plaintiff Joshua Thomas asserts discrimination
and retaliation claims under Title VII against defendant
Farmers Insurance Exchange. Plaintiff alleges that
defendant discriminated against him because he failed
to conform to male sex stereotypes and retaliated
against him for filing a formal complaint and this
lawsuit. Doc. 50 at 7–8 (Pretrial Order ¶ 4.a.). This
matter comes before the court on defendant’s Motion
for Summary Judgment (Doc. 53). Plaintiff has filed
a Memorandum in Opposition (Doc. 61), and defendant
has filed a Reply (Doc. 69). For reasons explained below,

App.38a
the court grants summary judgment against plaintiff’s claims.
I.

Uncontroverted Facts

The following facts are either stipulated by the
parties in the Pretrial Order (Doc. 50), uncontroverted,
or, where genuinely controverted, are stated in the
light most favorable to plaintiff, the party opposing
summary judgment. Scott v. Harris, 550 U.S. 372,
378–80 (2007).
Defendant is a Nevada corporation registered to
do business in Missouri. Defendant operates a Service
Center in Olathe, Kansas. On March 9, 2015, defendant
hired plaintiff as a Service Advocate II at its Olathe
Service Center. On April 16, 2016, defendant promoted
plaintiff to Senior Service Advocate. Plaintiff held
this position until his termination on October 25,
2018. In these roles, plaintiff worked in defendant’s
Service Operations Personal Lines Division. Plaintiff’s
job duties included handling calls and questions from
internal and external customers about insurance
policies and accounts. From March 2015 to March 2018,
plaintiff reported to Service Operations Supervisor
Jeanann Sebers. From March 2018 to September
2018, plaintiff reported to Service Operations Supervisor Jarrod Shelton. From September 2018 until his
termination on October 25, 2018, plaintiff reported to
Service Operations Supervisor Curt Sims.
Plaintiff is a gay man. His affidavit testified that
he “did not conform to stereotypes of how males
behave and act in a way that was noticeable to [his]
coworkers.” Doc. 61-8 at 1 (Pl. Aff. ¶ 3). Plaintiff testified that, while at work, he wore “clothing that,
though professional, was very stylish and fashionable

App.39a
in a way that [ ] did not conform to the way males
stereotypically dressed.” Id. (Pl. Aff. ¶ 4). Plaintiff’s
affidavit testified that he “was very attentive to [his]
appearance and hygiene and kept [his] desk very tidy
in a way that fails to conform to stereotypes of male
behavior.” Id. (Pl. Aff. ¶ 5). And, plaintiff testified in
his affidavit, “during breaks I socialized primarily with
my female co-workers while most male co-workers
socialized with other male co-workers, in a way that
fails to conform to stereotypes of how males behave.”
Id. at 1–2 (Pl. Aff. ¶ 6)).
Plaintiff’s April 2018 Account
Underwriter Specialist Application
On April 2, 2018, plaintiff applied for a Personal
Lines Account Underwriter Specialist position (“AU
position”) in Phoenix, Arizona. Defendant needed to
fill two open AU positions in Phoenix. Defendant
posted the positions only for its own employees. Ten
employees, including plaintiff, applied. Eight candidates
worked in Phoenix and one worked in Round Rock,
Texas. Only plaintiff worked in Olathe. Personal
Lines Field Underwriting Manager John Radliff—
located in Olathe—served as the hiring manager and
selected candidates for the positions. Radliff testified
that he had looked for three characteristics in
applicants: decisiveness, customer service, and
“leadership or teamwork.” Doc. 54-3 at 6. The “Behavior
Based Interview Guide” that defendant used while
interviewing listed five “competencies” covered in the
interviews: teamwork, decisiveness, persuasiveness,
customer service skills/customer orientation, and
“manage change.” Doc. 61-12.

App.40a
Radliff and Jared Schmitz (another manager)
conducted interviews with all 10 applicants. Before
plaintiff’s interview, Shelton (plaintiff’s supervisor at
the time) talked to Radliff and recommended plaintiff
for the job. Shelton told Radliff that plaintiff was
“ready to move, single and had no kids.”1 Doc. 54-2
at 4; Doc. 54-1 at 33–34. Shelton then told plaintiff
about the conversation. But, ultimately, Radliff selected
Brittany Harris (female) and James Parchment Chavez
(male) for the AU positions. Radliff selected Harris
because she had “showcased” the skills he was looking
for during her interview. Doc. 54-3 at 10–11. He
selected Chavez because of his tenure with defendant
and his experience training employees at the Phoenix
location, and because he had interviewed well. Id.
Chavez is gay, which Radliff didn’t know at the time
of the interview. Radliff also didn’t know plaintiff is
gay.2
On April 23, 2018, plaintiff sent Radliff an email
requesting feedback on his interview. Later the same
morning, Radliff sent plaintiff a message asking if he
“had a moment to visit about [j]ob feedback.” Doc. 5416 at 3. Plaintiff responded that he was on the phone
and asked Radliff to email him. Radliff replied that
1 During Radliff’s interview with J.D. White—who investigated
plaintiff’s subsequent EEOC Charge—Radliff said that he did
not remember any discussion with Shelton about plaintiff’s
marital or family status, or his ability to relocate. Doc. 61-28 at 17.
2 Plaintiff testified that he believed he had, at some point, told
Shelton he is gay. Doc. 61-1 at 2. Plaintiff’s former supervisor,
Sebers, also may have known plaintiff is gay. But she never
participated in the screening, interviewing, or hiring process for
the AU positions. And, she made no decisions about plaintiff’s
employment after he began reporting to Shelton in March 2018.

App.41a
he would “prefer to chat if possible” and specified
that he meant he wanted to “chat” with plaintiff “in
person,” not online. Id. Radliff and plaintiff met, and
Radliff told plaintiff that he had interviewed well,
but had failed to show the necessary leadership skills
for the position. Doc. 54-1 at 42. Radliff told plaintiff
that maybe there would be a future position for him.3
Id. at 40. And, he told plaintiff, “in the future I might
not need a leader. I might have a bunch of alphas
over there.”4 Doc. 54-1 at 42. Radliff testified that he
wanted somebody who could “drive the team” and “be
a good leader from a per[spective] of [Radliff] being a
remote manager,” since he managed the Phoenix
employees from Olathe. Doc. 54-3 at 13–14. When
asked whether the two candidates he selected were
“alpha,” Radliff testified that they had “showcased
the leadership skills that [he] was looking for within
the interview.” Doc. 61-5 at 3–4. But, Radliff checked
the box on the interview sheet reporting that plaintiff
had “demonstrated” teamwork and leadership during
his interview. Doc. 61-5 at 2. And, Radliff testified,
the AU position wasn’t a “leadership position.” Doc.
61-5 at 12.

3 Plaintiff never had interacted with Radliff before his interview.
Radliff told plaintiff that developing some type of relationship
or rapport with hiring managers before a job posts is a “valuable
opportunity.” Doc. 61-10 at 3:02. Despite Radliff’s advice to
plaintiff, he had developed no prior relationship with the two
candidates he selected for the AU positions.
4 Unbeknownst to Radliff, plaintiff audio-recorded this conversation (Doc. 61-10).

App.42a
Plaintiff’s April 2018 Discrimination
Complaint to Human Resources
On April 25, 2018, plaintiff emailed Amy Canton
(defendant’s Human Resources Consultant) complaining that Radliff had not selected him for an AU
position. The next day, Canton met with plaintiff.
She agreed to contact defendant’s Talent Acquisition
Department to learn more information about the
decision and why plaintiff wasn’t selected for role.
On May 8, 2018, Kyle Velthouse (defendant’s Human
Resources recruiter) contacted Radliff about why he
did not hire plaintiff, and Radliff asked to talk to
Velthouse by phone about plaintiff. Doc. 61-5 at 8–9.
On May 10, 2018, Canton sent an email to plaintiff with information about why Radliff had not
offered him the job, and provided five recommendations
for improving his future interviews. Plaintiff replied
by email to Canton, complaining that Radliff told
him he was “not ‘[a]lpha enough’[ ] ([a]lpha meaning
male characteristics, dominating).” Doc. 54-18 at 1.
And, he complained, Radliff inappropriately had “prescreened” him by asking his supervisor (Shelton)
about plaintiff’s marital status, age, and number of
dependents. Id. Canton responded, suggesting that
they—meaning plaintiff and Canton—meet with
Shelton in person. Initially, plaintiff agreed to the
meeting. But after receiving a final written warning
(see Doc. 54-21),5 plaintiff sent another email to
Canton refusing to meet with Shelton “if I’m going to

5 Defendant issued plaintiff a final written warning on May 17,
2018. The court describes the circumstances of this final warning
below. See pp. 7–9.

App.43a
be harassed or picked apart, interrogated.” Doc. 5422 at 1. Plaintiff and Shelton never met.
Plaintiff’s Performance in 2018
In January 2018, Sebers met with plaintiff and
“coached” him about a phone call based on “frustration
heard” during the call.6 Doc. 54-1 at 14; Doc. 54-11 at
9. In March 2018, Shelton—plaintiff’s manager from
March to September 2018—worked with plaintiff on
his “CE” (customer experience) and his “tend[ency] to
let his aggression show when frustrated.”7 Doc. 54-12
6 The record is unclear about whether plaintiff, the agent, or
both felt the frustration. In any event, plaintiff received several
positive reviews from Sebers, his supervisor from March 2015 to
March 2018. For example, in plaintiff’s 2017 mid-year review,
Sebers wrote that plaintiff was willing to accept feedback about
his performance, and that she was “confident [plaintiff was]
taking the necessary feedback . . . to be an even stronger team
member.” Doc. 61-2 at 31. And Sebers never formally disciplined
plaintiff while he reported to her. Canton testified that she
considered plaintiff a “good employee” based on his performance
ratings when he reported to Sebers, and that he had outstanding performance reviews in 2016 and 2017. Doc. 61-4 at 8, 23.
And Canton described him as a strong performer to J.D. White,
who investigated plaintiff’s EEOC Charge. Doc. 61-28 at 2.
7 Plaintiff also received some positive reviews in 2018. On March
26, 2018, Shelton complimented plaintiff on his “[r]ock-solid
performance” on his call metrics. Doc. 61-2 at 3. On March 27,
2018, plaintiff asked Shelton about areas where plaintiff had
failed to receive a perfect score on agent surveys, and Shelton
responded, “[e]xcellent question. This is the type of attitude
that I appreciate and will make you more successful in your
role.” Id. at 4. Shelton testified he said this because plaintiff
had “tak[en] ownership of his performance.” Id. Later the same
day, Shelton sent plaintiff a message saying, “I’m listening to
your call. I love how you’re telling him and showing him how to
do it. Nice work.” Id. at 6. On March 31, 2018, Shelton told
plaintiff, “I appreciate how open you are to feedback and I know

App.44a
at 1. Plaintiff testified that Shelton had worked with
him in March 2018 on his “verbal skills with agents.”
Doc. 54-1 at 24. On March 31, 2018, Shelton emailed
his supervisor, Karilynn Reeves, that he was “still
working closely with [plaintiff] on his verbal skills
you’re going to do well in this area.” Id. at 28. On April 4, 2018,
an agent emailed Shelton to “commend” plaintiff for thinking
“outside the box” and for “go[ing] the extra mile to resolve an
issue.” Doc. 61-17 at 1. On May 1, 2018—16 days before plaintiff’s
final warning—Canton described a recent “‘coaching’ experience”
with plaintiff, where she and Shelton “were able to see quick
results in terms of the employee acceptance and ownership.”
Doc. 61-26 at 1. On May 7, 2018, Shelton sent plaintiff a
message that he had “noticed some good improvements in your
small talk and tone on the phone today.” Doc. 54-11 at 14. On
May 10, 2018, Shelton emailed plaintiff about his phone metrics
and said, “[t]his is fantastic! Nice work sir,” and, “[y]ou’re really
supporting our team more than you know with phone metrics.”
Doc. 61-18 at 1. In a June 13, 2018 meeting between Shelton
and Canton, Shelton told Canton that plaintiff had accepted
and implemented Shelton’s feedback. Doc. 61-4 at 7. On June
24, 2018, Shelton wrote to plaintiff, “[y]ou’re a rockstar sir and I
truly appreciate how you’re already implementing these positive
steps.” Doc. 61-2 at 9. On July 19, 2018, an agent emailed
Shelton praising plaintiff for “[going] out of his way” to solve a
problem and noted that “[i]t is unusual to find that kind of
dedication.” Doc. 61-19. Canton testified that on October 19,
2018, Sims told her that plaintiff took a call where an agent
spoke to plaintiff rudely, and plaintiff handled the call well and
showed “emotional resiliency.” Doc. 61-4 at 19.
On June 22, 2018, defendant recognized plaintiff as a “certified
author,” which is a designation achieved by a relatively small
number of employees. Doc. 61-6 at 2–4. The testimony about
this designation’s meaning is far from clear, but Canton testified that it involves a “process . . . where advocates can create
knowledge to share with others. . . . ” Doc. 61-6 at 2. Plaintiff
also received numerous “Perfect 10” awards in recognition of his
performance. See, e.g., Doc. 61-15 at 1–2. A “Perfect 10” award
means that an agent rated the employee highly in all areas.

App.45a
toward agents.” Doc. 54-13 at 1. On April 3, 2018,
Shelton wrote in plaintiff’s “Interaction Log”8 that he
met with plaintiff about “how his frustration shows
through the phone.” Doc. 54-11 at 11. On April 13,
2018, Shelton recorded in the Log that he spoke with
plaintiff about how he “seems to be doing a little
better” and again about “not letting his frustration
show through the call.” Id. On April 26, 2018, Shelton
wrote in the Log that he “spoke [with plaintiff] in
great detail about his tone, cutting people off, and
not empathizing.”9 Id. On May 7, 2018, Shelton
recorded in the log that he and plaintiff “spoke in
great detail about the same three things [ . . . ] empathy,
tone, cutting people off.” Doc. 54-11 at 15; Doc. 54-1
at 57–58. Shelton recorded that he “advised [plaintiff]
that if his tone, empathy, and cutting people off
doesn’t stop, it will result in corrective action.” Doc.
54-11 at 15. On May 10, 2018, Shelton emailed
Reeves—his supervisor—that he had “coached [plaintiff] as much as [he could], so now [he is] in an
observation period to see if [plaintiff] responds to the
coaching or keeps with his ways. . . . ” Doc. 54-19 at 1.
8 An “Interaction Log” is “an official record intended to document
discussions with employee[s].” Doc. 54-11 at 1. Shelton testified
that supervisors record information such as conversations or
“coaching” with an employee, an employee arriving late for
work, or good things about the employee. Doc. 61-2 at 26.
9 Plaintiff sent Canton an email on May 3, 2018 complaining
that his meeting plaintiff had with Shelton the week before was
“pretty clear retaliation” for plaintiff’s meeting with Canton.
Doc. 61-27 at 1. Plaintiff’s email never specifies that he is
referring to this April 26 meeting, but nothing in the summary
judgment record suggests that Shelton and plaintiff had another
meeting that week. In any event, plaintiff had a meeting with
Shelton that plaintiff perceived as retaliatory.

App.46a
He also told Reeves he was “[w]orking with the team
to focus on empathy.” Id.
Defendant Gives Plaintiff a Final Warning
On May 17, 2018, plaintiff refused to accept a
document an agent had submitted to support a policy
change request. Plaintiff emailed Shelton the document
at issue because the agent had asked for a supervisor
to call her. Shelton reviewed the document, deemed
it acceptable, and told plaintiff to accept it.10 Plaintiff
then emailed Shelton a list of reasons why he disagreed
with this decision. Doc. 54-20 at 1. Shelton recorded
in the Interaction Log that he called plaintiff to his
desk to “talk about how [he] came to [his] conclusion.”
Doc. 54-11 at 18. Shelton testified that plaintiff
“stood up in the middle of the conversation,” he “got
up and walked off.”11 Doc. 54-2 at 15. On May 17,
2018, defendant issued plaintiff a final warning. Doc.
54-21. According to Shelton, the final warning resulted
from plaintiff’s performance issues and his behavior
during their May 17 meeting. Doc. 54-2 at 14. Shelton
issued plaintiff’s final warning, and Sims—who later
became plaintiff’s supervisor in September 2018—
also attended the meeting. Shelton testified that he
10 In reviewing the document at issue, Shelton testified that he
conducted a Google search to determine whether the document
was acceptable. Defendant had no policy that directed employees
to conduct this kind of research when evaluating documents.
11 Shelton testified that he didn’t “have any idea” whether
plaintiff thought the meeting was over when he left. Doc. 61-2
at 25. Plaintiff emailed Shelton the next day saying that “i[n]
the final write up you said that the conversation was not over,
in real[ity] . . . it was, you said you were going to accept [the
document].” Doc. 54-22 at 3.

App.47a
wanted Sims there because he “was delivering a final
[warning] and I generally always want somebody to
be there.” Doc. 61-2 at 19. The warning read, in part:
In addition to the coaching provided to you
by your previous supervisor, you have been
coached on multiple occasions over the past
two months about emotional resilience,
accepting and applying feedback to grow, as
well as creating a low effort experience for
our agents. Despite this ongoing coaching,
you have not made improvements in these
areas and you are not meeting expectations.
I’ve offered you opportunities to grow, by
speaking in team huddles and outlining documents to streamline our processes, to
which you declined.
Your continued lack of professionalism shows
through your interactions with others; including the agents as well as with your direct
supervisor. This behavior also creates a
negative work environment with your peers.
When you are approached with constructive
feedback, you give pushback, you become
argumentative, and are unwilling to accept
the coaching. This lack of response to feedback
resulted in an additional coaching on 5/17/18,
in order to highlight how to create a low
effort experience. Your behavior during this
coaching session was unprofessional and
you displayed behaviors of insubordination.
This further demonstrates your lack of openness and unwillingness to take constructive
feedback to help you grow. To further detail

App.48a
what happened, see my recap of the coaching
session below:
When trying to help you better understand
my thought process on thinking outside the
box to make the agent[’]s experience easier
on a specific transaction, you made comments
to me that display an extreme lack of professionalism. You also got up and walked out of
our coaching session before it was over.
Doc. 54-21 at 1. A final warning is the last step before
termination in defendant’s progressive discipline process. A final warning prevents an employee from
moving to another position within the company,
prevents him from receiving tuition reimbursement
from defendant, and can affect his performance rating,
which could affect his annual bonus or merit increases.
Shelton never had issued plaintiff any written warnings
or discipline before this final written warning on
May 17, 2018. Shelton knew he could have disciplined
plaintiff less severely. Supervisors must consult with
Human Resources before issuing a final written
warning. Defendant’s Human Resources consultant
Amy Canton testified that a supervisor issuing a final
warning directly—without prior discipline—depends
on the situation, but does not occur often. Doc. 61-4
at 17. Canton testified that defendant has had several
employees besides plaintiff who have struggled with
“emotional resilience.” Id. at 11–12. She testified that
could not remember an instance where an “emotional
resilience” issue itself resulted in corrective action.
Id. at 12. And, none of plaintiff’s coworkers had complained to Human Resources about plaintiff’s behavior
creating a negative work environment.

App.49a
Plaintiff’s EEOC Charge and Lawsuit
On May 21, 2018, plaintiff filed an EEOC Charge
alleging that (1) in April 2018, defendant denied him
the AU position because of his sex, and (2) in May
2018, defendant issued him a warning in retaliation
for his complaint to Human Resources. See Doc. 5423 at 1 (EEOC Charge). The EEOC mailed the Right
to Sue Letter to Canton at defendant’s address on
August 1, 2018, and she received it on August 2,
2018.
Plaintiff mailed his Complaint in this case,
along with a form waiving service, to defendant on
October 19, 2018. When defendant received this
notice of the lawsuit, defendant’s practice called for a
support employee to deliver the lawsuit materials to
one of three Human Resources employees, including
Canton. Canton was the only Human Resources
employee who oversaw the Olathe Service Center.
Defendant Terminates Plaintiff
In September 2018, plaintiff began reporting to
Curt Sims.12 On October 22, 2018, plaintiff received
12 Sims and plaintiff’s former supervisor—Shelton—communicated about plaintiff’s performance. On June 1, 2018, Sims sent
a message to Shelton telling him to listen to a call plaintiff had
made. Doc. 61-20. The next week, Sims sent Shelton another
message asking if anything had happened with plaintiff’s call
the week before. On June 28, 2018, Sims sent Shelton a message
about a call plaintiff had made, and that he was “[j]ust passing
[it] along to” Shelton. Doc. 61-25 at 1. Soon after, plaintiff began
reporting to Sims. Shelton and his supervisor decided plaintiff
would report to Sims, and plaintiff had no say in the matter. On
September 14, 2018, Sims sent Shelton a message that he wanted
to wanted to talk to Shelton because he “[j]ust ha[d] some
questions on [plaintiff].” Doc. 61-22. And, on September 25,

App.50a
a call from an agent requesting a retroactive discount
on a policy. Plaintiff told the agent that he could not
backdate the discount without proper documentation.
The agent then asked who she could talk to “to get
that approved,” and plaintiff responded, “what do
you mean?” Doc. 61-9 at 7:30. The agent asked who
she could talk to about having the discount backdated,
and plaintiff explained that defendant had not yet
received the necessary documentation. The agent
stated that she called to find out whether the discount
could be backdated, and asked who she could talk to
about backdating the discount. Plaintiff explained to
her, “you’re talking to me. We won’t be able to
backdate it,” and that plaintiff would add the discount
when he received proper documentation. Id. at 8:00.
The agent again asked plaintiff about having the discount backdated, because “the other girl” had told
her somebody could approve backdating the discount.
Id. at 8:15. Plaintiff told her, “you would be talking to
me,” and that the agent had not met the requirements
for backdating. Id. at 8:19. The agent asked whether
she could talk to someone else about the issue. Plaintiff asked the agent who she would like to speak to,
and she told him, “maybe your supervisor.” Id. at 8:32.
2018, Sims sent Shelton a message saying it “looks like there
needs to be a little coaching session with [plaintiff]” after a call.
Doc. 61-23. On October 23, 2018, Sims sent Shelton a message
asking him how to create a certain kind of report, and about
plaintiff’s October 22, 2018 call (the cited reason for plaintiff’s
termination). Shelton testified that he did not remember
another instance where he had conversations with other managers about an employee who he did not supervise. And, Shelton
testified, he did not remember another instance where another
supervisor asked him to listen to another employee’s calls and
provide feedback about those calls. Doc. 61-2 at 24.

App.51a
Plaintiff told the agent—accurately—that he
believed his supervisor was in a meeting, and offered
to have him call her. The agent asked for plaintiff’s
supervisor’s voicemail. Plaintiff told her—inaccurately—that he did not believe his supervisor had set
up his voicemail. Plaintiff testified that he never had
transferred an agent to voicemail before, and he
feared disconnecting the call if he tried to transfer
the agent as requested. Doc. 61-1 at 4–5. The agent
told plaintiff she would call back and speak to
someone else when she had the documents. She told
plaintiff it was ridiculous he would not apply the discount. Plaintiff apologized that the agent thought it
was ridiculous, and gave the agent his name before
the agent disconnected the call. Plaintiff never told
Sims about the call.
On October 24, 2018, Sims and Cintia Mazzetta
(another supervisor) met with plaintiff about the
October 22 call with the agent. Sims and Mazzetta
played the call for plaintiff. Sims then asked whether
anything about the call alarmed plaintiff, and plaintiff
responded, “not really.” But, at the end of the discussion, plaintiff acknowledged that the phone call
“was definitely a stand[ ]-out phone call[ ] that [he]
had during the day.” Doc. 61-9 at 30:18. He admitted
that he could have handled the call better, such as by
looking at the County Assessor’s website for the
necessary information. Id. at 32:35. He acknowledged
that the agent had expressed frustration at the end of
the call. Id. at 23:45.
In the meeting, Sims acknowledged that plaintiff
had followed defendant’s guidelines for backdating

App.52a
discounts.13 Id. at 11:50. Sims told plaintiff that if an
agent wanted to speak to a supervisor and Sims was
unavailable, plaintiff should contact another supervisor
in Olathe or at another location, even though defendant
never had trained plaintiff that he should transfer
calls to another location. At the end of the meeting,
Sims told plaintiff that their meeting was a “coaching
opportunity,” and that plaintiff should listen to,
reflect on, and apply the feedback he had provided to
plaintiff. Id. at 35:30. Sims testified that this incident
alone—without the prior final warning—created no
reason for termination. Doc. 54-6 at 6. When provided
with an example (see Doc. 61-16 at 1) of an employee
communicating the same information about backdating
that plaintiff had provided to the agent, Sims testified
there was no reason to discipline or terminate that
employee. Doc. 54-6 at 6. He testified that plaintiff’s
case warranted termination because it was “repeated
behavior.” Id.
On October 25, 2018, Sims wrote a memorandum
seeking support for his decision to terminate plaintiff.
In the “Reason for Termination Recommendation”
section of the memo, Sims explained, in part:
[Plaintiff] was placed on a final warning on
May 17, 2018 for policy violation regarding
his emotional resilience, accepting/applying
feedback and his professionalism and conduct
with agents as well as his direct supervisor.
13 Mazzetta told plaintiff, “[y]ou have a guideline that’s telling
you no . . . but what did you do differently? And that’s what’s
going to set you apart from other people. Right? Everybody can
follow guidelines, but how are you going to help the agent?”
Doc. 61-9 at 17:45.

App.53a
While reviewing a call that [plaintiff] received
from an agent on October 22, 2018, he showed
no resilience during the coaching session as
to what could have been improved or changed
during the interaction. From his viewpoint,
it was a typical call with our customers.
When the agent asked for a supervisor, he
did not seek guidance and did not provide
this information to leadership concerning the
interaction nor the request for a supervisor.
Doc. 54-25 at 1. Sims testified that a lack of “resilience
during the coaching session” meant that plaintiff had
failed to see how he could have handled the call
differently. Doc. 54-6 at 13. On October 25, 2018—six
days after plaintiff filed his Complaint in this lawsuit—
defendant terminated plaintiff.14 Sims testified that
he didn’t know plaintiff had filed an EEOC Charge or
a lawsuit before he terminated plaintiff’s employment.
Doc. 54-6 at 16. Canton testified that she, too, didn’t
know plaintiff had filed a lawsuit before Sims
terminated plaintiff’s employment. Doc. 54-4 at 8.
II. Summary Judgment Standard
Summary judgment is appropriate if the moving
party demonstrates that there is “no genuine dispute
14 Plaintiff mailed the Complaint to defendant on October 19,
2018. Defendant’s practice called for its Support Services
employees to deliver the Complaint to someone in Human
Resources. Canton oversaw Human Resources for the Olathe
Service Center. On October 24 or 25, 2018—before plaintiff’s
termination—plaintiff’s affidavit testified that plaintiff saw
Canton leave her office and visit Sims’ desk. Doc. 61-8 at 2 (Pl.
Aff. ¶ 13). Plaintiff’s affidavit asserts that plaintiff “almost never
saw [Canton] come out of her office and over to that area.” Id.

App.54a
as to any material fact” and that it is “entitled to a
judgment as a matter of law.” Fed. R. Civ. P. 56(a);
see also In re Aluminum Phosphide Antitrust Litig.,
905 F. Supp. 1457, 1460 (D. Kan. 1995). When it
applies this standard, the court “view[s] the evidence
and make[s] inferences in the light most favorable to
the non-movant.” Nahno-Lopez v. Houser, 625 F.3d
1279, 1283 (10th Cir. 2010) (citing Oldenkamp v.
United Am. Ins. Co., 619 F.3d 1243, 1245–46 (10th
Cir. 2010)).
“An issue of fact is ‘genuine’ ‘if the evidence is
such that a reasonable jury could return a verdict for
the non-moving party’ on the issue.” Id. (quoting
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986)); see also In re Urethane Antitrust Litig., 913
F. Supp. 2d 1145, 1150 (D. Kan. 2012) (explaining that
“[a]n issue of fact is ‘genuine’ if ‘the evidence allows a
reasonable jury to resolve the issue either way.’”
(quoting Haynes v. Level 3 Commc’ns, LLC, 456 F.3d
1215, 1219 (10th Cir. 2006)). “An issue of fact is
‘material’ ‘if under the substantive law it is essential
to the proper disposition of the claim’ or defense.”
Nahno-Lopez, 625 F.3d at 1283 (quoting Adler v.
Wal-Mart Stores, Inc., 144 F.3d 664, 670 (10th Cir.
1998) (citing Anderson, 477 U.S. at 248)).
The moving party bears “‘both the initial burden
of production on a motion for summary judgment and
the burden of establishing that summary judgment is
appropriate as a matter of law.’” Kannady v. City of
Kiowa, 590 F.3d 1161, 1169 (10th Cir. 2010) (quoting
Trainor v. Apollo Metal Specialties, Inc., 318 F.3d
976, 979 (10th Cir. 2002)). To meet this burden, the
moving party “‘need not negate the non-movant’s
claim, but need only point to an absence of evidence

App.55a
to support the non-movant’s claim.’” Id. (quoting
Sigmon v. CommunityCare HMO, Inc., 234 F.3d 1121,
1125 (10th Cir. 2000)); see also In re Urethane
Antitrust Litig., 913 F. Supp. 2d at 1150 (explaining
that “a movant that does not bear the ultimate
burden of persuasion at trial need not negate the
other party’s claim; rather, the movant need simply
point out to the court a lack of evidence for the other
party on an essential element of that party’s claim.”
(citation omitted)).
If the moving party satisfies its initial burden,
the non-moving party “‘may not rest on its pleadings,
but must bring forward specific facts showing a
genuine issue for trial as to those dispositive matters
for which it carries the burden of proof.’” Id. (quoting
Jenkins v. Wood, 81 F.3d 988, 990 (10th Cir. 1996));
see also Celotex Corp. v. Catrett, 477 U.S. 317, 324
(1986); Anderson, 477 U.S. at 248–49. “To accomplish
this, the facts must be identified by reference to
affidavits, deposition transcripts, or specific exhibits
incorporated therein.” Adler, 144 F.3d at 671 (citing
Thomas v. Wichita Coca-Cola Bottling Co., 968 F.2d
1022, 1024 (10th Cir.), cert. denied, 506 U.S. 1013
(1992)).
Finally, summary judgment is not a “disfavored
procedural shortcut.” Celotex, 477 U.S. at 327. Instead,
it is an important procedure “designed ‘to secure the
just, speedy and inexpensive determination of every
action.’” Id. (quoting Fed. R. Civ. P. 1).
III. Analysis
Plaintiff has asserted two Title VII claims—discrimination based on sex and retaliation—against
defendant. Doc. 50 at 7–8. Specifically, plaintiff alleges

App.56a
that defendant denied plaintiff promotions and terminated his employment because he failed to conform
to male sex stereotypes. Id. at 7. And, plaintiff alleges,
defendant retaliated against plaintiff twice by (1)
issuing him a final warning after he reported discrimination to Human Resources, and (2) terminating
him after he filed his EEOC Charge and this lawsuit.
Id. at 7–8. The court addresses each claim, in turn
below.
A. Plaintiff’s Discrimination Claim
“Title VII of the Civil Rights Act of 1964 prohibits,
among other things, unlawful employment discrimination on the basis of an individual’s sex.” Tabor v.
Hilti, 703 F.3d 1206, 1216 (10th Cir. 2013) (internal
citations and quotations marks omitted). A plaintiff
may assert a Title VII claim for unlawful gender
stereotyping based on an employer’s discrimination
“against [the plaintiff] based on [his] failure to confirm
to stereotypical gender norms.” Potter v. Synerlink
Corp., 562 F. App’x 665, 674 (10th Cir. 2014) (first
citing Price Waterhouse v. Hopkins, 490 U.S. 228, 250
(1989), superseded on other grounds by statute, 42
U.S.C. § 2000e-2(m), as recognized in Burrage v. United
States, 571 U.S. 204, 213 n.4 (2014); then citing Etsitty
v. Utah Transit Auth., 502 F.3d 1215, 1223 (10th Cir.
2007)). A plaintiff may prove discrimination through
direct evidence or circumstantial evidence that creates
an inference of intentional discrimination. Bennett v.
Windstream Commc’ns, Inc., 792 F.3d 1261, 1266
(10th Cir. 2015). Here, plaintiff argues he has adduced
both direct and circumstantial evidence of discrimination. The court considers each argument, in turn,
below.

App.57a
1. Direct Evidence
Plaintiff asserts he has adduced direct evidence
of discrimination. Plaintiff asserts that Radliff’s
comment that he might hire plaintiff “in a different
set of circumstances if he already has ‘a bunch of alphas
over there’” refers to plaintiff’s failure to conform to
male sex stereotypes. Doc. 61 at 65. Plaintiff asserts
that this statement is direct evidence of discrimination because Radliff made the comment in the context
of telling plaintiff why he did not select him for an
AU position. Id. at 65–66.
“When a plaintiff offers direct evidence of discrimination in a Title VII claim, [his] claim may
move forward without being subjected to the burdenshifting framework set forth in McDonnell Douglas
Corp. v. Green. . . . ” Tabor v. Hilti, 703 F.3d at 1216
(citation omitted); see Ramsey v. City and Cty. of
Denver, 907 F.2d 1004, 1007–08 (10th Cir. 1990)
(“‘[T]he McDonnell Douglas test is inapplicable where
the plaintiff presents direct evidence of discrimination.’”
(quoting Trans World Airlines, Inc. v. Thurston, 469
U.S. 111, 121 (1985))). “Direct evidence is evidence
that, on its face, demonstrates that the employment
decision was reached for discriminatory reasons.”
Didier v. Abbott Labs., 614 F. App’x 366, 372 (10th
Cir. 2015) (citing Danville v. Reg’l Lab Corp., 292
F.3d 1246, 1249 (10th Cir. 2002)). “The classic example
of direct evidence of discrimination comes from Trans
World Airlines, where the Supreme Court held that
an explicit, mandatory age requirement was direct
evidence of age discrimination.” Tabor, 703 F.3d at
1216 (citing Trans World Airlines, 469 U.S. at 121).
“Comments in the workplace that reflect personal
bias do not qualify as direct evidence of discrimination

App.58a
unless the plaintiff shows the speaker had decisionmaking authority and acted on his or her discriminatory beliefs.” Id. (citing Ramsey, 907 F.2d at 1008).
“[D]iscriminatory statements do not qualify as direct
evidence if the context or timing of the statements is
not closely linked to the adverse decision.” Id. (citing
Riggs v. AirTran Airways, Inc., 497 F.3d 1108, 1118
(10th Cir. 2007)). See also Perry v. Woodward, 199 F.3d
1126, 1134 (10th Cir. 1999) (holding that when a
plaintiff alleges direct evidence of discrimination, the
plaintiff must establish a nexus between the allegedly
discriminatory comments and the termination). And,
“if the content and context of a statement allow it to
be plausibly interpreted in two different ways—one
discriminatory and the other benign—the statement
does not qualify as direct evidence.” Tabor, 703 F.3d
at 1216.
Plaintiff argues that a nexus exists between Radliff’s allegedly discriminatory comment and the adverse
employment action. Doc. 61 at 66. That is, Radliff
made the “alpha” comment while explaining to plaintiff why he had not selected plaintiff for an AU
position. Id. And, plaintiff asserts, the context and
manner in which Radliff made the comment make it
direct evidence of discrimination. Id. Plaintiff asserts
that Radliff’s insistence on meeting with plaintiff in
person to provide feedback—rather than doing so over
email, as plaintiff requested—suggests that Radliff
knew the discriminatory nature of the comment and
wanted to avoid a record of it. Id.
Defendant responds that the “alpha” comment
doesn’t qualify as direct evidence. Doc. 54 at 25–26.
Defendant asserts that Radliff made the “alpha”
comment about leadership skills and abilities, not

App.59a
about sexual stereotypes or a failure to conform of
them. Id. And, under Tabor, “if the content and
context of a statement allow it to be plausibly interpreted in two different ways—one discriminatory and
one benign—the statement does not qualify as direct
evidence.” Id. (citing Tabor, 703 F.3d at 1216). Defendant thus contends that the “benign” interpretation of
“alpha” (i.e., a reference to leadership ability) defeats
plaintiff’s direct evidence argument. Id. at 26.
The court agrees with plaintiff that a link must
exist between the alleged discriminatory comment
and the adverse employment action. See Tabor, 703
F.3d at 1216 (explaining that “discriminatory statements do not qualify as direct evidence if the context
or timing of the statement is not closely linked to the
adverse decision.”); see also Riggs, 497 F.3d at 1118
(holding that plaintiff failed to produce direct evidence of discrimination because no “direct link” existed
between the alleged discriminatory conduct and
termination); Perry, 199 F.3d at 1134 (holding that
when a plaintiff alleges that discriminatory comments
constitute direct evidence of discrimination, he must
show a “nexus” between the statements and the decision to terminate plaintiff). But plaintiff focuses on
this requirement only. This link between an alleged
discriminatory statement and the adverse employment is necessary—but it’s not the only consideration
when deciding whether evidence qualifies as direct
evidence of discrimination. See, e.g., Tabor, 703 F.3d
at 1216 (holding that, to qualify as direct evidence,
maker of discriminatory comments must have had
decisionmaking authority and acted on her discriminatory beliefs, and also that a comment fails as

App.60a
direct evidence if there is a plausible, “benign” interpretation for it).
Tabor provides an example of direct evidence of
sex discrimination. In that case, a female applicant
had applied for another job within her company. 703
F.3d at 1213. During the interview, the manager
“made a number of statements” about the applicant’s
gender. Id. He told her that “tools are like guns for
men and using them is almost like second nature.”
Id. (internal citation and quotation marks omitted).
He told her it would “take more work for her, as a
woman, to learn the tools well enough to demonstrate
them for customers. . . . ” Id. (citation omitted). The
Circuit held that the manager’s explicitly stated view
that women possessed an inferior knowledge of tools
and inferior ability to sell tools constituted direct evidence of discrimination. Id. at 1217. The Circuit
reasoned that these “statements spoke directly to
central requirements of the job,” and the manager
“made them during a discussion about [plaintiff’s]
fitness for the position.” Id.
Here, Radliff made the “alpha” comment in the
context of explaining why he had not hired plaintiff
for an AU position. But commenting that he “may
not need an alpha” in the future does not explicitly
state anything discriminatory about plaintiff’s failure
to conform to male sex stereotypes. Unlike Tabor,
Radliff never stated any sex-based reason that plaintiff
was less qualified for the job than other candidates.
Plaintiff counters, asserting that defendant
interprets Tabor incorrectly. Plaintiff argues that the
rule in Tabor, i.e., that a statement with a plausibly
benign interpretation is not direct evidence of discrimination, conflicts with the Supreme Court’s ruling in

App.61a
Price Waterhouse v. Hopkins, 490 U.S. 228 (1989),
overruled on other grounds by 42 U.S.C. §§ 2000e–2(m),
2000e–5(g). Plaintiff argues that Price Waterhouse
recognized a comment that a female manager needed
to “take a course at charm school” and criticism of
her use of profanity qualified as direct evidence of
discrimination because the comments occurred during
a discussion about why the employer had denied her
promotion to partner status. Doc. 61 at 66 (quoting
Price Waterhouse, 490 U.S. at 235). Plaintiff argues
that both statements have a non-discriminatory
interpretation. So, plaintiff argues, defendant’s
interpretation of Tabor conflicts with Price Waterhouse.
Plaintiff misapprehends Price Waterhouse. Plaintiff
is correct—there was direct evidence of discrimination
in Price Waterhouse. But—as the Supreme Court
explained—the evidentiary “coup de grace” was that
a partner told the female manager that to improve
her chances for partnership, she should “walk more
femininely, talk more femininely, dress more
femininely, wear make-up, have her hair styled, and
wear jewelry.” 490 U.S. at 235 (internal citation and
quotation marks omitted). The Supreme Court
considered the “charm school” comment and criticism
about her use of profanity as one of many “clear signs
. . . that some of the partners reacted negatively to
[her] personality because she was a woman.” Id. But
the Court never considered whether those statements—
alone—constituted direct evidence of discrimination.
And in this case, the alleged discriminatory comment
here falls far short of the statements in Price Waterhouse.
Plaintiff contends that Radliff’s “alpha” comment
unmistakably and unambiguously referenced plaintiff’s

App.62a
failure to conform to male sex stereotypes. This argument is unpersuasive. One plausibly can interpret the
comment as a reference to leadership skills—a nondiscriminatory meaning. Since the statement has a
plausible non-discriminatory interpretation, it fails to
qualify as direct evidence. See Tabor, 703 F.3d at 1216
(holding that “if the content and context of a statement
allow it to be plausibly interpreted in two different
ways—one discriminatory and the other benign—the
statement does not qualify as direct evidence”).
2. Circumstantial Evidence
Finding that plaintiff has adduced no direct evidence of discrimination, the court applies the threestep burden-shifting framework established by
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973).
Khalik v. United Air Lines, 671 F.3d 1188, 1192 (10th
Cir. 2012) (citing Crowe v. ADT Sec. Servs., Inc., 649
F.3d 1189, 1194 (10th Cir. 2011)). First, the plaintiff
must establish a prima facie case of discrimination.
Id. This requires a showing that: (1) “[he] is a member of a protected class,” (2) “[he] suffered an adverse
employment action, and” (3) “the challenged action
occurred under circumstances giving rise to an
inference of discrimination.” Bennett, 792 F.3d at
1266. Plaintiff’s burden at this stage is “not onerous.”
Potter, 562 F. App’x at 674 (internal quotation marks
and citation omitted).
Next, if plaintiff satisfies this prima facie burden,
the burden shifts to defendant to articulate a legitimate,
non-discriminatory reason for the adverse employment
action. Crowe, 649 F.3d at 1195. And, last, where
defendant discharges this burden, the burden shifts
back to plaintiff. In this third stage, plaintiff must

App.63a
show that defendant’s proffered reasons for its actions
are pretextual. Id. (citing Young v. Dillon Cos., Inc.,
468 F.3d 1243, 1249 (10th Cir. 2006)).
a. Prima Facie Case
Defendant asserts that there is no triable issue
here because plaintiff has failed to establish a prima
facie case of discrimination. Defendant argues that
plaintiff has produced no evidence to support the
inference that plaintiff fails to conform to male sex
stereotypes or that any such failure resulted in adverse
employment action. Doc. 54 at 28. Plaintiff responds,
asserting he has made a prima facie case of sex discrimination based on evidence of his failure to conform
to male sex stereotypes and Radliff’s “alpha”
comment.15 Doc. 61 at 68.
Plaintiff satisfies the first two elements of his
prima facie case because he is male, and defendant
both denied him a promotion and terminated him.
15 Defendant also argues in this section of its Memorandum
that “a gender stereotyping claim should not be used to bootstrap
protection for sexual orientation into Title VII.” Doc. 54 at 28
(citing Medina v. Income Support Div., 413 F.3d 1131, 1135
(10th Cir. 2005) (holding that Title VII protections do not
extend to harassment based on a person’s sexuality). Plaintiff
responds, contending that “the law on this question is quickly
evolving,” but concedes that “Title VII does not directly prohibit
discrimination because of sexual orientation.” Doc. 61 at 70.
Plaintiff asserts, however, his claim should advance beyond the
first stage of the McDonnell Douglas analysis because his
“sexual orientation is not the only way in which he fails to
conform to sex stereotypes, and he has made a prima facie case
without it.” Id. at 71. The court thus considers plaintiff’s claims
without considering his sexual orientation. See Etsitty, 502 F.3d
at 1222 (Title VII protects employees only if they are discriminated against because they are male or because they are female).

App.64a
See, e.g., Oncale v. Sundowner Offshore Servs., Inc.,
523 U.S. 75, 78 (1998) (noting that the Title VII sex
discrimination prohibition protects both men and
women); Hillig v. Rumsfeld, 381 F.3d 1028, 1032–33
(10th Cir. 2004) (holding that “adverse employment
action” includes acts such as hiring, firing, and
failing to promote). The parties dispute, however,
whether the circumstances of the adverse employment
action, i.e., denying plaintiff the AU position and his
termination, raise an inference of discrimination.
Defendant asserts that, other than plaintiff’s own
belief, nothing suggests that defendant denied him
an AU position or terminated his employment because
of his purported failure to conform to male sex
stereotypes. Doc. 54 at 27. And, defendant argues,
plaintiff has adduced no evidence that any of defendant’s employees even viewed him as failing to conform
to male sex stereotypes. Id. Plaintiff responds that he
has adduced evidence that he fails to conform to
male sex stereotypes. Specifically, he asserts, he
“fail[s] to conform to sex stereotypes in ways that
were noticeable [to] his coworkers, including the way
[he] dressed, the way he presented himself, and the
way he acted.”16 Doc. 61 at 69.
16 In his affidavit, plaintiff testified that plaintiff “did not conform
to stereotypes of how males behave and act in a way that was
noticeable to [his] coworkers.” Doc. 61-8 at 1 (Pl. Aff. ¶ 3). His
affidavit testified that he dressed in a “stylish and fashionable”
manner that “did not conform to the way males stereotypically
dressed,” was “attentive to [his] appearance and hygiene and
kept [his] desk very tidy” in a way that “fail[ed] to conform to
stereotypes of male behavior,” and “socialized primarily with
[his] female co-workers while most male co-workers socialized
with other male co-workers, in a way that fail[ed] to conform to
stereotypes of how males behave.” Id. at 1–2 (Pl. Aff. ¶¶ 4–6).

App.65a
Defendant maintains, however, that plaintiff’s
self-serving affidavit is insufficient to avoid summary
judgment. Doc. 54 at 28 (first citing Wright v. Wyandotte
Cty. Sheriff’s Dep’t, 963 F. Supp. 1029, 1036 (D. Kan.
1997) (concluding that plaintiff’s subjective feeling
and “mere conjecture” that her employer had discriminated against her were insufficient to avoid summary
judgment); then citing Arzate v. City of Topeka, 884
F. Supp. 1494, 1501 (D. Kan. 1995) (holding that
plaintiff’s own belief or feeling that he was the victim
of disparate treatment is insufficient, standing alone,
to preclude judgment as a matter of law); then citing
Money v. Great Bend Packing Co., Inc., 783 F. Supp.
563, 574 (D. Kan. 1992) (holding that plaintiffs’ reliance
on their own unsupported allegations is inappropriate to defeat defendants’ motions for summary judgment, and plaintiffs’ “feeling” that they were victims
of discrimination fails to demonstrate a material
issue of fact in the absence of supporting evidence)).
The court assumes, without deciding, that plaintiff
has satisfied his prima facie burden. Even if plaintiff
could make out a prima facie case of discrimination
on this summary judgment record, the court concludes
below that his claim cannot survive summary judgment
because the undisputed facts fail to present a triable
issue whether defendant’s decision not to hire plaintiff
for the AU position and to terminate his employment
was pretextual.
b. Legitimate, Non-Discriminatory
Reason
Next, the burden shifts to defendant to articulate
a legitimate, non-discriminatory reason for not hiring
plaintiff for the AU position and, later, for terminating

App.66a
his employment. To meet its burden under the second
step of the burden-shifting framework, “defendant
need only ‘explain its actions against the plaintiff in
terms that are not facially prohibited by Title VII.’”
Jones v. Denver Post Corp., 203 F.3d 748, 753 (10th
Cir. 2000) (quoting E.E.O.C. v. Flasher Co., Inc., 986
F.2d 1312, 1317 (10th Cir. 1992)). Defendant explains
that Radliff selected two candidates for the AU
positions who were more qualified than plaintiff
because they had more relevant experience and
leadership skills. Doc. 54 at 29. And, defendant
asserts it terminated plaintiff’s employment because
of poor work performance that culminated in the
October 22, 2018 phone call where plaintiff was rude
to an agent. Doc. 54 and 33–34. Defendant’s proffered
reasons satisfy its burden under the second step of
the burden-shifting framework.
c. Pretext
The burden thus shifts back to plaintiff, requiring
him to establish a genuine issue for trial whether
defendant’s articulated reason was pretext for discrimination. DePaula v. Easter Seals El Mirador, 859 F.3d
957, 970 (10th Cir. 2017). “A plaintiff may show pretext
by demonstrating the proffered reason is factually
false, or that discrimination was a primary factor in
the employer’s decision.” Id. (citations and internal
quotations marks omitted). A plaintiff can satisfy
this burden “by revealing weaknesses, implausibilities,
inconsistencies, incoherences, or contradictions in the
employer’s proffered reason, such that a reasonable
fact finder could deem the employer’s reason unworthy
of credence.” Id. (citation and internal quotation marks
omitted).

App.67a
Plaintiff directs the court to several facts that,
he contends, establish triable issue of pretext. First,
plaintiff asserts, Radliff’s reasons for not hiring plaintiff
are inconsistent. Doc. 61 at 73. When giving plaintiff
feedback on his interview, Radliff said that developing
a relationship with hiring managers is valuable and
that plaintiff never had interacted with him before
the interview. But Radliff never had contact with the
two candidates he hired for the AU positions. Id.
Radliff also told plaintiff that he lacked the leadership
qualities Radliff had sought, yet Radliff checked the
box on the Interview Guide that plaintiff had
“demonstrated” teamwork and leadership during his
interview, and, in any event, the AU position was not
a “leadership position.” Id.
The court finds that the summary judgment facts
present no triable issue here. Plaintiff sought feedback
from Radliff about his interview for the AU position.
Radliff met with plaintiff and pointed out that plaintiff
never had interacted with him before the interview.
He told plaintiff that developing a relationship or
rapport with hiring managers before a job posts is a
“valuable opportunity.” Doc. 61-10 at 3:02. Plaintiff
portrays the fact that Radliff had no prior relationship or contact with the candidates he hired for the
AU positions as pretext for a discriminatory motive.
Doc. 61 at 73. He attempts to cast Radliff’s advice as
some sort of job requirement that Radliff violated by
hiring the other two candidates. But no reasonable
trier of fact plausibly could interpret Radliff’s comment
as evidence of pretext. Radliff never said or implied
that a prior relationship was required for the role.
Nor did Radliff suggest he had any prior relationship
with the candidates he selected. He merely explained

App.68a
to plaintiff that he never had interacted with plaintiff
before the interview, and that having a relationship
with a hiring manager could help plaintiff secure a
future promotion. No reasonable trier of fact could
find that Radliff’s comment was anything more than
advice for plaintiff about the best way to advance his
career within defendant’s organization.
Similarly, the court is unpersuaded that a reasonable trier of fact could find Radliff’s comment to
plaintiff that he had not demonstrated sufficient
leadership qualities in the interview was pretext.
Just because Radliff checked the box that plaintiff
had demonstrated teamwork or leadership skills in
his interview does not mean that plaintiff better
demonstrated leadership skills than the candidates
Radliff selected, or that leadership skills were Radliff’s
only consideration in the interview. And, though the
AU position was not a “leadership position,” Radliff
reasonably could have considered leadership skills in
the interviews. The Tenth Circuit has cautioned
courts that they “‘may not second guess the business
judgment of the employer.’” DePaula, 859 F.3d at 970
(quoting Dewitt v. Sw. Bell Tel. Co., 845 F.3d 1299,
1307 (10th Cir. 2017)); see also Jaramillo v. Colo.
Judicial Dep’t, 427 F.3d 1303, 1308 (10th Cir. 2005)
(“The court may not act as a super personnel department that second guesses employers’ business judgments.” (citation and internal quotation marks
omitted)). Contrary to plaintiff’s argument, no reasonable trier of fact could find a meaningful
inconsistency in Radliff’s explanation for why he did
not hire plaintiff for the AU position.
Next, plaintiff contends that a jury reasonably
could infer that some or all of defendant’s reasons for

App.69a
not hiring plaintiff were false because Radliff wanted
to have an in-person conversation with plaintiff about
his interview. Plaintiff contends that Radliff wanted
to avoid providing feedback by means that would
create a record, such as email or online chat. It is
accurate that plaintiff requested that Radliff send
plaintiff interview feedback by email, and that Radliff
insisted on having an in-person conversation with
him. But plaintiff’s conclusion that Radliff’s reasons
for not hiring plaintiff were false requires the factfinder
to draw two inferences—first, that Radliff wanted an
in-person conversation to avoid creating a record,
and second, that Radliff wanted to avoid creating a
record because the reasons he articulated were false.
Plaintiff has adduced no evidence suggesting that
either of these inferences is plausible. The court is
unpersuaded that this argument presents a triable
issue. See Branson v. Price River Coal Co., 853 F.2d
768, 772 (10th Cir. 1988) (holding that “plaintiffs’
mere conjecture that their employer’s explanation is
a pretext for intentional discrimination is an insufficient
basis for denial of summary judgment.”).
To survive summary judgment, plaintiff need
not necessarily adduce evidence that he was more
qualified than the selected candidates.17 See Officer
17 Defendant also argues that it is entitled to summary judgment because plaintiff has failed to show he was more qualified
than the candidates selected for the AU positions. Doc. 54 at
32–33. Plaintiff responds that he need not establish he was
more qualified than the other candidates, because he never has
tried to show pretext by this theory. Doc. 61 at 74; see Laul v.
Los Alamos Nat’l Labs., 765 F. App’x 434, 441 (10th Cir. 2019)
(“To prove pretext on the theory he was better qualified than
the other candidates, [plaintiff] must proffer evidence of an
‘overwhelming disparity’ between his qualifications and those of

App.70a
v. Sedgwick Cty., Kan., 226 F. App’x 783, 789 (10th Cir.
2007) (“[A] plaintiff may prove that a defendant’s
stated reasons are pretextual in a variety of ways; a
plaintiff is not ‘forced to pursue any particular means
of demonstrating that a defendant’s stated reasons
are pretextual.’” (quoting Kendrick v. Penske Transp.
Servs., Inc., 220 F.3d 1220, 1230 (10th Cir. 2000)
(further citation omitted)). But plaintiff still must
make a showing of pretext for his claims to survive
summary judgment. And here, plaintiff relies on just
one contrived argument: that defendant’s reasons are
inconsistent. No reasonable trier of fact could find
that Radliff’s comment that plaintiff never had
interacted with him before the interview—despite
Radliff never having interacted with the two candidates
he hired before the interview—was pretextual. Nor
could any reasonable trier of fact find that Radliff’s
assertion that plaintiff failed to demonstrate leadership
skills was pretextual, based only on evidence that
Radliff had checked a box that plaintiff had demonstrated teamwork and leadership in his interview, and
that the AU position was not a “leadership position.”
The fact that Radliff insisted on giving plaintiff feedback in person—rather than by means that would
create a written record—raises no plausible inference
that Radliff’s reasons for not hiring plaintiff were
false. Plaintiff can’t establish pretext with pure spethe successful candidate. . . . ”). Here, plaintiff testified that he
didn’t know whether he was more qualified than the two
candidates Radliff selected. Plaintiff’s Opposition never argues
that he was more qualified than the selected candidates. Since
plaintiff never relies on the theory that he was more qualified
than the selected candidates, he need not prove that he was
more qualified than the other candidates to survive summary
judgment.

App.71a
culation. See Lounds v. Lincare, Inc., 812 F.3d 1208,
1238 (10th Cir. 2015) (affirming summary judgment
against plaintiff’s Title VII claim because plaintiff
“merely advanced speculative theories” that failed to
demonstrate pretext); see also Webster v. Shulkin,
707 F. App’x 535, 542 (10th Cir. 2017) (holding that
where plaintiff hasn’t discredited employer’s nondiscriminatory explanation, plaintiff’s “claims don’t rise
above the level of speculation, which is insufficient to
demonstrate pretext”).
Finally, plaintiff’s Opposition never asserts that
defendant’s reason for terminating plaintiff was a
pretext contrived to hide discrimination. Plaintiff’s
Opposition addresses only defendant’s failure to hire
him for the AU position. See Doc. 54 at 72–75. Plaintiff
thus has waived any claim that defendant terminated
him for discriminatory reasons. See Jones v. RentACenter, Inc., 240 F. Supp. 2d 1167, 1176 (D. Kan. 2002)
(holding plaintiff abandoned her claims when she
provided no legal argument or authority in her summary judgment response).
Plaintiff has failed to shoulder the burden imposed
on him at the pretext level of the analysis. He has
not adduced admissible evidence of a plausible basis
for a finding “weaknesses, implausibilities, inconsistencies, incoherences, or contradictions” in defendant’s
reasons for not promoting plaintiff. DePaula, 859
F.3d at 970 (citation and internal quotation marks
omitted). The court thus grants defendant summary
judgment against plaintiff’s discrimination claim.
B. Plaintiff’s Retaliation Claim
Defendant also has moved for summary judgment
against plaintiff’s retaliation claim. Plaintiff bases

App.72a
his retaliation claim on his final written warning and
his termination, and he argues this claim should
survive summary judgment. Doc. 61 at 75.
Title VII prohibits retaliation against an employee
because he has opposed any practice forbidden under
Title VII. Lounds, 812 F.3d at 1233. “A plaintiff
bringing a retaliation claim must establish that retaliation played a part in the employment decision and
may choose to satisfy this burden in two ways.” Id.
(internal citations, quotation marks, and alteration
omitted). Plaintiff “may either (1) offer direct evidence
that retaliation ‘played a motivating part’ in an employment decision adverse to [his] interests, or (2)
rely upon circumstantial evidence under ‘the familiar
three-part McDonnell Douglas framework to prove
that the employer’s proffered reason for its decision
is a pretext for retaliation.’” Id. (quoting Fye v. Okla.
Corp. Comm’n, 516 F.3d 1217, 1225 (10th Cir. 2008)
(further citations omitted)). The court first considers
whether plaintiff’s retaliation claim based on the
final written warning supports a triable issue. The
court then considers the same question for the retaliation claim based on plaintiff’s termination.
1. Final Written Warning
The court begins by considering plaintiff’s argument of direct evidence that defendant unlawfully
retaliated against him by issuing him a final written
warning. The court then turns to plaintiff’s theory
relying on circumstantial evidence of retaliation using
the McDonnell Douglas framework.

App.73a
a. Direct Evidence
Plaintiff asserts that he has adduced direct evidence that defendant issued him a final warning in
retaliation for his discrimination complaint. Doc. 61
at 75. Specifically, plaintiff asserts that Canton—
defendant’s Human Resources manager—admitted
in her deposition that defendant issued plaintiff a
final warning in retaliation for his discrimination
complaint. Id. Plaintiff cites Canton’s testimony to
support his argument:
Q:

Okay. And so prior to the EEOC charge, did
you resolve [plaintiff’s] complaint?

A:

I felt as though his concerns were resolved
after we had gone through the providing
information to him from Talent Acquisition
offering to meet with him and [Shelton] to
discuss further. Ultimately, he did end up
on a final warning, but he had the door
open with Karilynn, his director, so based
off of Karilynn sharing with me how that
conversation went, I felt as though those
concerns were resolved.

Doc. 61-4 at 9–10. Plaintiff’s direct evidence argument
goes like this: Plaintiff’s email to Canton complained
that supervisors repeatedly had denied him promotions.
See Doc. 54-17 at 2–3. A final written warning prevents
an employee from moving to other positions within
the company. Thus, plaintiff reasons, the final written
warning “‘resolved’ plaintiff’s complaint, as he could
no longer apply for internal positions and gather further evidence of the discrimination he had experienced.’” Doc. 61 at 76. Canton’s testimony, according
to plaintiff, constitutes direct evidence of retaliation.

App.74a
The court disagrees. Plaintiff’s interpretation of
Canton’s testimony is unsupported by the record.
Canton testified that she “felt as though [plaintiff’s]
concerns were resolved. . . . ” Doc. 61-4 at 9–10. No
reasonable factfinder plausibly could infer from this
testimony that Canton meant defendant had “resolved”
the problem of plaintiff complaining by placing him
on a final warning and preventing him from securing
a promotion. And, even if plaintiff’s interpretation of
Canton’s testimony had merit, it still wouldn’t qualify
as direct evidence. “‘Direct evidence is evidence,
which if believed, proves the existence of a fact in
issue without inference or presumption.’” Riggs, 497
F.3d at 1117 (quoting Hall v. U.S. Dep’t of Labor, 476
F.3d 847, 855 (10th Cir. 2007)). The interpretation
that plaintiff urges requires an inference that Canton
meant “resolved” in the sense that defendant prevented
plaintiff from applying for other positions within its
company. That argument isn’t direct evidence. The
court thus concludes that plaintiff has presented no
direct evidence of retaliation.
b. Circumstantial Evidence
“Absent direct evidence of retaliation, retaliation
claims are analyzed under the McDonnell Douglas
framework.” Boese v. Fort Hays State Univ., 814 F.
Supp. 2d 1138, 1145 (D. Kan. 2011). To make a
prima facie case of retaliation, plaintiff must show
(1) he engaged in protected activity, (2) defendant
took an adverse employment action against him, and
(3) a causal connection exists between the protected
activity and the adverse action. Id. (citing Fischer v.
Forestwood Co., Inc., 525 F.3d 972, 979 (10th Cir. 2008)
(further citation omitted)). If the plaintiff can establish
a prima facie case, the burden shifts to the defendant

App.75a
to produce evidence of a non-discriminatory reason
for the actions comprising the alleged retaliation. Id.
If defendant satisfies its burden, the burden then
shifts to the plaintiff to establish pretext. Id.
i. Prima Facie Case
Plaintiff asserts he has made a prima facie case
of retaliation. Plaintiff emailed Canton complaining
about discrimination on April 25, 2018. He met with
her about his complaint on April 26, 2018. Filing a
discrimination complaint is protected activity under
Title VII. Lounds, 812 F.3d at 1234. Plaintiff received
a final warning on May 17, 2018. The final warning
caused plaintiff to forfeit the tuition benefit defendant
provided and prevented him from applying for other
positions within the company. Doc. 61 at 76–77. This
final warning constitutes an adverse employment
action. See Sanchez v. Denver Pub. Schs., 164 F.3d
527, 533 (10th Cir. 1998) (holding that a “materially
adverse employment action” requires evidence that
employee’s employment status was affected). Plaintiff
thus has satisfied the first two parts of his prima
facie case.
The final element of the prima facie case requires
a causal connection between plaintiff’s discrimination
complaint and the final warning. Defendant concedes
that the temporal proximity of these events satisfies
plaintiff’s burden. Doc. 54 at 35. “A retaliatory motive
may be inferred when an adverse action closely
follows protected activity.” Anderson v. Coors Brewing
Co., 181 F.3d 1171, 1179 (10th Cir. 1999) (citing Chavez
v. City of Arvada, 88 F.3d 861, 866 (10th Cir. 1996));
see also Meiners v. Univ. of Kan., 239 F. Supp. 2d
1175, 1195 (D. Kan. 2002) (holding that timing of

App.76a
protected activity and adverse employment action
“can provide sufficient support for plaintiff’s prima
facie case . . . ”). The Tenth Circuit has “held that a
one and one-half month period between protected
activity and adverse action may, by itself, establish
causation.” Anderson, 181 F.3d at 1179 (citation
omitted). Defendant issued plaintiff a final warning
about three weeks after his discrimination complaint.
Plaintiff thus has established a prima facie case of
discrimination based on the timing of his discrimination complaint and the final warning.
ii. Legitimate, Non-Discriminatory
Reason
Next, the burden shifts to defendant to articulate
a legitimate, non-discriminatory reason for issuing
plaintiff a final warning. Defendant asserts that it
issued plaintiff a final warning for the reasons
explained in Shelton’s memorandum, which included
plaintiff’s lack of professionalism, lack of improvement
in response to feedback from his supervisors, and
insubordination. See Doc. 54-21 at 1. Plaintiff concedes
that defendant has met its burden to articulate a
legitimate, nondiscriminatory reason for its actions.
iii. Pretext
The burden thus shifts back to plaintiff, requiring
him to show a genuine issue for trial whether defendant’s articulated reason was pretext for retaliation.
Lounds, 812 F.3d at 1234. “A plaintiff may show
pretext by demonstrating the proffered reason is
factually false, or that discrimination was a primary
factor in the employer’s decision.” DePaula, 859 F.3d
at 970. (citations and internal quotation marks

App.77a
omitted). A plaintiff can satisfy this burden by
“‘revealing weaknesses, implausibilities, inconsistencies,
incoherences, or contradictions in the employer’s
proffered reason, such that a reasonable fact finder
could deem the employer’s reason unworthy of
credence.’” Id. (citation omitted).
Plaintiff asserts he has adduced sufficient evidence
to create a genuine issue of material fact about
defendant’s reasons for issuing plaintiff a final warning.
Doc. 61 at 77. First, plaintiff reiterates the fact that
defendant issued plaintiff a final warning three weeks
after he filed his discrimination complaint.18 Id. at
78. Defendant counters that timing alone is insufficient
to establish pretext. Doc. 54 at 35–36. On this point,
the court agrees with defendant. The timing of an
adverse employment action may be evidence of pretext,
but “it is not sufficient standing alone to establish
pretext.” Bird v. W. Valley City, 832 F.3d 1188, 1204
(10th Cir. 2016) (citing Plotke v. West, 405 F.3d 1092,
1105 (10th Cir. 2005)); see also Meiners, 239 F. Supp.
2d at 1195 (“Timing alone can provide sufficient sup18 Plaintiff asserts that, in addition to the final warning issued
three weeks after plaintiff’s complaint, the timing of Shelton’s
May 10, 2018 email to Reeves “setting up the final written
warning” also is evidence of pretext. Doc. 61 at 78. Shelton
wrote in this email that he had “coached [plaintiff] as much as
[he could], so now [he is] in an observation period to see if
[plaintiff] responds to the coaching or keeps with his ways. . . . ”
Doc. 54-19 at 1. But plaintiff provides no evidence to support
the assumption that this email “set[ ] up” the final warning, or
that its timing is suspicious. Shelton had recorded his previous
“coaching” of plaintiff in the Interaction Log, and his email to
Reeves is consistent with this record. The court finds no evidence of pretext based on the timing of this email and the final
warning.

App.78a
port for plaintiff’s prima facie case, but it is not alone
sufficient to make a showing of pretext.”); Selenke v.
Med. Imaging of Colo., 248 F.3d 1249, 1260 (10th
Cir. 2001) (one month between complaint and
termination “indicates at most that [plaintiff] has
established a prima facie case.”). So here, the timing of
plaintiff’s complaint and the final warning, standing
alone, are insufficient to establish pretext.
Plaintiff contends that he has presented more
evidence of pretext than just suspicious timing. First,
plaintiff directs the court to Canton’s May 1, 2018
email about a “recent ‘coaching’ experience” with
Shelton and plaintiff, where she and Shelton saw
“quick results in terms of the employee acceptance
and ownership.” Doc. 61-26 at 1. Plaintiff asserts
that the substance of Canton’s email is inconsistent
with defendant’s assertion that plaintiff continually
had issues with accepting and applying feedback.
Doc. 61 at 78 (citing Doc. 54 at 35). Defendant
counters that the May 17, 2018 incident, i.e., plaintiff’s
behavior during the meeting with Shelton about why
Shelton had accepted the document the agent had
provided, triggered the final warning. The fact that
Canton sent a positive email about plaintiff three
weeks before the final warning is immaterial. The
court agrees with defendant here. An email from a
Human Resources manager praising plaintiff for
accepting feedback on one occasion can’t establish
pretext. Shelton documented in the Interaction Log
his repeated “coaching” of plaintiff. He documented
that plaintiff had walked out during a meeting with
him on May 17, 2018, the day before he issued the
final warning. And the final warning lists a host of
reasons plaintiff had failed to meet defendant’s em-

App.79a
ployment expectations. Canton’s positive email about
plaintiff accepting feedback—three weeks before the
final warning—reveals no material inconsistency in
defendant’s explanation for issuing plaintiff a final
warning.
Second, plaintiff directs the court to the part of
the final warning asserting that plaintiff’s “behavior
[ ] creates a negative work environment with [his]
peers.” Doc. 61 at 78 (citing Doc. 54-21 at 1). Plaintiff
asserts this statement is pretextual because none of
plaintiff’s coworkers had complained about his behavior.
Id. Defendant again asserts that whether plaintiff’s
coworkers complained about his behavior is immaterial.
Doc. 69 at 76. Again, the court agrees. Plaintiff’s
supervisors concluded that he was creating a negative
work environment for his peers. They don’t need to
support that conclusion with complaints from plaintiff’s
coworkers. See DePaula, 859 F.3d at 971 (“Instead of
asking whether the employer’s reasons ‘were wise,
fair, or correct,’ the relevant inquiry is whether the
employer ‘honestly believed those reasons and acted
in good faith upon those beliefs.’” (quoting Swackhammer v. Sprint/United Mgmt. Co., 493 F.3d 1160,
1170 (10th Cir. 2007)). No reasonable trier of fact
could find any inconsistency or bad faith here. Plaintiff has failed to present evidence of pretext based
on the substance of the final written warning.
Next, plaintiff asserts that defendant’s “failure
to follow its progressive discipline process” is evidence
of pretext. Doc. 61 at 78. Plaintiff contends that
Shelton knew he could have used a lesser form of
discipline but never considered doing so. Id. And
Shelton knew that supervisors rarely issue a final
written warning without a lesser form of discipline

App.80a
first. Id. Defendant counters, asserting that Shelton
decided that the incident warranted a final warning.
Doc. 69 at 73. Even if moving directly to a final
warning qualified as a rare occurrence, defendant
contends, Shelton violated no company policy by
doing so. Cf., Metzger v. City of Leawood, 144 F.
Supp. 2d 1225, 1262 (D. Kan. 2001) (“A defendant’s
failure to follow its own written policy can be evidence
of pretext.”). That Shelton knew he had lesser means
of discipline available to him (and, indeed, that
defendant’s supervisors typically used lesser means
of discipline before issuing a final warning)—without
more—creates no triable issue whether the final
warning was pretext.
Finally, plaintiff asserts that the evidence suggests
Shelton behaved in “bad faith, or at least in an inconsistent and incoherent manner.” Doc. 61 at 79. On
May 10, 2018, Shelton sent plaintiff a message about
his phone metrics,19 saying “[t]his is fantastic, nice
work sir.” Doc. 61-18 at 1. He added, “great job!
You’re really supporting our team more than you
know with phone metrics.” Id. One hour later, Shelton
sent his supervisor an email saying that he had
“coached [plaintiff] as much as [he could].” Doc. 54-19
at 1. Plaintiff argues that Shelton’s “wild shift from
high praise to total dismissal” raises questions about
Shelton’s motives and creates a genuine issue of
material fact about why plaintiff received a final
warning. Doc. 61 at 79. The court disagrees. There is
no inconsistency in Shelton praising plaintiff for his
performance, while telling his supervisor that he had
19 The record never defines “phone metrics,” but in context it
appears to measure an employee’s productivity or performance.

App.81a
coached plaintiff as much as he possibly could. And
there is nothing inconsistent about Shelton praising
plaintiff about his performance one week, and then
issuing plaintiff a final warning the next week because
of an unrelated, intervening event. The court finds
no triable issue here.
In sum, plaintiff’s evidence cannot support a
triable issue whether defendant’s reasons for issuing
plaintiff the final written warning were pretext. The
timing of the defendant’s discrimination complaint
and the final written warning—without more—does
not establish pretext. See Bird, 832 F.3d at 1204–05
(holding that timing of plaintiff’s termination “is
relevant to her attempt to show that [defendant’s]
reasons for firing her were pretextual, but it is not
sufficient to establish that pretext.”) Other than the
timing of the final warning, plaintiff has presented
no evidence of pretext. The court thus grants summary
judgment against plaintiff’s retaliation claim based
on the final written warning. See id. at 1205 (affirming
summary judgment, because other than the timing of
her termination, plaintiff made no arguments sufficient
to convince the court that a rational factfinder could
find defendant’s reasons for terminating her employment unworthy of belief).
2. Termination
This analysis leaves plaintiff’s claim that defendant
unlawfully retaliated against him by terminating his
employment on October 25, 2018.20 Since plaintiff
20 Plaintiff argues that if his retaliation claim based on the
final written warning survives summary judgment, so too
should his retaliation claim based on his termination. Doc. 61 at
87. Plaintiff relies on the “cat’s paw” theory to support this

App.82a
never asserts he has direct evidence that this employment decision was retaliation, the court considers his
claim under the McDonnell Douglas framework.
a. Prima Facie Case
To make a prima facie case of retaliation, plaintiff must show (1) he engaged in protected activity,
(2) defendant took an adverse employment action
against him, and (3) a causal connection exists
between the protected activity and the adverse action.
Boese, 814 F. Supp. 2d 1138, 1145 (citing Fischer,
525 F.3d at 979 (further citation omitted)). Plaintiff
has met his burden on the first two elements of the
prima facie case. Plaintiff filed an internal complaint
of discrimination on April 26, 2018, and an EEOC
Charge on May 21, 2018. He filed this lawsuit on
October 19, 2018. Plaintiff sustained an adverse
employment action when defendant terminated his
employment on October 25, 2018. See Hillig, 381
F.3d at 1032–33 (holding that adverse employment
action includes acts that cause a significant change
in employment status, such as a firing).
argument. Id. “In the employment discrimination context, ‘cat’s
paw’ refers to a situation in which a biased subordinate, who
lacks decisionmaking power, uses the formal decisionmaker
as a dupe in a deliberate scheme to trigger a discriminatory
employment action.” E.E.O.C. v. BCI Coca-Cola Bottling Co. of
L.A., 450 F.3d 476, 484 (10th Cir. 2006) (citing Llampallas v.
Mini-Circuits, Lab, Inc., 163 F.3d 1236, 1249 (11th Cir. 1998)).
Plaintiff never explains how this theory might apply to this case
and the court understands why he didn’t: the court fails to see
how this doctrine could apply, given this set of summary judgment facts. And, in any event, since the court grants summary
judgment against plaintiff’s retaliation claim based on the final
warning, the court declines to consider the merits of plaintiff’s
cat’s paw argument.

App.83a
But the parties dispute whether plaintiff has
established the third element of his prima facie case,
i.e., a causal connection between his protected activity
and his termination. Defendant asserts that plaintiff’s
termination occurred some five months after he filed
his discrimination complaint with the EEOC. Doc. 54
at 36. A five-month period between the protected
activity and termination cannot support an inference
of causation. See, e.g., Bekkem v. Wilkie, 915 F.3d
1258, 1271 (10th Cir. 2019) (holding that where a
gap of three months or longer has occurred, a plaintiff
must present other evidence of causation). But, plaintiff
responds, he filed this lawsuit six days before his
termination. This time interval, plaintiff asserts,
raises an inference of causation. Doc. 61 at 81. “A
retaliatory motive may be inferred when an adverse
action closely follows protected activity.” Anderson,
181 F.3d at 1179 (citing Chavez, 88 F.3d at 866). As
one would expect, the cases conclude that a six-day
period between protected activity and adverse action
can establish causation. See Meiners, 359 F.3d at
1231 (holding that a six-week period between protected
activity and adverse action may be sufficient, standing
alone, to show causation).
But, defendant counters. It asserts that the
undisputed facts show that Sims did not know about
this lawsuit when he terminated plaintiff. And to
prevail on a retaliation claim, the decisionmaker
must have knowledge of the protected activity. Lincoln
v. BNSF Ry. Co., 900 F.3d 1166, 1213 (10th Cir.
2018) (“For how can decisionmakers retaliate against
an employee if they do not know about the protected
activity?”); see also Gunnell v. Utah Valley State
Coll., 152 F.3d 1253, 1266 (10th Cir. 1998) (holding

App.84a
that a plaintiff must show he “was intentionally
retaliated against by [his] employer.”). Defendant
asserts that plaintiff has presented no evidence
controverting Sims’s testimony that he didn’t know
about plaintiff’s protected activity before his termination. Doc. 54 at 38.
Plaintiff responds, asserting that despite Sims’s
testimony, there is “reason to believe” Sims knew
about the lawsuit. Doc. 61 at 82. Plaintiff mailed the
waiver of service on October 19, 2018. Plaintiff asserts
that a jury reasonably could infer that defendant
received notice of the lawsuit between October 22,
2018 and October 25, 2018. And, plaintiff contends, it
is likely that Canton, as Human Resources manager,
would have received the lawsuit.21 Plaintiff’s affidavit
testified that he saw Canton walk over to Sims desk on
October 24 or 25, shortly before plaintiff’s termination
on October 25. Plaintiff contends that Canton “went
to tell Sims about [the lawsuit] in person, or went in
person to instruct him to terminate plaintiff.” Doc. 61
at 83.
The court assumes, without deciding, that plaintiff
has made his prima facie case. Even if plaintiff could
make out a prima facie case of discrimination on this
summary judgment record, the court concludes below
21 When defendant receives notice of lawsuits by mail, Support
Service employees give it to one of three Human Resources
employees, including Canton. Canton is the only person in Human
Resources who oversees the Olathe Service Center. Plaintiff asserts
that “given Canton’s involvement in the matters underlying the
lawsuit,” and the fact that plaintiff’s Right to Sue Letter had
been addressed to her, it is likely that she received notice of the
lawsuit. Doc. 61 at 83. Canton, however, testified that she did
not know about the lawsuit before plaintiff’s termination.

App.85a
that his claim cannot survive summary judgment because the undisputed facts fail to present a triable
issue whether defendant’s termination of plaintiff’s
employment was pretextual.
b. Legitimate, Nondiscriminatory
Reason and Pretext
Defendant asserts that its legitimate, non-discriminatory reason for plaintiff’s termination was
the way he handled the October 22, 2018 call with
the agent, and his ongoing issues with accepting
feedback. 22 Doc. 54 at 38. Plaintiff argues that
defendant’s reasons for terminating him are pretextual,
and he directs the court to various inconsistencies in
defendant’s reasoning for his termination. First, plaintiff asserts that in the October 24 meeting, Sims
faulted plaintiff for failing to notify him of the call
from the agent, even though the agent never asked
that Sims call her. And second, plaintiff asserts,
Sims criticized plaintiff for following defendant’s policy
22 Sims’s Termination Recommendation states:
[Plaintiff] was placed on a final warning on May 17,
2018 for policy violation regarding his emotional
resilience, accepting/applying feedback and his professionalism and conduct with agents as well as his
direct supervisor. While reviewing a call that [plaintiff] received from an agent on October 22, 2018, he
showed no resilience during the coaching session as
to what could have been improved or changed during
the interaction. From his viewpoint, it was a typical
call with our customers. When the agent asked for a
supervisor, he did not seek guidance and did not provide this information to leadership concerning the
interaction nor the request for a supervisor.
Doc. 54-25 at 1.

App.86a
about backdating discounts. Doc. 61 at 85. Third,
Sims told plaintiff in the meeting that he should
apply the feedback Sims and Mazzetta had provided
him, which plaintiff interprets to mean that “Sims
[had] reached the conclusion that [p]laintiff should
not be terminated” just one day before he recommended
terminating plaintiff. Plaintiff argues that these
“inconsistencies” establish a triable issue of pretext.
The court disagrees. Plaintiff’s arguments fail
to demonstrate a triable issue whether defendant’s
reasons for terminating plaintiff were pretextual.
The Termination Recommendation Memo states, in
part, that plaintiff had failed to inform his supervisor
about the October 22 call where the agent requested
to speak with a supervisor.23 See Doc. 54-25 at 1.
Plaintiff focuses solely on the fact that the agent did
not explicitly ask for a supervisor during the call.
Plaintiff contends that this establishes an inconsistency
in defendant’s reasoning and creates a genuine issue
of material fact about defendant’s reasons for
terminating plaintiff. But no reasonable trier of fact
plausibly could infer pretext based on Sims’s criticism
of plaintiff for failing to inform him of the call. The
agent told plaintiff she wanted to speak to his
supervisor. But plaintiff never informed Sims of the
call. Plaintiff may have believed he had no reason to
23 During the call, plaintiff asked the agent to identify the person
who was the subject of the agent’s request when the agent
asked if she could talk to someone else about the discount at
issue. The agent responded, “maybe your supervisor.” Plaintiff
informed the agent that he believed his supervisor was in a
meeting. The agent asked for voicemail, and plaintiff told her
he did not believe his supervisor had set up his voicemail. The
agent later said that she would call back when she had the documentation and speak with someone else.

App.87a
inform Sims of the call, but the court considers the
situation from the employer’s perspective, not plaintiff’s.
“‘In determining whether the proffered reason for a
decision was pretextual, we examine the facts as
they appear to the person making the decision,’ and
‘do not look to the plaintiff’s subjective evaluation of
the situation.’” DePaula, 859 F.3d at 971 (quoting
E.E.O.C. v. C.R. England, Inc., 644 F.3d 1028, 1044
(10th Cir. 2011)). “Evidence that the employer ‘should
not have made the termination decision—for example,
that the employer was mistaken or used poor business
judgment—is not sufficient to show that the employer’s
explanation is unworthy of credibility.’” Id. at 970–71
(quoting Swackhammer, 493 F.3d at 1169–70). Sims’s
criticism of plaintiff’s failure to notify him of the
agent’s call—even if plaintiff is correct that he had
no obligation to inform Sims about the call—is insufficient to support a finding of pretext.
Next, plaintiff’s contention that Sims “criticized”
plaintiff for following defendant’s backdating guidelines
never “‘reveal[s] weaknesses, implausibilities,
inconsistencies, incoherences, or contradictions in the
employer’s proffered reason, such that a reasonable
fact finder could deem the employer’s reason unworthy
of credence.’” DePaula, 859 F.3d at 970 (quoting Tabor,
703 F.3d at 1216). Sims acknowledged that plaintiff
had followed the guidelines, and defendant never
asserted that it terminated plaintiff because he did
or didn’t follow the backdating guidelines. Defendant’s expressed reason for terminating plaintiff was
for “showing no resilience during the October 24
coaching session and failing to inform his supervisor
about the October 22 call and the request for a
supervisor, in combination with his ongoing per-

App.88a
formance issues. . . . ” Doc. 79 at 82. Plaintiff’s
adherence to the backdating guidelines is not material
to the analysis.
Also, plaintiff’s conclusion that Sims had “decided”
at the end of the October 24 meeting that plaintiff
should not be terminated is unsupported by any
admissible evidence. Sims’s statement that plaintiff
should apply his feedback in the future suggests no
imminent termination. But, given that plaintiff’s
termination was based, in part, on his behavior in
the October 24 meeting, Sims’s comment is insufficient
to support a finding of pretext. See Doc. 54-25 at 1
(“While reviewing a call that [plaintiff] received from
an agent on October 22, 2018, he showed no resilience
during the coaching session. . . . ”)
Finally, plaintiff asserts his purported “inability
to accept feedback” is a pretextual reason for his
termination. Doc. 61 at 86. Plaintiff asserts that
Sims’s termination recommendation stated that plaintiff “showed no resilience during the [October 24,
2018] coaching session as to what could have been
improved or changed during the interaction.” Id.
(citing Doc. 54-25 at 1). Plaintiff contends that this
part of Sims’s recommendation “does not clearly
state that other instances of failure to take feedback
were part of the reason for termination.” Doc. 61 at
86. And, plaintiff asserts, the recording of the October
24, 2018 meeting shows that plaintiff “was, in fact,
receptive to feedback.” Id. That Sims’s memo never
explicitly states that plaintiff was unable to accept
feedback reveals no inconsistency in defendant’s
reasoning. Sims’s Recommendation referenced both
plaintiff’s inability to accept feedback in the October
24 meeting, and his earlier final warning based on

App.89a
his issues “accepting/applying feedback.” Doc. 54-25 at
1. No reasonable factfinder could find any inconsistency
or contradiction that would render the defendant’s
proffered reason “unworthy of credence and hence
infer that the employer did not act for the asserted
nondiscriminatory reasons.” Swackhammer, 493 F.3d at
1167 (citation and internal quotation marks omitted).
And, as explained above, even if plaintiff believed he
was receptive to feedback in the October 24 meeting,
the court “‘do[es] not look to the plaintiff’s subjective
evaluation of the situation.’” DePaula, 859 F.3d at
971 (quoting C.R. England, 644 F.3d at 1044).
Plaintiff has not carried his burden at the
pretext level of the analysis. He has not adduced
admissible evidence of a plausible basis for a finding
“weaknesses, implausibilities, inconsistencies, incoherences, or contradictions” in defendant’s reasons for
terminating plaintiff’s employment. DePaula, 859
F.3d at 970 (citation and internal quotation marks
omitted). The court thus grants summary judgment
against plaintiff’s retaliation claim based on his
termination.
IV. Conclusion
For all these reasons, the court concludes that
the summary judgment facts, when viewed in plaintiff’s
favor, present no triable issue whether defendant’s
decision not to hire plaintiff for an AU position, and
later to issue him a final warning and ultimately
terminate him, was pretext for discrimination and
retaliation. The court grants defendant’s motion and
enters summary judgment against plaintiff’s claims.

App.90a
IT IS THEREFORE ORDERED BY THE COURT
THAT defendant’s Motion for Summary Judgment
(Doc. 53) is granted.
IT IS FURTHER ORDERED THAT the Clerk of
the Court shall enter a judgment in defendant’s favor
on all of plaintiff’s claims.
IT IS SO ORDERED.
Dated this 26th day of March, 2020, at Kansas
City, Kansas.
/s/ Daniel D. Crabtree
United States District Judge

App.91a
ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE TENTH CIRCUIT
DENYING PETITION FOR REHEARING
(MAY 10, 2021)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
JOSHUA O. THOMAS,
Plaintiff-Appellant,
v.
FARMERS INSURANCE EXCHANGE,
Defendant-Appellee.
________________________
No. 20-3076
(D.C. No. 2:18-CV-02564-DDC) (D. Kan.)
Before: PHILLIPS, MURPHY, and
McHUGH, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular
active service. As no member of the panel and no
judge in regular active service on the court requested
that the court be polled, that petition is also denied.

App.92a
Entered for the Court
/s/ Christopher M. Wolpert
Clerk

App.93a
RELEVANT STATUTORY PROVISIONS
Title VII, Civil Rights Act of 1964
___________________________________

42 U.S.C. § 2000e–Definitions
For the purposes of this subchapter—
(a) The term “person” includes one or more individuals, governments, governmental agencies,
political subdivisions, labor unions, partnerships,
associations, corporations, legal representatives,
mutual companies, joint-stock companies, trusts,
unincorporated organizations, trustees, trustees
in cases under title 11, or receivers.
(b) The term “employer” means a person engaged
in an industry affecting commerce who has
fifteen or more employees for each working day
in each of twenty or more calendar weeks in the
current or preceding calendar year, and any agent
of such a person, but such term does not include
(1) the United States, a corporation wholly owned
by the Government of the United States, an
Indian tribe, or any department or agency of the
District of Columbia subject by statute to procedures of the competitive service (as defined in
section 2102 of title 5), or (2) a bona fide private
membership club (other than a labor organization) which is exempt from taxation under
section 501(c) of title 26, except that during the
first year after March 24, 1972, persons having
fewer than twenty-five employees (and their
agents) shall not be considered employers.

App.94a
(c) The term “employment agency” means any
person regularly undertaking with or without
compensation to procure employees for an
employer or to procure for employees opportunities
to work for an employer and includes an agent of
such a person.
(d) The term “labor organization” means a labor
organization engaged in an industry affecting
commerce, and any agent of such an organization,
and includes any organization of any kind, any
agency, or employee representation committee,
group, association, or plan so engaged in which
employees participate and which exists for the
purpose, in whole or in part, of dealing with
employers concerning grievances, labor disputes,
wages, rates of pay, hours, or other terms or conditions of employment, and any conference, general
committee, joint or system board, or joint council
so engaged which is subordinate to a national or
international labor organization.
(e) A labor organization shall be deemed to be
engaged in an industry affecting commerce if (1)
it maintains or operates a hiring hall or hiring
office which procures employees for an employer
or procures for employees opportunities to work
for an employer, or (2) the number of its members
(or, where it is a labor organization composed of
other labor organizations or their representatives,
if the aggregate number of the members of such
other labor organization) is (A) twenty-five or
more during the first year after March 24, 1972,
or (B) fifteen or more thereafter, and such labor
organization—

App.95a
(1) is the certified representative of employees
under the provisions of the National Labor
Relations Act, as amended [29 U.S.C. 151 et
seq.], or the Railway Labor Act, as amended
[45 U.S.C. 151 et seq.];
(2) although not certified, is a national or
international labor organization or a local
labor organization recognized or acting as
the representative of employees of an
employer or employers engaged in an industry
affecting commerce; or
(3) has chartered a local labor organization or
subsidiary body which is representing or
actively seeking to represent employees of
employers within the meaning of paragraph
(1) or (2); or
(4) has been chartered by a labor organization
representing or actively seeking to represent
employees within the meaning of paragraph
(1) or (2) as the local or subordinate body
through which such employees may enjoy
membership or become affiliated with such
labor organization; or
(5) is a conference, general committee, joint or
system board, or joint council subordinate to
a national or international labor organization,
which includes a labor organization engaged
in an industry affecting commerce within the
meaning of any of the preceding paragraphs
of this subsection.
(f) The term “employee” means an individual
employed by an employer, except that the term
“employee” shall not include any person elected

App.96a
to public office in any State or political subdivision
of any State by the qualified voters thereof, or
any person chosen by such officer to be on such
officer’s personal staff, or an appointee on the
policy making level or an immediate adviser
with respect to the exercise of the constitutional
or legal powers of the office. The exemption set
forth in the preceding sentence shall not include
employees subject to the civil service laws of a
State government, governmental agency or
political subdivision. With respect to employment
in a foreign country, such term includes an individual who is a citizen of the United States.
(g) The term “commerce” means trade, traffic,
commerce, transportation, transmission, or
communication among the several States; or
between a State and any place outside thereof;
or within the District of Columbia, or a possession
of the United States; or between points in the
same State but through a point outside thereof.
(h) The term “industry affecting commerce” means
any activity, business, or industry in commerce
or in which a labor dispute would hinder or
obstruct commerce or the free flow of commerce
and includes any activity or industry “affecting
commerce” within the meaning of the LaborManagement Reporting and Disclosure Act of
1959 [29 U.S.C. 401 et seq.], and further includes
any governmental industry, business, or activity.
(i) The term “State” includes a State of the
United States, the District of Columbia, Puerto
Rico, the Virgin Islands, American Samoa, Guam,
Wake Island, the Canal Zone, and Outer Contin-

App.97a
ental Shelf lands defined in the Outer Continental Shelf Lands Act [43 U.S.C. 1331 et seq.].
(j) The term “religion” includes all aspects of religious observance and practice, as well as belief,
unless an employer demonstrates that he is
unable to reasonably accommodate to an employee’s or prospective employee’s religious observance
or practice without undue hardship on the conduct
of the employer’s business.
(k) The terms “because of sex” or “on the basis of
sex” include, but are not limited to, because of
or on the basis of pregnancy, childbirth, or related
medical conditions; and women affected by pregnancy, childbirth, or related medical conditions
shall be treated the same for all employmentrelated purposes, including receipt of benefits
under fringe benefit programs, as other persons
not so affected but similar in their ability or
inability to work, and nothing in section 2000e–
2(h) of this title shall be interpreted to permit
otherwise. This subsection shall not require an
employer to pay for health insurance benefits for
abortion, except where the life of the mother
would be endangered if the fetus were carried to
term, or except where medical complications have
arisen from an abortion: Provided, That nothing
herein shall preclude an employer from providing
abortion benefits or otherwise affect bargaining
agreements in regard to abortion.
(l) The term “complaining party” means the Commission, the Attorney General, or a person who
may bring an action or proceeding under this
subchapter.

App.98a
(m) The term “demonstrates” means meets the
burdens of production and persuasion.
(n) The term “respondent” means an employer,
employment agency, labor organization, joint
labor-management committee controlling apprenticeship or other training or retraining program,
including an on-the-job training program, or Federal entity subject to section 2000e–16 of this title.
42 U.S.C. § 2000e-2–Unlawful employment practices
(a) Employer practices
It shall be an unlawful employment practice for
an employer—
(1) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate
against any individual with respect to his
compensation, terms, conditions, or privileges
of employment, because of such individual’s
race, color, religion, sex, or national origin; or
(2) to limit, segregate, or classify his employees
or applicants for employment in any way
which would deprive or tend to deprive any
individual of employment opportunities or
otherwise adversely affect his status as an
employee, because of such individual’s race,
color, religion, sex, or national origin.
(b) Employment agency practices
It shall be an unlawful employment practice for
an employment agency to fail or refuse to refer
for employment, or otherwise to discriminate
against, any individual because of his race, color,

App.99a
religion, sex, or national origin, or to classify or
refer for employment any individual on the basis
of his race, color, religion, sex, or national origin.
(c) Labor organization practices
It shall be an unlawful employment practice for
a labor organization—
(1) to exclude or to expel from its membership,
or otherwise to discriminate against, any
individual because of his race, color, religion,
sex, or national origin;
(2) to limit, segregate, or classify its membership
or applicants for membership, or to classify
or fail or refuse to refer for employment any
individual, in any way which would deprive or
tend to deprive any individual of employment
opportunities, or would limit such employment opportunities or otherwise adversely
affect his status as an employee or as an
applicant for employment, because of such
individual’s race, color, religion, sex, or
national origin; or
(3) to cause or attempt to cause an employer to
discriminate against an individual in violation
of this section.
(d) Training programs
It shall be an unlawful employment practice for
any employer, labor organization, or joint labormanagement committee controlling apprenticeship
or other training or retraining, including on-thejob training programs to discriminate against
any individual because of his race, color, religion,

App.100a
sex, or national origin in admission to, or employment in, any program established to provide apprenticeship or other training.
(e) Businesses or enterprises with personnel
qualified on basis of religion, sex, or
national origin; educational institutions
with personnel of particular religion
Notwithstanding any other provision of this
subchapter, (1) it shall not be an unlawful employment practice for an employer to hire and
employ employees, for an employment agency to
classify, or refer for employment any individual,
for a labor organization to classify its membership
or to classify or refer for employment any individual, or for an employer, labor organization, or
joint labor-management committee controlling
apprenticeship or other training or retraining
programs to admit or employ any individual in
any such program, on the basis of his religion,
sex, or national origin in those certain instances
where religion, sex, or national origin is a bona
fide occupational qualification reasonably necessary to the normal operation of that particular
business or enterprise, and (2) it shall not be an
unlawful employment practice for a school,
college, university, or other educational institution or institution of learning to hire and employ
employees of a particular religion if such school,
college, university, or other educational institution
or institution of learning is, in whole or in substantial part, owned, supported, controlled, or
managed by a particular religion or by a particular
religious corporation, association, or society, or if
the curriculum of such school, college, university,

App.101a
or other educational institution or institution of
learning is directed toward the propagation of a
particular religion.
(f) Members of Communist Party or
Communist-action or Communist-front
organizations
As used in this subchapter, the phrase “unlawful
employment practice” shall not be deemed to
include any action or measure taken by an
employer, labor organization, joint labor-management committee, or employment agency with
respect to an individual who is a member of the
Communist Party of the United States or of any
other organization required to register as a
Communist-action or Communist-front organization by final order of the Subversive Activities
Control Board pursuant to the Subversive Activities Control Act of 1950 [50 U.S.C. 781 et seq.].
(g) National security
Notwithstanding any other provision of this
subchapter, it shall not be an unlawful employment practice for an employer to fail or refuse to
hire and employ any individual for any position,
for an employer to discharge any individual from
any position, or for an employment agency to fail
or refuse to refer any individual for employment
in any position, or for a labor organization to fail
or refuse to refer any individual for employment in
any position, if—
(1) the occupancy of such position, or access to
the premises in or upon which any part of
the duties of such position is performed or is

App.102a
to be performed, is subject to any requirement
imposed in the interest of the national
security of the United States under any
security program in effect pursuant to or
administered under any statute of the
United States or any Executive order of the
President; and
(2) such individual has not fulfilled or has ceased
to fulfill that requirement.
(h) Seniority or merit system; quantity or
quality of production; ability tests; compensation based on sex and authorized
by minimum wage provisions
Notwithstanding any other provision of this
subchapter, it shall not be an unlawful employment practice for an employer to apply different
standards of compensation, or different terms,
conditions, or privileges of employment pursuant
to a bona fide seniority or merit system, or a
system which measures earnings by quantity or
quality of production or to employees who work in
different locations, provided that such differences
are not the result of an intention to discriminate
because of race, color, religion, sex, or national
origin, nor shall it be an unlawful employment
practice for an employer to give and to act upon
the results of any professionally developed ability
test provided that such test, its administration
or action upon the results is not designed,
intended or used to discriminate because of race,
color, religion, sex or national origin. It shall not
be an unlawful employment practice under this
subchapter for any employer to differentiate

App.103a
upon the basis of sex in determining the amount
of the wages or compensation paid or to be paid
to employees of such employer if such differentiation is authorized by the provisions of section
206(d) of title 29.
(i) Businesses or enterprises extending
preferential treatment to Indians
Nothing contained in this subchapter shall apply
to any business or enterprise on or near an
Indian reservation with respect to any publicly
announced employment practice of such business
or enterprise under which a preferential treatment
is given to any individual because he is an Indian
living on or near a reservation.
(j) Preferential treatment not to be granted
on account of existing number or
percentage imbalance
Nothing contained in this subchapter shall be
interpreted to require any employer, employment
agency, labor organization, or joint labor-management committee subject to this subchapter to
grant preferential treatment to any individual or
to any group because of the race, color, religion,
sex, or national origin of such individual or group
on account of an imbalance which may exist
with respect to the total number or percentage of
persons of any race, color, religion, sex, or national
origin employed by any employer, referred or
classified for employment by any employment
agency or labor organization, admitted to membership or classified by any labor organization,
or admitted to, or employed in, any apprenticeship

App.104a
or other training program, in comparison with the
total number or percentage of persons of such
race, color, religion, sex, or national origin in any
community, State, section, or other area, or in
the available work force in any community,
State, section, or other area.
(k) Burden of proof in disparate impact cases
(1)
(A) An unlawful employment practice based on
disparate impact is established under this
subchapter only if—
(i)

a complaining party demonstrates that a respondent uses a particular employment practice that causes a disparate impact on the
basis of race, color, religion, sex, or national
origin and the respondent fails to demonstrate that the challenged practice is job
related for the position in question and consistent with business necessity; or

(ii) the complaining party makes the demonstration described in subparagraph (C) with
respect to an alternative employment practice
and the respondent refuses to adopt such
alternative employment practice.
(B)
(i)

With respect to demonstrating that a
particular employment practice causes a
disparate impact as described in subparagraph (A)(i), the complaining party shall
demonstrate that each particular challenged
employment practice causes a disparate

App.105a
impact, except that if the complaining party
can demonstrate to the court that the
elements of a respondent’s decisionmaking
process are not capable of separation for
analysis, the decisionmaking process may
be analyzed as one employment practice.
(ii) If the respondent demonstrates that a specific
employment practice does not cause the
disparate impact, the respondent shall not
be required to demonstrate that such practice
is required by business necessity.
(C) The demonstration referred to by subparagraph
(A)(ii) shall be in accordance with the law as it
existed on June 4, 1989, with respect to the
concept of “alternative employment practice”.
(2) A demonstration that an employment practice is
required by business necessity may not be used
as a defense against a claim of intentional discrimination under this subchapter.
(3) Notwithstanding any other provision of this
subchapter, a rule barring the employment of an
individual who currently and knowingly uses or
possesses a controlled substance, as defined in
schedules I and II of section 102(6) of the Controlled Substances Act (21 U.S.C. 802(6)), other
than the use or possession of a drug taken under
the supervision of a licensed health care professional, or any other use or possession authorized
by the Controlled Substances Act [21 U.S.C. 801
et seq.] or any other provision of Federal law,
shall be considered an unlawful employment
practice under this subchapter only if such rule
is adopted or applied with an intent to discrimi-

App.106a
nate because of race, color, religion, sex, or
national origin.
(l) Prohibition of discriminatory use of test
scores
It shall be an unlawful employment practice for
a respondent, in connection with the selection or
referral of applicants or candidates for employment
or promotion, to adjust the scores of, use different
cutoff scores for, or otherwise alter the results
of, employment related tests on the basis of race,
color, religion, sex, or national origin.
(m) Impermissible consideration of race,
color, religion, sex, or national origin in
employment practices
Except as otherwise provided in this subchapter,
an unlawful employment practice is established
when the complaining party demonstrates that
race, color, religion, sex, or national origin was a
motivating factor for any employment practice,
even though other factors also motivated the
practice.
(n) Resolution of challenges to employment
practices implementing litigated or consent judgments or orders
(1)
(A) Notwithstanding any other provision of law,
and except as provided in paragraph (2), an
employment practice that implements and is
within the scope of a litigated or consent judgment
or order that resolves a claim of employment discrimination under the Constitution or Federal

App.107a
civil rights laws may not be challenged under
the circumstances described in subparagraph (B).
(B) A practice described in subparagraph (A)
may not be challenged in a claim under the Constitution or Federal civil rights laws—
(i)

by a person who, prior to the entry of the
judgment or order described in subparagraph
(A), had—
(I)

actual notice of the proposed judgment
or order sufficient to apprise such person
that such judgment or order might
adversely affect the interests and legal
rights of such person and that an
opportunity was available to present
objections to such judgment or order by
a future date certain; and

(II) a reasonable opportunity to present
objections to such judgment or order; or
(ii) by a person whose interests were adequately
represented by another person who had previously challenged the judgment or order on
the same legal grounds and with a similar
factual situation, unless there has been an
intervening change in law or fact.
(2) Nothing in this subsection shall be construed
to—
(A) alter the standards for intervention under
rule 24 of the Federal Rules of Civil Procedure or apply to the rights of parties who
have successfully intervened pursuant to
such rule in the proceeding in which the
parties intervened;

App.108a
(B) apply to the rights of parties to the action in
which a litigated or consent judgment or
order was entered, or of members of a class
represented or sought to be represented in
such action, or of members of a group on
whose behalf relief was sought in such
action by the Federal Government;
(C) prevent challenges to a litigated or consent
judgment or order on the ground that such
judgment or order was obtained through
collusion or fraud, or is transparently invalid
or was entered by a court lacking subject
matter jurisdiction; or
(D) authorize or permit the denial to any person
of the due process of law required by the
Constitution.
(3) Any action not precluded under this subsection
that challenges an employment consent judgment
or order described in paragraph (1) shall be
brought in the court, and if possible before the
judge, that entered such judgment or order.
Nothing in this subsection shall preclude a
transfer of such action pursuant to section 1404
of title 28.
42 U.S.C. § 2000e-3
Other unlawful employment practices
(a) Discrimination for making charges,
testifying, assisting, or participating in
enforcement proceedings
It shall be an unlawful employment practice for
an employer to discriminate against any of his

App.109a
employees or applicants for employment, for an
employment agency, or joint labor-management
committee controlling apprenticeship or other
training or retraining, including on-the-job training
programs, to discriminate against any individual,
or for a labor organization to discriminate against
any member thereof or applicant for membership,
because he has opposed any practice made an
unlawful employment practice by this subchapter,
or because he has made a charge, testified,
assisted, or participated in any manner in an
investigation, proceeding, or hearing under this
subchapter.
(b) Printing or publication of notices or
advertisements indicating prohibited
preference, limitation, specification, or
discrimination; occupational qualification
exception
It shall be an unlawful employment practice for
an employer, labor organization, employment
agency, or joint labor-management committee
controlling apprenticeship or other training or
retraining, including on-the-job training programs,
to print or publish or cause to be printed or
published any notice or advertisement relating
to employment by such an employer or membership in or any classification or referral for
employment by such a labor organization, or
relating to any classification or referral for employment by such an employment agency, or
relating to admission to, or employment in, any
program established to provide apprenticeship
or other training by such a joint labor-management
committee, indicating any preference, limitation,

App.110a
specification, or discrimination, based on race,
color, religion, sex, or national origin, except
that such a notice or advertisement may indicate
a preference, limitation, specification, or discrimination based on religion, sex, or national origin
when religion, sex, or national origin is a bona
fide occupational qualification for employment.
42 U.S.C. § 2000e-5—Enforcement provisions
(a) Power of Commission to prevent unlawful
employment practices
The Commission is empowered, as hereinafter
provided, to prevent any person from engaging in
any unlawful employment practice as set forth
in section 2000e–2 or 2000e–3 of this title.
(b) Charges by persons aggrieved or member
of Commission of unlawful employment
practices by employers, etc.; filing; allegations;
notice to respondent; contents of notice;
investigation by Commission; contents of
charges; prohibition on disclosure of
charges; determination of reasonable cause;
conference, conciliation, and persuasion for
elimination of unlawful practices; prohibition
on disclosure of informal endeavors to end
unlawful practices; use of evidence in
subsequent proceedings; penalties for
disclosure of information; time for
determination of reasonable cause
Whenever a charge is filed by or on behalf of a
person claiming to be aggrieved, or by a member
of the Commission, alleging that an employer,

App.111a
employment agency, labor organization, or joint
labor-management committee controlling apprenticeship or other training or retraining, including
on-the-job training programs, has engaged in an
unlawful employment practice, the Commission
shall serve a notice of the charge (including the
date, place and circumstances of the alleged unlawful employment practice) on such employer, employment agency, labor organization, or joint
labor-management committee (hereinafter referred
to as the “respondent”) within ten days, and
shall make an investigation thereof. Charges
shall be in writing under oath or affirmation and
shall contain such information and be in such
form as the Commission requires. Charges shall
not be made public by the Commission. If the Commission determines after such investigation that
there is not reasonable cause to believe that the
charge is true, it shall dismiss the charge and
promptly notify the person claiming to be
aggrieved and the respondent of its action. In
determining whether reasonable cause exists,
the Commission shall accord substantial weight
to final findings and orders made by State or
local authorities in proceedings commenced under
State or local law pursuant to the requirements
of subsections (c) and (d). If the Commission
determines after such investigation that there is
reasonable cause to believe that the charge is
true, the Commission shall endeavor to eliminate
any such alleged unlawful employment practice
by informal methods of conference, conciliation,
and persuasion. Nothing said or done during
and as a part of such informal endeavors may be
made public by the Commission, its officers or

App.112a
employees, or used as evidence in a subsequent
proceeding without the written consent of the
persons concerned. Any person who makes public
information in violation of this subsection shall
be fined not more than $1,000 or imprisoned
for not more than one year, or both. The Commission shall make its determination on reasonable
cause as promptly as possible and, so far as
practicable, not later than one hundred and
twenty days from the filing of the charge or,
where applicable under subsection (c) or (d),
from the date upon which the Commission is
authorized to take action with respect to the
charge.
(c) State or local enforcement proceedings;
notification of State or local authority;
time for filing charges with Commission;
commencement of proceedings
In the case of an alleged unlawful employment
practice occurring in a State, or political subdivision of a State, which has a State or local
law prohibiting the unlawful employment practice
alleged and establishing or authorizing a State
or local authority to grant or seek relief from
such practice or to institute criminal proceedings
with respect thereto upon receiving notice thereof,
no charge may be filed under subsection (a)1 of
this section by the person aggrieved before the
expiration of sixty days after proceedings have
been commenced under the State or local law,
unless such proceedings have been earlier
1 So in original. Probably should be subsection ‘‘(b)’’.

App.113a
terminated, provided that such sixty-day period
shall be extended to one hundred and twenty
days during the first year after the effective date
of such State or local law. If any requirement for
the commencement of such proceedings is imposed
by a State or local authority other than a requirement of the filing of a written and signed
statement of the facts upon which the proceeding
is based, the proceeding shall be deemed to have
been commenced for the purposes of this subsection
at the time such statement is sent by registered
mail to the appropriate State or local authority.
(d) State or local enforcement proceedings;
notification of State or local authority;
time for action on charges by Commission
In the case of any charge filed by a member of
the Commission alleging an unlawful employment
practice occurring in a State or political subdivision
of a State which has a State or local law prohibiting the practice alleged and establishing or
authorizing a State or local authority to grant or
seek relief from such practice or to institute
criminal proceedings with respect thereto upon
receiving notice thereof, the Commission shall,
before taking any action with respect to such
charge, notify the appropriate State or local
officials and, upon request, afford them a reasonable time, but not less than sixty days (provided
that such sixty-day period shall be extended to
one hundred and twenty days during the first
year after the effective day of such State or local
law), unless a shorter period is requested, to act
under such State or local law to remedy the
practice alleged.

App.114a
(e) Time for filing charges; time for service of
notice of charge on respondent; filing of
charge by Commission with State or local
agency; seniority system
(1) A charge under this section shall be filed
within one hundred and eighty days after the
alleged unlawful employment practice occurred
and notice of the charge (including the date,
place and circumstances of the alleged unlawful
employment practice) shall be served upon the
person against whom such charge is made within
ten days thereafter, except that in a case of an
unlawful employment practice with respect to
which the person aggrieved has initially instituted
proceedings with a State or local agency with
authority to grant or seek relief from such practice or to institute criminal proceedings with
respect thereto upon receiving notice thereof,
such charge shall be filed by or on behalf of the
person aggrieved within three hundred days
after the alleged unlawful employment practice
occurred, or within thirty days after receiving
notice that the State or local agency has
terminated the proceedings under the State or
local law, whichever is earlier, and a copy of such
charge shall be filed by the Commission with the
State or local agency.
(2) For purposes of this section, an unlawful employment practice occurs, with respect to a
seniority system that has been adopted for an
intentionally discriminatory purpose in violation
of this subchapter (whether or not that discriminatory purpose is apparent on the face of the
seniority provision), when the seniority system

App.115a
is adopted, when an individual becomes subject
to the seniority system, or when a person
aggrieved is injured by the application of the
seniority system or provision of the system.
(3)
(A) For purposes of this section, an unlawful
employment practice occurs, with respect to
discrimination in compensation in violation
of this subchapter, when a discriminatory
compensation decision or other practice is
adopted, when an individual becomes subject
to a discriminatory compensation decision
or other practice, or when an individual is
affected by application of a discriminatory
compensation decision or other practice,
including each time wages, benefits, or
other compensation is paid, resulting in
whole or in part from such a decision or other
practice.
(B) In addition to any relief authorized by section
1981a of this title, liability may accrue and
an aggrieved person may obtain relief as
provided in subsection (g)(1), including
recovery of back pay for up to two years
preceding the filing of the charge, where the
unlawful employment practices that have
occurred during the charge filing period are
similar or related to unlawful employment
practices with regard to discrimination in
compensation that occurred outside the time
for filing a charge.

App.116a
(f) Civil action by Commission, Attorney
General, or person aggrieved; preconditions; procedure; appointment of attorney; payment of fees, costs, or security;
intervention; stay of Federal proceedings;
action for appropriate temporary or preliminary relief pending final disposition of
charge; jurisdiction and venue of United
States courts; designation of judge to hear
and determine case; assignment of case
for hearing; expedition of case; appointment of master
(1) If within thirty days after a charge is filed
with the Commission or within thirty days after
expiration of any period of reference under
subsection (c) or (d), the Commission has been
unable to secure from the respondent a conciliation
agreement acceptable to the Commission, the
Commission may bring a civil action against any
respondent not a government, governmental
agency, or political subdivision named in the
charge. In the case of a respondent which is a
government, governmental agency, or political
subdivision, if the Commission has been unable
to secure from the respondent a conciliation
agreement acceptable to the Commission, the
Commission shall take no further action and
shall refer the case to the Attorney General who
may bring a civil action against such respondent
in the appropriate United States district court.
The person or persons aggrieved shall have the
right to intervene in a civil action brought by the
Commission or the Attorney General in a case
involving a government, governmental agency,

App.117a
or political subdivision. If a charge filed with the
Commission pursuant to subsection (b), is dismissed by the Commission, or if within one
hundred and eighty days from the filing of such
charge or the expiration of any period of reference
under subsection (c) or (d), whichever is later,
the Commission has not filed a civil action under
this section or the Attorney General has not filed
a civil action in a case involving a government,
governmental agency, or political subdivision, or
the Commission has not entered into a conciliation
agreement to which the person aggrieved is a
party, the Commission, or the Attorney General
in a case involving a government, governmental
agency, or political subdivision, shall so notify
the person aggrieved and within ninety days
after the giving of such notice a civil action may
be brought against the respondent named in the
charge (A) by the person claiming to be aggrieved
or (B) if such charge was filed by a member of
the Commission, by any person whom the charge
alleges was aggrieved by the alleged unlawful
employment practice. Upon application by the
complainant and in such circumstances as the
court may deem just, the court may appoint an
attorney for such complainant and may authorize
the commencement of the action without the
payment of fees, costs, or security. Upon timely
application, the court may, in its discretion,
permit the Commission, or the Attorney General
in a case involving a government, governmental
agency, or political subdivision, to intervene in
such civil action upon certification that the case
is of general public importance. Upon request,
the court may, in its discretion, stay further pro-

App.118a
ceedings for not more than sixty days pending
the termination of State or local proceedings
described in subsection (c) or (d) of this section
or further efforts of the Commission to obtain
voluntary compliance.
(2) Whenever a charge is filed with the Commission and the Commission concludes on the basis
of a preliminary investigation that prompt judicial action is necessary to carry out the purposes
of this Act, the Commission, or the Attorney General in a case involving a government, governmental agency, or political subdivision, may
bring an action for appropriate temporary or
preliminary relief pending final disposition of
such charge. Any temporary restraining order or
other order granting preliminary or temporary
relief shall be issued in accordance with rule 65
of the Federal Rules of Civil Procedure. It shall
be the duty of a court having jurisdiction over
proceedings under this section to assign cases
for hearing at the earliest practicable date and
to cause such cases to be in every way expedited.
(3) Each United States district court and each
United States court of a place subject to the
jurisdiction of the United States shall have jurisdiction of actions brought under this subchapter.
Such an action may be brought in any judicial
district in the State in which the unlawful employment practice is alleged to have been committed, in the judicial district in which the employment records relevant to such practice are
maintained and administered, or in the judicial
district in which the aggrieved person would
have worked but for the alleged unlawful em-

App.119a
ployment practice, but if the respondent is not
found within any such district, such an action
may be brought within the judicial district in
which the respondent has his principal office. For
purposes of sections 1404 and 1406 of title 28,
the judicial district in which the respondent has
his principal office shall in all cases be considered
a district in which the action might have been
brought.
(4) It shall be the duty of the chief judge of the
district (or in his absence, the acting chief judge)
in which the case is pending immediately to
designate a judge in such district to hear and
determine the case. In the event that no judge in
the district is available to hear and determine
the case, the chief judge of the district, or the
acting chief judge, as the case may be, shall
certify this fact to the chief judge of the circuit
(or in his absence, the acting chief judge) who
shall then designate a district or circuit judge of
the circuit to hear and determine the case.
(5) It shall be the duty of the judge designated
pursuant to this subsection to assign the case for
hearing at the earliest practicable date and to
cause the case to be in every way expedited. If
such judge has not scheduled the case for trial
within one hundred and twenty days after issue
has been joined, that judge may appoint a
master pursuant to rule 53 of the Federal Rules
of Civil Procedure.

App.120a
(g) Injunctions; appropriate affirmative
action; equitable relief; accrual of back
pay; reduction of back pay; limitations on
judicial orders
(1) If the court finds that the respondent has
intentionally engaged in or is intentionally
engaging in an unlawful employment practice
charged in the complaint, the court may enjoin
the respondent from engaging in such unlawful
employment practice, and order such affirmative
action as may be appropriate, which may include,
but is not limited to, reinstatement or hiring of
employees, with or without back pay (payable by
the employer, employment agency, or labor organization, as the case may be, responsible for the
unlawful employment practice), or any other
equitable relief as the court deems appropriate.
Back pay liability shall not accrue from a date
more than two years prior to the filing of a
charge with the Commission. Interim earnings
or amounts earnable with reasonable diligence
by the person or persons discriminated against
shall operate to reduce the back pay otherwise
allowable.
(2)
(A) No order of the court shall require the admission or reinstatement of an individual as a
member of a union, or the hiring, reinstatement, or promotion of an individual as an
employee, or the payment to him of any
back pay, if such individual was refused
admission, suspended, or expelled, or was
refused employment or advancement or was
suspended or discharged for any reason

App.121a
other than discrimination on account of race,
color, religion, sex, or national origin or in
violation of section 2000e–3(a) of this title.
(B) On a claim in which an individual proves a
violation under section 2000e–2(m) of this
title and a respondent demonstrates that
the respondent would have taken the same
action in the absence of the impermissible
motivating factor, the court—
(i)

may grant declaratory relief, injunctive
relief (except as provided in clause (ii)),
and attorney’s fees and costs demonstrated to be directly attributable only
to the pursuit of a claim under section
2000e–2(m) of this title; and

(ii) shall not award damages or issue an
order requiring any admission, reinstatement, hiring, promotion, or payment,
described in subparagraph (A).
(h) Provisions of chapter 6 of title 29 not
applicable to civil actions for prevention
of unlawful practices
The provisions of chapter 6 of title 29 shall not
apply with respect to civil actions brought under
this section.
(i) Proceedings by Commission to compel
compliance with judicial orders
In any case in which an employer, employment
agency, or labor organization fails to comply
with an order of a court issued in a civil action
brought under this section, the Commission may

App.122a
commence proceedings to compel compliance with
such order.
(j) Appeals
Any civil action brought under this section and any
proceedings brought under subsection (i) shall
be subject to appeal as provided in sections 1291
and 1292, title 28.
(k) Attorney’s fee; liability of Commission and
United States for costs
In any action or proceeding under this subchapter
the court, in its discretion, may allow the prevailing
party, other than the Commission or the United
States, a reasonable attorney’s fee (including
expert fees) as part of the costs, and the Commission and the United States shall be liable for
costs the same as a private person.

App.123a
APPELLANT’S OPENING BRIEF—
RELEVANT EXCERPTS
(JULY 22, 2020)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
JOSHUA O. THOMAS,
Plaintiff-Appellant,
v.
FARMERS INSURANCE EXCHANGE,
Defendant-Appellee.
________________________
Case No. 20-3076
On Appeal from the United States District Court
for the District of Kansas
The Honorable Judge Daniel D. Crabtree
Originating Case No. 18-2564-DDC-ADM
APPELLANT’S OPENING BRIEF
Alexander L. Edelman
Sarah Liesen
Edelman, Liesen & Myers, L.L.P.
208 W. Linwood Blvd.
Kansas City, Missouri 64111
(816) 607-1529
aedelman@elmlawkc.com
July 22, 2020

Oral Argument Requested

App.124a

[...]
[Appellant’s Opening Brief; July 22, 2020; Page 18]
ARGUMENT
I.

THE DISTRICT COURT ERRED IN GRANTING
DEFENDANT’S MOTION FOR SUMMARY JUDGMENT
BECAUSE PLAINTIFF PROVIDED SUFFICIENT
EVIDENCE TO SURVIVE SUMMARY JUDGMENT ON
HIS CLAIM OF DISCRIMINATION
a. Standard of Review

A district court’s grant of summary judgment
under Rule 56 is subject to de novo review. Pitman v.
Blue Cross & Blue Shield of Okla., 217 F.3d 1291,
1295 (10th Cir. 2000). The reviewing court must
apply the same standards as the district court. Kimber
v. Thiokoi Corp., 196 F.3d 1092, 1097 (10th Cir. 1999).
Summary judgment shall only be granted if there is
“no genuine issue as to any material fact and . . . the
moving party is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(c). In ruling on summary
judgment, the court must resolve all ambiguities
and draw all factual inferences in favor of the nonmoving party. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 255, 106 S.Ct. 2505 (1986).
b. Summary Judgment Standard for Claims
of Employment Discrimination Under
Title VII
When analyzing employment discrimination claims
that rely on circumstantial evidence, federal courts

App.125a
apply the burden-shifting analysis laid out in
McDonnell Douglas Corp. v. Green, 411 U.S. 792
(1973). This circuit has summarized the McDonnell
Douglas process:
[...]
[Appellant’s Opening Brief; July 22, 2020; Page 24]
d. Plaintiff’s Sex Discrimination Claims
Survive Summary Judgment Under the
McDonnell Douglas Burden-Shifting
Analysis
Plaintiff also presented evidence to the district
court showing his case could survive summary
judgment under the McDonnell Douglas burden shifting
analysis.
1. Plaintiff’s Prima Facie Case
Plaintiff made a prima facie case of sex discrimination. To make a prima facie case of discrimination,
a plaintiff must show (1) that he “is a member of a
protected class,” (2) that he “suffered an adverse
employment action,” (3) and that “the challenged
action occurred under circumstances giving rise to an
inference of discrimination.” Bennett v. Windstream
Communications, Inc., 792 F.3d 1261, 1266 (10th
Cir. 2015). This burden is “slight,” it is “not onerous,”
and it can be met “by the small amount of proof
necessary to create an inference of discrimination.”
Tabor, 703 F.3d at 1216 n.4 (quoting Orr v. City of
Albuquerque, 417 F.3d 1144, 1149 (10th Cir. 2005)).
Plaintiff adduced evidence that he is a member
of a protected class and that the denial of the AU
position was an adverse job action. Plaintiff is male.

App.126a
(App. Vol. II, A390). Title VII’s prohibition on sex
discrimination protects males. See, e.g., Oncale v.
Sundowner Offshore Services, Inc., 523 U.S. 75, 78
(1998). Title VII expressly makes it unlawful for an
employer “to fail or refuse to hire . . . any individual
. . . because of such individual’s . . . sex.” 42 U.S.C.
§ 2000e-2(a)(1).
[...]
[Appellant’s Opening Brief; July 22, 2020; Page 28]
. . . issue with sufficient clarity so that the plaintiff
will have a full and fair opportunity to demonstrate
pretext.” Id. 450 U.S. at 255-256.
As the district court recognized, Defendant met
its minimal burden of articulating a non-discriminatory
reason for its failure to hire Plaintiff for the AU
position. It asserted that “[w]ith respect to the AU
positions, Farmers has stated that Plaintiff was not
selected because the two people selected were more
qualified than Plaintiff.” (App. Vol. I, A94). Thus,
Defendant met its burden of coming forward with a
proffered reason for the failure to hire Plaintiff for
the AU position. (App. Vol. III, A723) Thus, the
burden shifted to Plaintiff to show evidence supporting
his claim that the reason given by Defendant is
pretextual.
3. Pretext
Plaintiff adduced substantial evidence before the
district court from which a jury could find that the
reason given by Defendant were a pretext, and not
the real reason for its failure to hire Plaintiff for the
AU position. A plaintiff may establish pretext by
showing “such weaknesses, implausibilities, incon-

App.127a
sistencies, incoherencies, or contradictions in the
employer’s proffered legitimate reasons for its action
that a reasonable fact-finder could rationally find them
unworthy of credence and hence infer that the employer
did not act for the asserted non-discriminatory
reasons.” Bennett, 792 F.3d at 1267 (quoting Jones v.
Okla. City Pub. Sch., 617 F.3d 1273, 1280 (10th Cir.
2010)). Thus, “once a plaintiff presents evidence
sufficient to create a genuine factual dispute regarding
the veracity of a defendant’s nondiscriminatory reason,
we presume the jury could infer that the employer
acted for a discriminatory reason and must deny
summary judgment.” Jones, 617 F.3d at 1280 (quoting
Bryant v. Farmers Ins. Exch., 432 F.3d 1114, 1125
(10th Cir. 2005)). “The evidence which [a plaintiff]
can present in an attempt to establish” pretext ‘may
take a variety of forms’ and a plaintiff ‘may not be
forced to pursue any particular means of demonstrating that [the] stated reasons are pretextual.’”
Patterson v. McLean Credit Union, 491 U.S. 164,
187-88 (1989).
Plaintiff presented substantial evidence to show
that the proffered reason for the denial of the AU
position—that “Plaintiff was not selected because the
two people selected were more qualified than Plaintiff”
for the position—was a pretext for the discriminatory
motive.
There were clear inconsistencies in the reasons
given to Plaintiff over time for the decision. Following
the decision not to hire Plaintiff, he asked for a
meeting with Radliff, who had made the decision.
(App. Vol. II, A350). At the meeting, they discussed
Radliff’s purported reasons for Plaintiff not being
hired. (App. Vol. I, A76-A77). During the meeting

App.128a
Radliff also emphasized the fact that Joshua had not
previously interacted with him or reached out to him.
(App. Vol. II, A381). However, Defendant now no
longer claims that was part of the reason for the
decision. Moreover, Radliff had no such contact with
the two candidates hired. (App. Vol. II, A381, A527).
Similarly, Radliff claimed the quality Plaintiff lacked
was leadership. (App. Vol. II, A381). However, he
acknowledged the position was not a leadership
position. (App. Vol. II, A381, A528). Also, despite
later claiming Plaintiff lacked the quality of leadership,
Radliff checked the box in his interview notes showing
that Plaintiff “demonstrated” teamwork and leadership
in his interview. (App. Vol. II, A381-382, A518).
Again, this is a further inconsistency.
Moreover, there is evidence strongly suggesting
Radliff did not want to give the feedback by a means
that would create a record (such as chat or email),
but only in person. (App. Vol. II, A304-306, A350). As
explained further, below, there is evidence that other
employees also moved to in-person meeting when
discussing something they did not want memorialized.
(App. Vol. II, A399, A578, A579). From all of this, a
jury could reasonably infer that Radliff did not want
his statement to Plaintiff to be recorded and could
further infer that he knew there was something
improper about those reasons.
The district court rejected Plaintiff’s argument.
In doing so, it analyzed each of the facts supporting
Plaintiff’s argument individually, rejecting each one
individually as being insufficient to raise a genuine
issue. (App. Vol. III, A724-A726). Then, it states that
one cannot “establish pretext with pure speculation.”
(App. Vol. III, A727) (citing Lounds v. Lincare, Inc.,

App.129a
812 F.3d 1208, 1238 (10th Cir. 2015)). However,
when analyzing the evidence giving rise to a triable
issue of pretext, the different pieces of evidence
should be analyzed “[t]ogether.” Smothers v. Solvay
Chems., Inc., 740 F.3d 530, 540 (10th Cir. 2014).
Thus, the trial court’s analysis is inherently erroneous,
and even if individual parts are not, by themselves,
enough to demonstrate inconsistency, when the evidence is looked at together, it does provide a triable
issue. Plaintiff’s factual claims are not “pure
speculation” like the plaintiff in Lounds, whose only
basis for asserting a pretext was the timing of her
discipline. 812 F.3d at 1236 n.10.
In addressing Plaintiff’s arguments, the district
court also cited authority holding that courts “may not
second guess the business judgment of the employer”
and “may not act as a super personnel department
that second guesses employers’ business judgments.”
(App. Vol. III, A724-A726). However, this is not what
Plaintiff was doing in any of his arguments. Indeed,
Plaintiff never argued that he was more qualified,
because such a decision is generally left to the
decision maker’s discretion. Instead, he focused on
the very inconsistencies that the case law suggests
are how pretext should be demonstrated.
When taken together, the evidence Plaintiff
produced before the district court is more than sufficient
to make a prima facie case of discrimination, and
create a genuine issue as to whether Defendant’s
proffered reasons failing to hire him for the AU
position were pretext. Therefore, the district court
erred in granting Defendant’s Motion for Summary
Judgment.

App.130a
II. THE DISTRICT COURT ERRED IN GRANTING
DEFENDANT’S MOTION FOR SUMMARY JUDGMENT
BECAUSE PLAINTIFF ADDUCED SUFFICIENT
EVIDENCE TO SURVIVE SUMMARY JUDGMENT FOR
HIS RETALIATION CLAIM
Plaintiff produced enough evidence before the
district court to survive summary judgment on his
claims of retaliation regarding both the final written
warning and his termination. In addition to prohibiting
discrimination, Title VII also forbids retaliation against
an employee because he “has opposed any practice
made unlawful by Title VII” Lounds, 812 F.3d at
1233 (internal quotations omitted). Plaintiff raised a
triable issue of fact on two acts of retaliation: his
receiving a final, written warning, and the termination
of his employment.
a. Standard of Review and Summary Judgment Standard
As previously stated, rulings on summary judgment are reviewed de novo review. Pitman, 217 F.3d
at 1295. Similarly, as with discrimination, a plaintiff
seeking to survive summary judgment “must establish
that retaliation played a part in the employment
decision,” either through direct evidence, or using
circumstantial evidence and the McDonnell Douglas
burden-shifting analysis. Lounds, 812 F.3d at 1233
(internal quotations omitted).
b. Final Written Warning
Plaintiff was placed on a Final Warning on May
17, 2019. (App. Vol. I, A81). Being put on this Warning
caused Plaintiff to lose his tuition reimbursement

App.131a
benefit and prevented him from applying for other
positions within the company. (App. Vol.
[...]
[Appellant’s Opening Brief; July 22, 2020; Page 37]
. . . improvement in response to feedback from his
supervisors, and insubordination.” (App. Vol. III,
732). Thus, Defendant met its burden of production
at this stage.
c. Pretext
Plaintiff proffered more than enough evidence to
create a genuine issue as to whether Defendant’s
purported reasons for issuing the Final Written
Warning were a pretext for retaliation. Plaintiff
offered multiple examples pointing to evidence showing
“weaknesses, implausibilities, inconsistencies, incoherencies, or contradictions” in reasons given by Shelton
in the memorandum. (App. Vol. II, A421-A423); see
also, Bennett, 792 F.3d at 1267. Despite the large
amount of evidence offered by Plaintiff, the district
court rejected his arguments, again analyzing each
piece of evidence in isolation to conclude it did not
present a triable issue. (App. Vol. III, A732-736).
The first evidence of pretext is the timing of
Final Warning. As Plaintiff explained above, it was
three weeks from Plaintiff’s complaint on April 25-26,
2018 to the date of the formal issuance of the Final
Written Warning on May 17, 2018. However, there is
evidence from which a trier of fact could reasonably
infer an even closer proximity. On May 10, 2018,
Shelton emailed his supervisor to say that he had
coached Plaintiff as much as he could, and that he
was now in an observation period to see what Plaintiff

App.132a
would do. (App. Vol. I, A80). Just one hour earlier,
Shelton had sent a glowing email to Plaintiff about
how successful he was. (App. Vol. I, A398, A574).
From this fact, and the surrounding circumstances, a
jury could reasonably infer that Shelton sent the
May 10, 2018 email for the purpose of setting up the
Final Warning a week later, and therefore that the
decision to retaliate was made on or before May 10,
just two weeks after the complaint. For the purposes
of summary judgment, such reasonable assumptions
are made in favor of Plaintiff, as the non-movant.
Anderson, 477 U.S. at 255. While timing alone is not
sufficient to establish pretext, it can be evidence of
pretext. Bird v. W. Valley City, 832 F.3d 1188, 1204
(10th Cir. 2016).
Another piece of evidence that the reason given
for the Final Warning was a pretext was the
implausibility of the given reason, and its inconsistency
with other evaluations of Plaintiff’s conduct. The
Final Warning highlighted what it claimed were
Plaintiff’s issues with “accepting and applying feedback
to grow,” stating that he had “not made improvements
in these areas” was “not meeting expectations.” (App.
Vol. II, A323, A422). On May 1, 2018 (just 16 days
earlier) Amy Canton sent an email in which,
unprompted, she described a “recent ‘coaching’
experience” she and Shelton had with Plaintiff as “a
great experience to share because we were able to
see quick results in terms of the employee acceptance
and ownership.” (App. Vol. II, A364, A583). Shelton
himself praised Plaintiff for asking a question about
how he could improve his performance, saying on
March 27, 2018 “[t]his is the type of attitude that I
appreciate and will make you more successful in

App.133a
your role.” (App. Vol. II, A364, A443). On March 31,
2018, Shelton wrote in his observation log to Plaintiff
“[y]ou do an excellent job with your development.”
(App. Vol. II, A365, A465-A466). Such statements
appear inconsistent with the claim that Plaintiff had
not made any improvements in the area or met
expectations.
There is other evidence inconsistent with what
is written in the memorandum constituting the Final
Written Warning. The Warning claims that Plaintiff’s
behavior “creates a negative work environment with
your peers.” (App. Vol. II, A323). However, none of
Plaintiff’s coworkers complained about his behavior.
(App. Vol. II, A363, A504).
Another indication of pretext is Defendant’s
failure to follow its progressive discipline process.
Shelton was aware of lesser forms of discipline, but
the evidence shows he did not even consider using
them, or if they would have been effective. (App. Vol.
II, A363, A450, A454-A456). Both Canton and Sims
recognized that going directly to a final written
warning was rare. (App. Vol. II, A396, A477-A478,
A508).
Similarly, the nature of the discipline in relationship to the complaint is further evidence of pretext.
Among the forms of discrimination mentioned in
Plaintiff’s complaint were that he was repeatedly
passed over for internal promotions. (See App. Vol.
II, A309-310). Being put on a final warning prevents
an employee from moving to other positions in the
company. (App. Vol. II, A393, A508). Thus, a jury
could reasonably infer that he was placed on the
Final Warning not for the reasons Defendant claimed,
but to retaliate against him for complaining about

App.134a
the discriminatory denial of other jobs, or to prevent
him from applying for new internal positions and
revealing further discrimination.
Finally, there is substantial evidence to suggest
that Shelton was behaving in bad faith, or at least in
an inconsistent and incoherent manner, when it
came to the discipline of Plaintiff relating to the
Final Written Warning. On May 10, 2018, Shelton
messaged Plaintiff his phone metrics and said “[t]his
is fantastic, nice work sir.” (App. Vol. II, A365,
A574). After Plaintiff thanked him for the feedback,
Shelton added “Yeah great job! You’re really supporting
our team more than you know with phone metrics.”
(Id.). An hour later, he sent an email saying he could
no longer coach Plaintiff, pasting Plaintiff’s phone
metrics into the email. (App. Vol. I, A80, Vol. II,
A319). Shelton’s wild shift from high praise to total
dismissal creates questions about the coherence of
Shelton’s motives, and creates a genuine issue of
material fact as to the veracity of his purported
reasons for Plaintiff’s receiving the Final Written
Warning. There are many other examples, from March
2018 and well beyond the Final Written Warning in
May, in which Shelton gave Plaintiff a significant
amount of positive feedback inconsistent with the
purported failures in the Final Warning. (See App.
Vol. II, A363-A366).
In rejecting Plaintiff’s argument, the trial court
focuses on each item individually, and dismisses each
in turn. (App. Vol. III, A733-A736). The Memorandum
and Order is quite explicit in doing so, at one point
stating “[t]hat Shelton knew he had lesser means of
discipline available to him . . . —without more—creates
no triable issue whether the final warning was

App.135a
pretext.” (App. Vol. III, A735). Yet there was more,
as the trial court discussed. As Plaintiff previously
mentioned, this dissection is a misapplication of the
law, which looks at the evidence Plaintiff has brought
forth as a whole. Smothers, 740 F.3d at 540. Shelton’s
disregard for the progressive discipline system is
more suspect given his praise of Plaintiff, and the
inconsistencies in the reasons given.
The district court’s decision appeared to misapply
the law in other ways as well. In rejecting Plaintiff’s
argument about the allegation that he created a
negative work environment, the Memorandum and
Opinion, it quoted the authority holding that “[i]nstead
of asking whether the employer’s reasons ‘were wise,
fair, or correct,’ the relevant inquiry is whether the
employer ‘honestly believed those reasons and acted
in good faith upon those beliefs.’” (App. Vol. III,
D734) (quoting DePaula v. Easter Seals El Mirador,
859 F.3d 957, 970 (10th Cir. 2017)). However, Plaintiff
has never argued that his having created a negative
work environment for his coworkers would not be
important, not something Defendant should have
cared about, or an adequate reason for the discipline.
Rather, Plaintiff sought to offer evidence from which
a jury could infer that Shelton did not honestly
believe that this was something Plaintiff had done.
This is precisely the kind of proof that DePaula and
the other relevant authority suggest should be brought
forth. Both Defendant (in its reply) and the district
court state, without citation, that “Plaintiff’s supervisors
judged that his behavior was creating a negative
environment for his co-workers.” (App. Vol. III, A685);
see also (App. Vol. III, A734). Yet this is not an
uncontroverted fact that should be the basis for

App.136a
summary judgment, and Defendant offers no evidence
to support it, other than its presence in the Final
Written Warning. The district court appears to hold
that if a supervisor said he was disciplining a plaintiff
for a reason, he must believe it, and therefore it is
not a pretext. Such a tautology makes proving pretext
impossible, and is completely inconsistent with the
case law regarding the final stage of the McDonnell
Douglas burden-shifting analysis.
Defendant also suggested that the positive feedback Plaintiff received that is inconsistent with the
reasons given for giving the Final Warning are
“immaterial” because the Warning “was triggered by
an incident which occurred on May 17, 2018.” (App.
Vol. III, A685). The district court agrees with this
assessment. (App. Vol. III, A733). However, this
ignores the fact that the Final Warning lists numerous
reasons for it being issued. (App. Vol. II, A323).
Defendant adopted these reasons in its own briefing.
(App. Vol. I, A100). Thus, in showing pretext, Plaintiff
can show inconsistencies with any of the reasons
given. Had Shelton wanted to base the Final Warning
solely on Plaintiff’s alleged behavior at the May 17,
2018 meeting, or had he stated that that reason
alone was sufficient for a Final Warning without
anything else, he could have done so. He did not.
(App. Vol. II, A323). Thus, the credibility of each
reason given is material to the question of whether
or not those reasons are a pretext. Moreover, the
claim that Plaintiff left the counseling session before
it was over is not an uncontroverted fact. (App. Vol.
II, A366, A321, A327).
Plaintiff has clearly adduced evidence which,
when viewed as a whole, creates a genuine issue of

App.137a
material fact as to whether the reasons for the Final
Warning were a pretext. Therefore, the trial court
erred in granting Defendant’s motion for summary
judgment.
c. Termination
Defendant terminated Plaintiff’s employment on
October 25, 2018. (App. Vol. I, A84). Plaintiff has
evidence sufficient to survive summary judgment on
his claim that his termination was an unlawful act of
retaliation. Although Plaintiff does not have any
direct evidence of retaliation, there is more than
enough circumstantial evidence to support the claim
under the McDonnell Douglas burden-shifting analysis.
Additionally, because there is evidence from which a
jury could reasonably infer that the Final Warning
was a but-for cause of the termination, if that Warning
is an act of discrimination, the termination should be
as well.
[...]
[Appellant’s Opening Brief; July 22, 2020; Page 49]
. . . “assume[d], without deciding, that plaintiff
ha[d] made his prima facie case.” (App. Vol. III,
A733).
2. Defendant’s
Asserted
inatory Reason

Non-Discrim-

Defendant has met its minimal burden of
articulating a non-discriminatory reason for Plaintiff’s
termination. “Plaintiff was terminated for his handling
of the October 22, 2018 call and his inability to
accept feedback, both of which were ongoing issues
Plaintiff had been coached on repeatedly throughout

App.138a
2018.” (App. Vol. I, A103). Earlier in its Memorandum,
Defendant stated the termination was based solely
on the call, giving more details about it. “With
respect to the termination . . . on October 22, 2018,
Plaintiff was rude during a call with an agent and
failed to follow proper procedures in handling this
call.” (Id. at 30). While these reasons are not identical,
taken together they still provide Plaintiff “a full and
fair opportunity to demonstrate pretext.” Burdine, at
450 U.S. at 256.
3. Pretext
Plaintiff provided the district court with more
than enough evidence to create a genuine factual
dispute regarding the veracity of Defendant’s nondiscriminatory reasons for his termination. Defendant’s
allegations are inconsistent, contradict other statements
its employees have made, and its decision changed
substantially from one day to another without
explanation.
A. The October 22, 2018 Call
Defendant listed Plaintiff’s handling of the October
22, 2018 call as one of the reasons for his termination
(if not the sole reason). However, its purportedly
uncontroverted facts about the call are all controverted.
(App. Vol. II, A368-A371). Moreover, the criticism of
the call Plaintiff received lacked credibility or was
inconsistent with other statements of Defendant. For
example, Plaintiff was criticized for failing to contact
Sims after the agent hung up, but Sims admitted in
his deposition that Plaintiff’s offer of a supervisor
callback was sufficient, and he did not need to
escalate the call where the agent did not ask him to

App.139a
have a supervisor call back. (App. Vol. II, A373,
A486-A487)). More astoundingly, Plaintiff was criticized
for following Defendant’s policy when it came to
backdating discounts. (App. Vol. II, A372). This alone
is sufficient to create a genuine issue of material fact
as to the veracity of Defendant’s claims.
Nor is this conduct the same in Plaintiff’s final
written warning. The main criticism Plaintiff received
related to the call was his purported failure to
escalate the call to a supervisor. (App. Vol. II, A375,
A484-A485). This was not something that was
contained in his Final Written Warning, and Canton
never had it brought to her attention that Plaintiff
had issues not escalating to a supervisor. (App. Vol.
II, A375, A511).
Moreover, at the end of the October 24, 2018
meeting at which Plaintiff was “coached” about his
conduct on the call by Sims and Mazzetta, Plaintiff
was told that he should apply the feedback he is
receiving going forward. (App. Vol. II, A402). From
that statement, a jury could reasonably infer that, at
that point, having reviewed the call and being aware
of everything else that forms the basis of Defendant’s
reasons for the termination, Sims had reached the
conclusion that Plaintiff should not be terminated,
but should continue to work and apply this feedback.
Nothing that Defendant cites as the reason for the
termination happened after this meeting. Sims made
the decision to terminate Plaintiff. (App. Vol. I, A89).
Thus, the decision to terminate Plaintiff is inconsistent
with the decision not to terminate him, made just a
day earlier by the same decision maker.
In rejecting these arguments, the district court
again breaks the facts up into individual parts,

App.140a
rather than viewing them as a whole. (App. Vol. III,
A739-A742). As Plaintiff has previously explained,
this is a misapplication of the law, and when taken
together, the evidence creates a clear issue of pretext.
B. Plaintiff’s Purported
Accept Feedback

Inability

to

Defendant also alleges (in some places) that a
reason for Plaintiff’s termination was his inability to
accept feedback. In the memorandum that purported
to give the reasons for Plaintiff’s termination, Sims
wrote that “[w]hile reviewing a call that Joshua
received from an agent on October 22, 2018, he
showed no resilience during the coaching session as
to what could have been improved or changed during
the interaction.” (App. Vol. I, A84). It does not clearly
state that other instances of failure to take feedback
were part of the reason for the termination. (See App.
Vol. I, A84). However, the recording of the October
24, 2018 meeting shows that Plaintiff was, in fact,
receptive to feedback. (App. Vol. II, A374).
Also, as previously mentioned, Plaintiff received
substantial praise from numerous supervisors,
including Canton and Shelton, for his ability to accept
and incorporate feedback. (App. Vol. II, A374-A375).
4. The Final Warning Was the But-for Cause
of the Termination
Plaintiff can also show that his termination was
caused by the issuance of the final written warning.
As the Supreme Court recently made clear, the key
question in Title VII cases is whether the protected
trait is the but-for cause of the adverse action, i.e. if
not for that trait, would the adverse action have

App.141a
occurred. Bostock at *5-6. While Bostock dealt with
sex, the principle should be no less true for retaliation.
Therefore, if Plaintiff made a submissible case on the
Final Warning, he should be able to do so on the
termination.
In its briefing, Defendant claimed that “Plaintiff
was terminated for his handling of the October 22,
2018 call and his inability to accept feedback.” (App.
Vol. I, A103). However, as Defendant itself asserted,
another part of the reason was the final written
warning. (App. Vol. I, A84). Indeed, in the memorandum that Sims wrote on the termination, under
“Reasons for Termination Recommendation” the first
thing he wrote was that Plaintiff “was placed on a
final warning on May 17, 2018.” (App. Vol. II, A335).
Sims also testified in his deposition that without the
final written warning, Plaintiff’s conduct would not
have risen to the level of termination. (App. Vol. II,
A403, A487). The jury could reasonably conclude that
without the issuance of the Final Warning, there
would be no termination.
If the Final Written warning is an act of
unlawful retaliation, then retaliation is the but-for
cause of the Final Warning being issued. If the Final
Warning was a but-for cause of Plaintiff’s termination,
and unlawful retaliation was a but-for cause of the
Final Warning, then unlawful retaliation was also
the but-for cause of Plaintiff’s termination, and the
termination is also prohibited retaliation. Moreover,
if Plaintiff has made a triable case that the Final
Warning was unlawful retaliation, and that his
termination was the but-for cause of it, logically, he
has made a triable case that his termination was
unlawful discrimination.

App.142a
In another context, this Circuit recognized that
when “discriminatory reports, recommendation, or
other actions caused the adverse employment action,”
the employer is liable even if the actual decisionmaker
lacked discriminatory or retaliatory intent. EEOC v.
BCI Coca-Cola Bottling Company of Los Angeles, 450
F. 3d 476, 487 (10th Circuit 2006) (adopting the cat’s
paw or rubber stamp theory). While Shelton was not
Sims’ subordinate, the reasoning should be the same,
and Plaintiff has produced sufficient evidence from
which a jury could reasonably determine that the
Final Warning caused the termination.
Thus, even if this Court does not find a prima
facie case of retaliation in Plaintiff’s termination, or
sufficient evidence to show pretext, if it finds Plaintiff
has survived summary judgment on his claim of
retaliation for his Final Warning, it should also
reverse the trial court’s grant of summary judgment
for his claim of retaliation related to his termination.
CONCLUSION
For all of these reasons, Plaintiff asks this Court
to reverse the district court’s dismissal of her claims
through summary judgment and to remand this case
with instructions that it proceed to trial.

App.143a
PLAINTIFF’S MEMORANDUM IN
OPPOSITION TO DEFENDANT’S MOTION
FOR SUMMARY JUDGMENT—
RELEVANT EXCERPTS
(OCTOBER 22, 2019)
IN THE UNITED STATES DISTRICT COURT
DISTRICT OF KANSAS
________________________
JOSHUA O. THOMAS,
Plaintiff,
v.
FARMERS INSURANCE EXCHANGE,
Defendant.
________________________
Case No. 2:18-cv-02564-DDC-ADM
COMES NOW Plaintiff and Joshua O. Thomas
(hereinafter “Plaintiff”), by and through his undersigned
attorney, and for his Memorandum in Opposition to
Defendant Farmers Insurance Exchange’s (hereinafter
“Defendant”) Motion for Summary Judgment, and
states as follows:
I.

Responses to Defendant’s “Statement of
Uncontroverted Material Facts”

Pursuant to the Federal Rules of Civil Procedure
and D. Kan. Rule 56.1(b)(1), Plaintiff provides the
following responses to the purportedly undisputed

App.144a
material facts in Defendant’s “Statement of Uncontroverted Material Facts.” (Defendant’s Memorandum
in Support of its Motion for Summary Judgment
[hereinafter “Memo. in Supp.”], Doc. 54 at 8-241).
1. Farmers Group, Inc., (“Farmers”) is a Nevada
corporation registered to do business in the State of
Missouri. (Pretrial Order [Doc. #50], Stipulation No. 1)
UNCONTROVERTED.
[...]
14. Plaintiff was one of 10 applicants for the
AU positions in Phoenix. (Radliff Dep., p. 18:3-18:7,
Exhibit 3)
UNCONTROVERTED.
15. Personal Lines Field Underwriting Manager
John Radliff (who was located in Olathe) was the
hiring manager for the AU positions and decided who
would fill those positions. (Pretrial Order [Doc. #50],
Stipulation No. 12; Radliff Dep., p. 17:8-17:10, Exhibit
3)
UNCONTROVERTED.
16. Radliff was specifically looking for three
characteristics for the AU positions: decisiveness,
customer service, and leadership/teamwork. (Plt. Dep.,
p. 104:23-105:2, Exhibit 1; Dep. Ex. 16, Exhibit 15;
Radliff Dep., p. 19:14-19:18, Exhibit 3)

1 In citing to the Memo. in Supp., Appellant is using the page
numbers on the Court’s filestamp (which correspond to the PDF
page number), and not the page numbers assigned by Defendant
starting on Page 7 of the PDF document.

App.145a
CONTROVERTED.
Notes
from
the
Behavior-Based Interview Guide indicate
that the following competencies were
covered in the interviews: Teamwork;
Decisiveness; Persuasiveness; Customer
Service
Skills/Customer
Orientation;
Manage
Change.
(Behavior-Based
Interview
Guide—Brittany
Harris
interview, Exhibit 12). There is substantial
evidence from which to infer other factors
played a role—specifically, Plaintiff’s failure
to conform to sex stereotypes, and that the
reasons given were a pretext. In conversation
giving feedback to Plaintiff, “if I’m hiring for
Kansas City in the future, I might not need
a leader, I might have a bunch of alphas
over there. I don’t need that. So it will vary
depending on that.” (Audio recording of
Plaintiff’s April 23, 2018 Meeting with
Radliff, Ex. 10 at 1:42). Radliff’s statement
showed that he was looking for someone
who was more “alpha” than Plaintiff.
[...]
21. Following the interviews with all 10 candidates, Radliff selected Brittany Harris (female) and
James Parchment Chavez (male) for the open AU
positions. (Radliff Dep., p. 27:6-28:4, Exhibit 3)
UNCONTROVERTED.
22. On April 23, 2018, Radliff personally met
with Plaintiff to provide him feedback regarding the
interview process and explain why he was not chosen
for the position. (Plt. Dep., p. 99:4-21, 101:23-102:1,

App.146a
Exhibit 1; Radliff Dep., p. 72:19-74:19, Exhibit 3; Dep.
Ex. 19, Exhibit 16)
CONTROVERTED in part. It is UNCONTROVERTED that Plaintiff and Radliff
met, and that agenda for the meeting was
Radliff providing Plaintiff feedback. However,
it is CONTROVERTED that the provisions
of feedback was the only reason for them to
meet in person. Plaintiff sent an email
requesting feedback at 7:26 a.m. on April
23, 2018. (Depo. Exhibit 19, Doc. 54-16 at
1). That morning at 10:15 a.m. Radliff sent
Plaintiff a message asking to chat message
asking to visit about “Job feedback,” to
which Plaintiff responded he was on the
phone and asked that Radliff email him.
(Id. at 3). Radliff stated that he would
“prefer to chat if possible . . . it can wait
[un]til later or another day,” and specified
that he wanted to chat “in person” and not
online. (Id.). When Radliff was discussing
the feedback about Plaintiff via Skype with
Kyle Velthouse, he asked to talk to Velthouse
about it over the phone (thus not creating a
record). (Deposition of John Radliff, Exhibit
5, 93:22-94:21). During another Skype
conversation, Shelton said that a particular
subject was “best spoken in person.” (Radliff
Depo., Ex. 5, 99:12-16). In his complaint of
discrimination, Plaintiff mentioned that
Radliff “would not email or Skype.” (Email
Complaint, Doc. 54-17 at 2). From this it
could be inferred that one person of having
an in-person meeting was for Radliff to

App.147a
avoid creating a written record of his reasons
for not hiring Plaintiff.
23. During the April 23, 2018, meeting, Radliff
told Plaintiff that his interview went well, but that
Plaintiff did not demonstrate the necessary leadership
skills for the position. (Plt. Dep., p. 104:23-105:7,
Exhibit 1; Radliff Dep., p. 72:19-75:7, Exhibit 3)
UNCONTROVERTED.
24. During the April 23, 2018, meeting, Radliff
told Plaintiff that although he was not selected for
one of the current positions, he may be an excellent
candidate in the future. (Plt. Dep., p. 102:21-103:20,
Exhibit 1; Radliff Dep., p. 62:16-62:20, Exhibit 3)
CONTROVERTED. The materials cited do
not support Defendant’s assertions of the
absence of a genuine dispute as to this fact.
25. During the April 23, 2018, meeting, Radliff
told Plaintiff that “in the future, I might not need a
leader—I might have a bunch of alphas over there.”
(Plt. Dep., p. 105:8-105:13, Exhibit 1)
UNCONTROVERTED as to the words.
The punctuation is not supported by cited
portions of the record.
26. On April 25, 2018, after his April 23 meeting
with Radliff, Plaintiff emailed Amy Canton (Human
Resources Consultant) and complained about not
being selected for the AU position. (Plt. Dep., p.
112:23-113:2, Exhibit 1; Dep. Ex. 20, Exhibit 17)
UNCONTROVERTED.
27. On April 26, 2018, Canton met with Plaintiff
in person to discuss his concerns about not getting

App.148a
the AU position. (Plt. Dep., p. 115:25-117:2, Exhibit
1; Canton Dep., p. 31:21-32:4, Exhibit 4; Canton
Corp. Rep. Dep., p. 95:7-96:3, Exhibit 5)
UNCONTROVERTED.
28. During the April 26, 2018, conversation,
Canton agreed to reach out to the Talent Acquisition
department at Farmers to obtain additional information
on why Plaintiff did not receive the AU position. (Plt.
Dep., p. 118:14-119:18, Exhibit 1; Canton Corp. Rep.
Dep., p. 95:7-96:3, Exhibit 5; Dep. Ex. 21, Exhibit 18;
Dep. Ex. 117, Exhibit 26)
UNCONTROVERTED.
29. On May 10, 2018, Canton emailed Plaintiff
sharing feedback as to why he was not chosen for the
AU position and provided five specific recommendations
to help him in his interviewing in the future. (Plt.
Dep., p. 121:6-123:6, Exhibit 1; Dep. Ex. 21, Exhibit 18)
UNCONTROVERTED.
30. Plaintiff responded to Canton’s May 10, 2018,
email complaining that (a) Radliff had said he was
looking for an “alpha leader” in the role – which
Plaintiff interpreted as a criticism towards his male
characteristics and (b) Radliff had improperly “prescreened” Plaintiff by contacting Plaintiff’s supervisor
(Shelton) and asking about Plaintiff’s marital status,
age, and number of dependents. (Plt. Dep., p. 123:7123:10, Exhibit 1; Dep. Ex. 21, Exhibit 18)
CONTROVERTED. In the email in question, Plaintiff did not mention the phrase
“Alpha leader,” but said that he was told he
was not “Alpha enough” and specified “Alpha

App.149a
meaning male characteristics, dominating.”
(Doc. 54-18 at 1).
31. In response to the complaints listed in the
May 10 email, Canton suggested the two of them
(Plaintiff and Canton) meet with Shelton to discuss
the situation, but Plaintiff ultimately refused any
meeting with Shelton. (Plt. Dep., p. 124:5-124:15,
Exhibit 1; Canton Dep., p. 70:23-71:24, 72:25-73:11,
Exhibit 4; Dep. Ex. 28, Exhibit 22)
CONTROVERTED. Plaintiff initially agreed
to the meeting, prior to receiving the
retaliatory final written warning. (Canton,
71:25-72:10). Afterwards, Plaintiff stated
that “I’m not meeting with him if I’m going
to be harassed or picked apart, interrogated.”
(Email, Doc. 54-22 at 1). He did not refuse
the meeting outright, but only conditionally.
He also directly reported retaliation, saying
that every interaction had been that way
since he complained about the discrimination.
(Id.). Canton never offered to hold the
meeting without Plaintiff being interrogated.
32. In January 2018, Sebers met with Plaintiff to
coach him on not becoming frustrated during calls
with customers and the tone of his voice. (Plt. Dep.,
p. 59:22-61:20, 62:12-64:10, Exhibit 1; Dep. Ex. 11,
Exhibit 11)
CONTROVERTED. The materials cited do
not support Defendant’s assertions of the
absence of a genuine dispute as to those
claims, as they do not mention Plaintiff
becoming frustrated or his tone of voice.

App.150a
33. Plaintiff has no information or knowledge
that Sebers provided this January 2018 coaching
because of Plaintiff’s sexual orientation or failure to
conform to male sexual stereotypes. (Plt. Dep., 61:2162:5, 64:11-64:20, Exhibit 1)
CONTROVERTED. The materials cited do
not support Defendant’s assertions of the
absence of a genuine dispute. In each
portion of the deposition cited by Defendant,
in Response to Plaintiff’s question about
whether Plaintiff has such information,
Plaintiff answers, “I don’t know” not “no.”
(Plaintiff Depo. 61:25, 62:5, 64:15,20, Doc.
54-1 at 16, 17, 19). And while Plaintiff
stated that he reviewed all the . . .
[...]
. . . managers, employees, or agents.
(Compare Deposition Notice for Plaintiff,
Doc. 16 with, e.g., Deposition Notice for
Jarrod Shelton, Doc. 38 (July 24, 2019);
Deposition
Notice
for
Corporate
Representative, Doc. 45 (August 1, 2019)).
And there was further, written discovery
between the parties after that date. (See,
e.g., Defendant’s Notice of Service of
Supplemental Discovery Responses, Doc.
33). Thus, even if Plaintiff had said at the
time that he did not have such information,
it does not mean he does not now have it.
39. On April 3, 2018, Shelton met with Plaintiff
to coach him on not becoming frustrated during calls
and the tone of his voice. (Plt. Dep., p. 77:6-78:6,

App.151a
141:2-141:4, Exhibit 1; Dep. Ex. 11, Exhibit 11; Dep.
Ex. 15, Exhibit 14)
CONTROVERTED. Shelton wrote in the
interaction log that he coached Plaintiff
about not letting his frustration show on
calls (not about not becoming frustrated),
but the log does not mention Plaintiff’s
“tone of voice.” (Doc. 54-11 at 11). Moreover,
Plaintiff did not remember the conversation
taking place. (Plaintiff Depo. 78:1-6, Doc.
54-1 at 26).
40. Plaintiff has no information or knowledge
that Shelton provided this April 3, 2018, coaching
because of Plaintiff’s sexual orientation or failure to
conform to male sexual stereotypes. (Plt. Dep., p.
80:4-80:14, Exhibit 1)
CONTROVERTED. The materials cited do
not support Defendant’s assertions of the
absence of a genuine dispute. In each
portion of the deposition cited by Defendant,
in Response to Plaintiff’s question about
whether Plaintiff has such information,
Plaintiff answers, “I don’t know” not “no.”
(Plaintiff Depo. 80:8,14 Doc. 54-1 at 27).
Moreover, Plaintiff’s deposition took place
on April 10, 2019, prior . . .
[...]
. . . Jarrod Shelton, Doc. 38 (July 24, 2019);
Deposition Notice for Corporate Representative, Doc. 45 (August 1, 2019)). And
there was further, written discovery between
the parties after that date. (See, e.g., Defendant’s Notice of Service of Supplemental

App.152a
Discovery Responses, Doc. 33). Thus, even if
Plaintiff had said at the time that he did
not have such information, it does not mean
he does not now have it.
45. On May 7, 2018, Shelton met with Plaintiff
to coach him on not becoming frustrated during calls,
the tone of his voice, and showing empathy to callers.
(Plt. Dep., p. 134:12-135:15, 141:2-141:4, Exhibit 1;
Dep. Ex. 11, Exhibit 11)
CONTROVERTED. Shelton did write in the
interaction log that he talked to Plaintiff
about three things “empathy, tone, cutting
people off.” (Doc. 54-11 at 15). However,
that was only Shelton’s view of things. In
the memorialized communication he had
with Plaintiff (in which he instructed Plaintiff
to come see him “so we can talk in person”,
presumably to have the purported
discussion), he told Plaintiff that he “noticed
some good improvements in your small talk
and tone on the phone today.” (Id. at 14).
Moreover, Plaintiff did not recall the
conversation. (Plaintiff Depo. 135:2-15, Doc.
54-1 at 58).
46. Plaintiff has no information or knowledge
that Shelton provided this May 7, 2018, coaching
because of Plaintiff’s sexual orientation, failure to
conform to male sexual stereotypes or his complaint
to Human Resources. (Plt. Dep., p. 135:16-136:14,
Exhibit 1)
CONTROVERTED. The materials cited do
not support Defendant’s assertions of the
absence of a genuine dispute. In each

App.153a
portion of the deposition cited by Defendant,
in Response to Plaintiff’s question about
whether Plaintiff . . .
[...]
. . . has such information, Plaintiff Doc. 45
(August 1, 2019)). And there was further,
written discovery between the parties after
that date. (See, e.g., Defendant’s Notice of Service of Supplemental Discovery Responses,
Doc. 33). Thus, even if Plaintiff had said at
the time that he did not have such
information, it does not mean he does not
now have it.
49. On May 17, 2018, Plaintiff refused to accept
a document an agent submitted to support a policy
change. (Plt. Dep., p. 142:15-143:25, 148:18-150:11
Exhibit 1; Dep. Ex. 11, Exhibit 11; Dep. Ex. 26,
Exhibit 20)
UNCONTROVERTED.
50. Plaintiff emailed Shelton about the document
in question because the agent asked to speak to a
supervisor. (Plt. Dep., p. 144:1-144:12, 148:18-150:11
Exhibit 1; Dep. Ex. 11, Exhibit 11; Dep. Ex. 26,
Exhibit 20)
CONTROVERTED. He emailed Shelton
because the agent asked for a callback from
a supervisor. (Plaintiff Depo. 144:1-12, Doc.
54-1 at 64).
51. Shelton reviewed the document, determined
it was acceptable, and advised Plaintiff to accept the
document. (Plt. Dep., p. 145:5-146:4, 148:18-150:11

App.154a
Exhibit 1; Shelton Dep., p. 142:24-148:24, Exhibit 2;
Dep. Ex. 11, Exhibit 11; Dep. Ex. 26, Exhibit 20)
CONTROVERTED. Shelton did not just
“review the policy,” he did outside research
using Google. (Deposition of Jerrod Shelton,
Exhibit 2, 144:7-16, Doc. 54-2 at 64). Shelton
admitted that there was no policy at Farmers
that directed employees to do that. (Shelton
Depo., Ex. 2, 142:24-144:23).
52. Plaintiff e-mailed Shelton a list of reasons
why he disagreed with Shelton’s decision. (Plt. Dep.,
p. 146:5-147:3, 148:18-150:11 Exhibit 1; Dep. Ex. 11,
Exhibit 11; Dep. Ex. 26, Exhibit 20)
CONTROVERTED. The email in question
is before the Court. (Doc. 54-20 at 1).
During his deposition, Plaintiff said he was
sending the email to support his fact and
conclusions, and separately stated that he
disagreed with the decision. (Plaintiff
Depo. 146:7-147:3, Doc. 54-2 at 66-67).
53. On May 17, 2018, Shelton met with Plaintiff
to discuss the situation and explain why the documentation was acceptable. (Plt. Dep., p. 147:4-14,
148:18-150:11 Exhibit 1; Shelton Dep., p. p. 209:11209:24, Exhibit 2; Dep. Ex. 11, Exhibit 11)
CONTROVERTED. Shelton wrote in the
Interaction Log “I called [Plaintiff] over to
my desk to talk about how I came to my
conclusion.” (Doc. 54-11 at 18). However,
there is no contemporaneous writing in
which Shelton tells Plaintiff to come to his
desk for this reason, even though up to that
point the discussion had been by email. (See

App.155a
Doc. 54-20). It could be reasonably inferred
that Shelton wanted to have the conversation
in person so there would be no record of it
(aside from what he would later create).
Moreover, there is reason to believe the
meeting was a pretext for the later, retaliatory
final written warning. (See Response to UF
¶ 55).
54. During the May 17, 2018, discussion with
Shelton, Plaintiff stood up and left before Shelton
was done with the coaching session. (Plt. Dep., p.
152:11-152:19, Exhibit 1; Shelton Dep., p. 209:11209:24, 210:9-210:11, 212:3-212:15, Exhibit 2; Dep.
Ex. 11, Exhibit 11).
CONTROVERTED. In an email the following day, Plaintiff disputes that the coaching
session was not over when he got up and
left. (Doc. 54-22 at 3). Shelton told JD White
that Joshua said in the final written warning
meeting that Joshua thought the meeting
was over and Shelton “didn’t have any idea”
whether Joshua thought the meeting was
over (Depo. Ex. 127, Exhibit 28 at 10)
(Shelton Depo., Ex. 2, 292:18-22)
55. On May 17, 2018, Farmers issued Plaintiff
a Final Warning due to his ongoing performance
issues and his behavior during the May 17 meeting.
(Pretrial Order [Doc. #50], Stipulation No. 14; Plt.
Dep., p. 152:20-152:24, Exhibit 1; Shelton Dep., p.
208:7-208:17, 220:22-221:1, Exhibit 2; Dep. Ex. 27,
Exhibit 21)

App.156a
CONTROVERTED. There is significant
evidence casting doubt on the veracity of
the reasons for giving the final warning.
First, Shelton went directly to a final written
warning, without using a lesser form of
discipline. Shelton was aware that a written
warning was available as a lesser form of discipline. (Shelton Depo., Ex. 2, 242:1-243:16).
However, he did not recall even considering
a written warning on May 17, 2018. (Shelton
Depo., Ex. 2, 244: 21-25). He said he did not
know whether such a warning would have
helped the situation. (Shelton Depo., Ex. 2,
215:10-12). Shelton had not given Plaintiff
any written warnings, any discipline, formal
discipline prior to that point. (Shelton Depo.,
Ex. 2, 214:23-215:1).
Going directly to a final written warning
was unusual. Sims only remembers one time
he skipped directly to final written warning.
(Deposition of Curt Sims, Exhibit 3, 22:1923:2). Canton also said going directly to a final
written warning does not happen often.
(Deposition of Amy Canton, Exhibit 4, 89:1-5).
The warning claims that Plaintiff’s behavior
“creates a negative work environment with
your peers.” (Doc. 54-21 at 1). However,
none of his coworkers complained about his
behavior. (Canton Depo., Ex. 4, 64:21-24).
Plaintiff’s purported misconduct is also at
odds with the positive evaluations he had
received. It faults Plaintiff in the area of
“accepting and applying feedback to grow.”

App.157a
(Doc. 54-21 at 1). However, there are multiple
examples of Plaintiff’s supervisor praising
him for exactly that. On May 1, 2018 (just
16 days earlier) Amy Canton sent an email
in which, unprompted, she described a
“recent ‘coaching’ experience” as she and
Shelton had with Plaintiff as “a great
experience to share because we were able to
see quick results in terms of the employee
acceptance and ownership.” (Depo. Ex. 119,
Exhibit 26 at 1).
Plaintiff was also faulted in the area of
“emotional resilience.” (Doc. 54-21 at 1).
Canton admitted that issues with emotional
resilience are not unusual amongst employees
(Canton Depo., Ex. 4, 61:13-62:2). She could
not think of a specific instance where
emotional resilience issues led themselves
to corrective action. (Canton Depo., Ex. 4,
62:17-19).
Shelton also gave Plaintiff positive feedback
on these issues, and received it as well. On
March 26, 2018, Shelton complimented
Plaintiff on his “rock-solid performance”
because of his good metrics. (Shelton Depo.,
Ex. 2,, 90:3-13). On March 27, 2018, Plaintiff
asked a question about the areas he did not
receive a perfect score on so he could focus
on these items and Shelton responded
“Excellent question. This is the type of
attitude that I appreciate and will make
you more successful in your role;” Shelton
said he said this because Joshua was taking
ownership of his performance. (Shelton Depo.,

App.158a
Ex. 2, 94:8-15). Also on March 27, Shelton
told Plaintiff “I’m listening to your call. I
love how you’re telling him and showing
him how to do it. Nice work.” (Shelton
Depo., Ex. 2, 110:17-111:8). On March 31,
2018, Shelton wrote in his observation log
to Plaintiff “You do an excellent job with
your development.” (Shelton Depo., Ex. 2,
294:23-295:11). Also, on March 31, 2018,
Shelton provided feedback to Plaintiff, and
wrote “I appreciate how open you are to
feedback and I know you’re going to do well
in this area.” (Shelton Depo., Ex. 2, 298:1298:18). On April 3, 2018, an agent emailed
Shelton to “commend” him on Plaintiff, for
thinking outside the box and going the
extra mile to resolve an issue. (Depo. Ex. 46,
Exhibit 17 at 1). On May 10, 2018, at 7:34
a.m., Shelton messaged Plaintiff his metrics
and said “This is fantastic, nice work sir.”
(Depo. Ex. 49, Exhibit 18 at 1). After
Plaintiff thanked him for the feedback,
Shelton added “Yeah great job! You’re really
supporting our team more than you know
with phone metrics.” (Id.).
This continued after the final written warning
as well. In a June 13, 2019 meeting with
Canton, Shelton told her that Plaintiff was
“engaged,” and that he recognized areas
where he needed to improve. (Shelton Depo.,
Ex. 2, 259:18-260:19). On June 14, 2019,
Shelton told Plaintiff “You’re a rockstar sir
and I truly appreciate how you’re already
implementing these positive steps.” (Shelton

App.159a
Depo., Ex. 2, 159:16 160:19). On July 10,
2019, Shelton received agent feedback about
Plaintiff, praising him for going “out of his
way” to address an issue and commenting
that it is “unusual to find that kind of
dedication.” (Depo. Ex. 52, Exhibit 19 at 1).
In his deposition, Shelton admitted that it
was not accurate that Plaintiff had not
made improvements in those areas. (Shelton,
224:23-226:11).
There was also other evidence supporting
the fact that Shelton was engaged in retaliation. On May 3, 2018, Plaintiff emailed
Canton and complained that the “1 on 1”
meeting he had had with Shelton was
“pretty clear retaliation.” (Depo. Ex. 120,
Exhibit 27 at 1).
Plaintiff’s behavior during the May 17, 2018
meeting is also controverted. The final
written notice claims that Plaintiff “made
comments to me that display an extreme
lack of professionalism. You also got up and
walked out of our coaching session before it
was over” However, in an email the following
day, Plaintiff disputes that the coaching
session was not over when he got up and
left. (Doc 54-22 at 3). Moreover, the meeting
follows a conversation by email, and Plaintiff’s
purported misconduct only occurred after
Shelton moved it to a setting in which there
would be no objective record. (See Doc. 54-20).

App.160a
It is UNCONTROVERTED that on May
17, 2018, Farmers issued Plaintiff a Final
[Written] Warning.
56. The decision to issue Plaintiff the May 17,
2018, Final Warning was made by Shelton. (Shelton
Dep., p. 229:17-229:21, Exhibit 2)
UNCONTROVERTED.
57. The Final Warning Farmers issued to Plaintiff
reads, in part:
You are receiving a Final Notice for violation
of Farmers policy.
In addition to the coaching provided to you
by your previous supervisor, you have been
coached on multiple occasions over the past
two months about emotional resilience,
accepting and applying feedback to grow, as
well as creating a low effort experience for
our agents. Despite this ongoing coaching,
you have not made improvements in these
areas and you are not meeting expectations.
I’ve offered you opportunities to grow, by
speaking in team huddles and outlining
documents to streamline our processes, to
which you declined.
Your continued lack of professionalism shows
through your interactions with others; including the agents as well with your direct
supervisor. This behavior also creates a
negative work environment with your peers.
When you are approached with constructive
feedback, you give pushback, you become
argumentative, and are unwilling to accept

App.161a
the coaching. This lack of response to feedback resulted in an additional coaching on
05/17/18, in order to highlight how to create
a low effort experience. Your behavior
during this coaching session was unprofessional and you displayed behaviors of
insubordination. This further demonstrates
your lack of openness and unwillingness to
take constructive feedback to help you grow.
To further detail what happened, see my
recap of the coaching session below:
When trying to help you better understand
by thought process on thinking outside the
box to make the agents experience easier on
a specific transaction, you made comments to
me that display an extreme lack of professionalism. You also got up and walked out
of our coaching session before it was over.
(Dep. Ex. 27, Exhibit 21)
UNCONTROVERTED that this is what
was written in document that constitutes
the final written warning. However, as
explained in Plaintiff’s response to Paragraph 55, whether these reflect the true
reason for the final written warning is
CONTROVERTED.
58. On May 21, 2018, Plaintiff filed an EEOC
Charge alleging that (a) in April 2018 Farmers
denied him the AU position in Phoenix because of his
sex and (b) in May 2018 Farmers issued him a Final
Notice in retaliation for his complaint to Human
Resources. (Pretrial Order [Doc. #50], Stipulation No.
15; Dep. Ex. 31, Exhibit 23)

App.162a
UNCONTROVERTED.
59. In September 2018, Plaintiff began reporting
to Sims. (Pretrial Order [Doc. #50], Stipulation No. 8;
Canton Corp. Rep. Dep., p. 15:25-16:3, Exhibit 5)
UNCONTROVERTED.
60. On October 22, 2018, Plaintiff handled a
call from an agent who was requesting that a discount
on a policy be made retroactive. (Plt. Dep., p. 197:11198:24, Exhibit 1; Dep. Ex. 11, Exhibit 11; Audio
recording of Plaintiff’s call with Agent on October 22,
2018, Exhibit 27)
UNCONTROVERTED.
61. When Plaintiff told the agent the discount
could not be backdated, the agent asked who she
could talk to in order to see if the discount could be
approved. (Plt. Dep., p. 199:2-199:23, Exhibit 1; Audio
recording of Plaintiff’s call with Agent on October 22,
2018, Exhibit 27)
Generally UNCONTROVERTED, but Plaintiff told her that the discount could not be
backdated without the proper evidence, not
that it could not under any circumstances
be backdated. (Audio recording of Plaintiff’s
call with Agent on October 22, 2018, Doc.
54-27).
62. In response to the agent’s question as to
who she could talk to about getting the discount
approved, Plaintiff responded, “what do you mean?”
(Plt. Dep., p. 199:2-199:23, Exhibit 1; Audio recording
of Plaintiff’s call with Agent on October 22, 2018,
Exhibit 27)

App.163a
CONTROVERTED. Plaintiff respondents
“what do you mean?” (Audio recording of
Plaintiff’s call with Agent on October 22,
2018, Doc. 54-27 at 2:05) after the agent
asks “who can I talk to get that approved?”
(Id. at 1:58). This is immediately following
Plaintiff telling her that the discounted will
be applied at the date they receive the
documentation, (rather than the date of
instillation). (Id. at 1:43). It is not clear
whether she means to get the discount
approved, or to get the backdating approved.
63. When the agent asked again as to who she
could talk to about getting the discount approved,
Plaintiff responded, “you’re talking to me.” (Plt. Dep., p.
199:24-200:18, Exhibit 1; Audio recording of Plaintiff’s
call with Agent on October 22, 2018, Exhibit 27)
CONTROVERTED. In response to Plaintiff
asking “what do you mean,” the agent asks
“who can I talk to about getting the
discounted backdated.” (Audio recording of
Plaintiff’s call with Agent on October 22,
2018, Doc. 54-27 at 2:08). Plaintiff explains
that they have not even obtained the
documentation. (Id. at 2:13). The agent then
says that the reason why she is calling is to
find out if the discount can be backdated
and asks who she can talk to make sure she
can even do this. (Id. at 2:28). That is
when Plaintiff explains “you’re talking to
me, we won’t be able to backdate it,” and
that they will add the discount when they
obtain the documentation. (Id. at 2:34).

App.164a
64. When Plaintiff told the agent the discount
could not be backdated, the agent asked for his supervisor. (Plt. Dep., p. 197:11-198:24, Exhibit 1; Audio
recording of Plaintiff’s call with Agent on October 22,
2018, Exhibit 27)
CONTROVERTED. After Plaintiff tells
the agent the discount cannot be approved,
she again asks who she can talk to about
getting the discount backdated, because she
was just told by “the other girl” that “there
was somebody that could approve that.”
(Audio recording of Plaintiff’s call with
Agent on October 22, 2018, Doc. 54-27 at
2:49). Plaintiff explains “you would be talking
to me” but that there is not a sufficient
reason to meet the requirements for backdating. (Id. at 2:56). The caller then asks “is
there somebody else I could talk to.” (Id. at
3:05). Plaintiff asks her who she would like
to speak to. (Id. at 3:07). She then says,
“uhh . . . maybe your supervisor.” (Id. at 3:10).
65. Plaintiff told the agent his supervisor was
in a meeting. (Plt. Dep., p. 197:11-198:24, 200:19200:21, Exhibit 1; Audio recording of Plaintiff’s call
with Agent on October 22, 2018, Exhibit 27)
CONTROVERTED. Plaintiff did not say
that his supervisor was in a meeting.
Plaintiff said “I believe he’s in a meeting”
and offered to have him give her a call back.
(Audio recording of Plaintiff’s call with Agent
on October 22, 2018, Doc. 54-27 at 3:14).
66. When Plaintiff told the agent his supervisor
was in a meeting, the agent asked for his supervisor’s

App.165a
voicemail. (Plt. Dep., p. 197:11-198:24, Exhibit 1;
Audio recording of Plaintiff’s call with Agent on
October 22, 2018, Exhibit 27)
CONTROVERTED. Plaintiff said “I believe
he’s in a meeting” not that he was in a
meeting. (Audio recording of Plaintiff’s call
with Agent on October 22, 2018, Doc. 54-27
at 3:14). The caller did then say “I’ll go to
his voicemail” and asked, “does he have
voicemail?” (Id. at 3:19).
67. Plaintiff told the agent his supervisor’s
voicemail was not set up, which was not accurate.
(Plt. Dep., p. 197:11-198:24, Exhibit 1; Sims Dep., p.
51:2-51:6, Exhibit 6; Audio recording of Plaintiff’s
call with Agent on October 22, 2018, Exhibit 27)
CONTROVERTED. Plaintiff said “I don’t
think he has a voicemail set up.” (Audio
recording of Plaintiff’s call with Agent on
October 22, 2018, Doc. 54-27 at 3:23).
Plaintiff did not know whether voicemail
was set up, and he had never transferred a
call before because of Defendant’s “one-anddone” model of dealing with calls, and he
feared disconnecting her if he attempted to
make the transfer. (Plaintiff Depo., Ex. 1,
202:10-203:17).
68. The agent became frustrated, asked for
Plaintiff’s name, said she would call back to speak to
someone else, and disconnected the call. (Plt. Dep., p.
197:11-199:1, Exhibit 1; Audio recording of Plaintiff’s
call with Agent on October 22, 2018, Exhibit 27)
CONTROVERTED. The claim that the
agent “became frustrated” and if so, when, is,

App.166a
at best, speculation, and not an uncontroverted fact. The caller said she would
get the documents, call back, and speak to
someone else. (Audio recording of Plaintiff’s
call with Agent on October 22, 2018, Doc.
54-27 at 3:35). She also called it
ridiculous that Plaintiff would not apply
the discount for the reasons she gave. (Id.
at 3:40). Plaintiff apologized to her. (Id. at
3:46). He then gave her his name when
asked. (Id. at 3:49). The caller then said
(in what sounds like a sarcastic tone)
“thank you so much” and in a less sarcastic
tone “have a good afternoon” and then
disconnects the call. (Id. at 3:51).
Throughout all of that, Plaintiff maintained
a steady affect. (Id. at 3:35-3:56).
69. Plaintiff did not email Sims to let him know
about this call. (Plt. Dep., p. 203:18-203:24, Exhibit
1; Dep. Ex. 11, Exhibit 11)
UNCONTROVERTED.
70. On October 24, 2018, Sims and another
supervisor (Cintia Mazzetta) met with Plaintiff to
discuss his tone and demeanor on this October 22,
2018, call. (Plt. Dep., p. 204:21-206:14, Exhibit 1;
Sims Dep., p. 52:25-54:3, Exhibit 6; Dep. Ex. 11,
Exhibit 11)
CONTROVERTED. The portion of the
record cited does not support Defendant’s
assertion that the reason for the meeting
was to discuss Plaintiff’s “tone and
demeanor” on the call.

App.167a
71. During the October 24, 2018, meeting,
Plaintiff failed to acknowledge that he handled the
October 22 call improperly. (Plt. Dep., p. 205:9206:14, 214:3-214:24 Exhibit 1; Sims Dep., p. 53:1753:23, 55:19-56:21, Exhibit 6; Dep. Ex. 11, Exhibit
11; Dep. Ex. 34, Exhibit 25)
CONTROVERTED. While this is the
testimony of Defendant’s agents, it is
controverted by a recording of the meeting
that Plaintiff did not acknowledge that
anything went wrong on the call. In the
meeting, Mazzetta asks Plaintiff if the
coaching session had changed his mind
about whether phone call was “alarming”
because at the beginning of this
conversation, Plaintiff thought the call was
ok and was normal; Plaintiff responded that
the call was not saying is normal, and it
was definitely a “stand out” call. (Audio
recording of Plaintiff’s October 24, 2018
meeting with Sims and Mazzetta, Exhibit 9,
at 30:18). Plaintiff also acknowledged that
the agent was frustrated when concluding
the call. (Id. at 23:42). Later, Plaintiff
acknowledged things he could have done
better on the call, such as having looked on
the County assessor’s website, and before he
could finish listing the ways he could
improve, Mazzetta cut him off. (Id. at
32:40). Plaintiff was told by Sims that if
Sims was not available, Plaintiff should reach
out to someone in the office or another
facility. (Id. at 21:30). Plaintiff had never
been trained to do this before. (Plaintiff Aff.,

App.168a
Ex. 8 at 10). Nevertheless, Plaintiff was
receptive to this feedback, and said “okay.”
(Ex. 9 at 22:30). Finally, at the end of the
meeting, Sims told Plaintiff that the meeting
was a coaching opportunity, something for
Plaintiff to listen to and use going forward,
which Plaintiff said “okay” to in a receptive
manner. (Id. at 35:30).
It is also CONTROVERTED that Plaintiff
“handled the . . . call improperly.” While
Plaintiff does not claim (and never has) that
the call went perfectly, “improperly” is too
strong of a word for the evidence to support.
Most of the criticisms that Plaintiff received
during the meeting are either unfounded or
absurd. They acknowledged that he followed
Defendant’s guidelines for the backdating of
discounts. (Id. at 11:50). However, he was
told “You have a guideline telling you not to
back date it, but what did you do differently?
And that’s what’s going to set you apart
from other people. Everybody can follow
guidelines.” (Id. at 17:45).
Seemingly, Plaintiff was being faulted for
failing to break Defendant’s rules regarding
the backdating of discounts. Sims said he
was faulting Plaintiff (“a bit”) for the call
ending with the agent frustrated and Plaintiff
not emailing Sims. (Id. at 24:30). Yet, in his
deposition, Sims admitted that it would not
have been inappropriate for Plaintiff not to
tell Sims about a call if he had offered the
agent a call back and the agent did not ask
for it. (Sims Depo., Ex. 3, 51:20-52:5, Doc.

App.169a
54-06 at 5-6). Another employee on chat had
communicated the same information as Plaintiff and Sims stated there was no reason to
discipline or terminate that employee (Depo.
Ex. 37, Exhibit 16) (Sims Depo., Ex. 3, 34:2535:18). Sims did not see any issue with this
interaction because “the agent was straightforward” and the agent did not request to
escalate the interaction (Sims Depo., Ex. 3,
35:10-18) (even though Sims agreed this
would not have been inappropriate if the
agent did not ask for a call back).
72. Based on his ongoing performance issues
that Plaintiff failed to correct and the fact that he
was on a Final Warning, Sims decided to terminate
Plaintiff. (Sims Dep., p. 49:16-52:15, 55:19-57:19,
70:11-72:6, Exhibit 6; Canton Corp. Rep. Dep., p.
113:9-113:20, Exhibit 5; Dep. Ex. 11, Exhibit 11; Dep.
Ex. 34, Exhibit 25)
CONTROVERTED. Defendant’s claim that
any of these things were the real reason for
Plaintiff’s termination is Controverted by
substantial evidence showing inconsistency,
pretext, and illogic.
As Plaintiff has previously explained, everything about the content of the coaching
session related to the call is Controverted
by the recording of that call. (See Response
to UF ¶ 71).
It is also controverted that Plaintiff continued
to have the same issues as in the final
written warning (or that he ever had those
issues to begin with). The claim that Plaintiff

App.170a
was unreceptive to feedback was not only
specifically rebutted by the recording of the
October 24, 2018 meeting, it is more generally
rebutted by numerous instances of Plaintiff’s
supervisor praising him for his willingness
to receive and implement feedback.
On May 1, 2018 (just 16 days before Plaintiff’s final written warning) Amy Canton
sent an email in which, unprompted, she
described a “recent ‘coaching’ experience” as
she and Shelton had with Plaintiff as “a
great experience to share because we were
able to see quick results in terms of the
employee acceptance and ownership.”
(Depo. Ex. 119, Exhibit 26 at 1). On March
27, 2018, Plaintiff asked a question about
the areas he did not receive a perfect score
on so he could focus on these items and
Shelton responded “Excellent question. This
is the type of attitude that I appreciate and
will make you more successful in your role;”
Shelton said he said this because Joshua
was taking ownership of his performance.
(Shelton Depo., Ex. 2, 94:8-15). On March
31, 2018, Shelton wrote in his observation
log to Plaintiff “You do an excellent job with
your development.” (Shelton Depo., Ex. 2,
294:23-295:11). Also on March 31, 2018,
Shelton provided feedback to Plaintiff, and
wrote “I appreciate how open you are to
feedback and I know you’re going to do well
in this area.” (Shelton Depo., Ex. 2, 298:1298:18). In a June 13, 2019 meeting with
Canton, Shelton told her that Plaintiff was

App.171a
“engaged,” and recognized areas where he
needed to improve. (Shelton Depo., Ex. 2,
259:18-260:19). On June 14, 2019, Shelton
told Plaintiff “You’re a rockstar sir and I
truly appreciate how you’re already
implementing these positive steps.” (Shelton
Depo., Ex. 2, 159:16-160:19).
The termination notice claims that Plaintiff
“showed no resilience during the coaching
session.” (Doc. 54-25 at 1). When asked
what he meant by this, Sims explained that
it was that Plaintiff had not seen anything
he could have done differently on the call.
(Sims Depo., Ex. 3, 70:11-72:3, Doc. 54-06 at
12-14). However, as described above, the
recording of the call reflects multiple instances
of Plaintiff recognizing things he could have
done differently. (See Response to UF ¶ 71).
It is controverted that the purported issues
related to the termination were the same as
the issues in the final written warning. The
main criticism Plaintiff received related to
the call was his purported failure to escalate
the call to a supervisor. (See Sims Depo.,
Ex. 3, 49:25-50:6, Doc. 54-06 at 3-4). Canton
had never had it brought to her attention
that Plaintiff had issues not escalating to a
supervisor (Canton Depo., Ex. 4, 96:10-14).
Thus, this was a completely different issue
from what Plaintiff had been (allegedly)
been put on a final written warning for.
Similarly, while Sims tried to use the term
“resilience” (describing Plaintiff’s behavior
during the coaching), he was not using it

App.172a
the same way as Shelton in the final
written warning. Sims defined emotional
resilience as being receptive to feedback.
(Sims Depo., Ex. 3, 71:24-72:6, Doc. 54-06 at
13-14). Shelton defines emotional resilience
as follows: “emotional resilience generally
is . . . if a caller was yelling or whatnot at
you . . . thinking through it and working
passed it and putting it to the side and
working through that. Not letting it affect
your attitude.” (Shelton Depo., Ex. 2, 124:1-7)
Finally, there are numerous reasons to
believe the termination was retaliatory.
Plaintiff was terminated less than a week
after filing this action on October 19, 2018.
(See, Complaint, Doc. 1). As explained
below, there is reason to believe Canton had
received a copy of the lawsuit, and that she
had spoken about it to Sims, in those
intervening days. (See Response to UF ¶ 94,
95). Similarly, there is reason to believe that
Shelton and Sims were working together, over
the long term, to terminate Plaintiff in
retaliation for his filing of his complaint and
charge of discrimination. Plaintiff filed his
charge of discrimination on May 21, 2018.
(Charge of Discrimination, Doc. 1-1). On
June 1, 2018, Shelton and Sims began
discussing Plaintiff’s discipline. (Depo. Ex.
70, Exhibit 20 at 1). They continued to do so
even after Sims became Plaintiff’s supervisor,
joking about Plaintiff and discussing his
performance and coaching him. (Depo. Ex.
71, Exhibit 21 at 1); (Depo. Ex. 82, Exhibit

App.173a
25 at 1); (Depo. Ex. 72, Exhibit 22 at 1);
(Depo. Ex. 73, Exhibit 23 at 1); (Depo. Ex.
74, Exhibit 24 at 1). Plaintiff’s supervisor
was a decision that involved Shelton and
that Plaintiff had no say in. (Sims Depo.,
Ex. 3, 13:24-14:4). It could reasonably be
inferred that Shelton and Sims were working
together to terminate Plaintiff, and disguise
their retaliatory intent by changing his
management from one to the other.
73. On October 25, 2018, Sims completed a
memorandum seeking support for his decision to
terminate Plaintiff. (Sims Dep., p. 70:11-72:6, Exhibit
6; Dep. Ex. 34, Exhibit 25)
UNCONTROVERTED.
74. In the October 25, 2018, memorandum, Sims
explained the “Reason for Termination Recommendation” as follows:
Joshua was placed on a final warning on
May 17, 2018 for policy violation regarding
his emotional resilience, accepting/applying
feedback and his professionalism and conduct
with agents as well as his direct supervisor.
While reviewing a call that Joshua received
from an agent on October 22, 2018, he
showed no resilience during the coaching
session as to what could have been improved
or changed during the interaction. From his
viewpoint, it was a typical call from our
customers. When the agent asked for a
supervisor, he did not seek guidance and did
not provide this information to leadership

App.174a
concerning the interaction nor the request
for a supervisor.
(Dep. Ex. 34, Exhibit 25)
It is UNCONTROVERTED that this is what
was written in the Memorandum. However,
it is CONTROVERTED that these are the
reasons for the termination. (See Response
to UF ¶ 72).
75. On October 25, 2018, Farmers terminated
Plaintiff. (Pretrial Order [Doc. #50], Stipulation No.
17; Plt. Dep., p. 207:21-207:24, Exhibit 1)
UNCONTROVERTED.
76. Plaintiff has no information or knowledge
that Radliff or Schmitz knew he was gay. (Plt. Dep.,
p: 97:14-19, Exhibit 1).
CONTROVERTED. The materials cited do
not support Defendant’s assertions of the
absence of a genuine dispute. In each
portion of the deposition cited by Defendant,
in Response to Plaintiff’s question about
whether Plaintiff has such information,
Plaintiff answers, “I don’t know” not “no.”
(Plaintiff Depo. 97:19 Doc. 54-1 at 36). Moreover, Plaintiff’s deposition took place on
April 10, 2019, prior to any of the depositions
of Defendant’s managers, employees, or
agents. (Compare Deposition Notice for
Plaintiff, Doc. 16 with, e.g., Deposition
Notice for Jarrod Shelton, Doc. 38 (July 24,
2019); Deposition Notice for Corporate
Representative, Doc. 45 (August 1, 2019)).
And there was further, written discovery

App.175a
between the parties after that date. (See,
e.g., Defendant’s Notice of Service of
Supplemental Discovery Responses, Doc.
33). Thus, even if Plaintiff had said at the
time that he did not have such information,
it does not mean he does not now have it.
77. Radliff did not know Plaintiff was gay.
(Radliff Dep., p. 83:15-83:24, Exhibit 3)
CONTROVERTED. Radliff admitted that
knew after the complaint was filed. (Radliff
Depo., Ex. 5, 83:1-84:6).
78. Plaintiff has no information or knowledge
that he was denied the AU position because of his
sexual orientation or failure to conform to sexual
stereotypes other than (a) Radliff making the comment
that “in the future, I might not need a leader—I
might have a bunch of alphas over there”; (b) one of
his supervisors (Jeanann Sebers) allegedly knowing
he was gay; and (c) Shelton making the “prescreen”
comment to Radliff.
Q.

Okay. So other than Mr. Radliff making a
comment about alphas, Ms. Sebers knowing
that you were gay, according to you, and the
prescreen discussion between Mr. Radliff
and Mr. Shelton, do you have any other
information or knowledge that you were not
given the AU position in Phoenix in April,
2018 because of your sexual orientation or
failure to conform to male sexual stereotypes?

A.

No.

(Plt. Dep., p. 125:14-125:22, Exhibit 1)

App.176a
CONTROVERTED. The materials cited do
not support Defendant’s assertions of the
absence of a genuine dispute. Plaintiff’s
deposition took place on April 10, 2019.
Defendant asked on that date “do you have
any other information or knowledge.” The
deposition was taken prior to any of the
depositions of Defendant’s managers, employees, or agents. (Compare Deposition Notice
for Plaintiff, Doc. 16 with, e.g., Deposition
Notice for Jarrod Shelton, Doc. 38 (July 24,
2019); Deposition Notice for Corporate
Representative, Doc. 45 (August 1, 2019)).
And there was further, written discovery
between the parties after that date. (See,
e.g., Defendant’s Notice . . .
[...]
. . . Shelton, Doc. 38 (July 24, 2019); Deposition Notice for Corporate Representative, Doc.
45 (August 1, 2019)). And there was further,
written discovery between the parties after
that date. (See, e.g., Defendant’s Notice of
Service of Supplemental Discovery Responses,
Doc. 33). Thus, even if Plaintiff had said at
the time that he did not have such information, it does not mean he does not now
have it.
84. Radliff selected Harris and Chavez for the
AU positions because they were the two candidates
that he concluded best displayed the skill sets Farmers
was looking for within the applicant pool. (Radliff
Dep., p. 27:11-28:4, Exhibit 3)

App.177a
CONTROVERTED. There is substantial
evidence from which to infer other factors
played a role—specifically, Plaintiff’s failure
to conform to sex stereotypes, and that the
reasons given were a pretext. In conversation
giving feedback to Plaintiff, “if I’m hiring for
Kansas City in the future, I might not need
a leader, I might have a bunch of alphas
over there. I don’t need that. So it will vary
depending on that.” (Audio recording of
Plaintiff’s April 23, 2018 Meeting with
Radliff, Ex. 10 at 1:42). Radliff’s statement
showed that he was looking for someone
who was more “alpha” than Plaintiff. Additionally, there were inconsistencies in the
reasons given. During the meeting Radliff
also emphasized the fact that Joshua had
not previously interacted with him or reached
out to him. (See Id. at 3:02). Yet Radliff had
had no such contact with the two candidates
hired. (Radliff Depo., Ex. 5, 108:5-7). When
asked if the candidates selected were “alpha”
he claimed that they showed the leadership
skills he was looking for in the interview.
(Radliff Depo., Ex. 5, 75:23 76:4). However,
Radliff acknowledged the position was not a
leadership position. (Radliff Depo., Ex. 5,
126:4-8). Also, Radliff checked the box showing
that Plaintiff “demonstrated” teamwork and
leadership in his interview. (Radliff Depo.,
Ex. 5, 61:10-15).
85. Radliff concluded Harris was a more qualified
candidate than Plaintiff because during her interview

App.178a
she demonstrated the skill sets he was looking for in
the AU position. (Radliff Dep., p. 27:23-28:1, Exhibit 3)
CONTROVERTED. There is substantial
evidence from which to infer other factors
played a role—specifically, Plaintiff’s failure
to conform to sex stereotypes, and that the
reasons given were a pretext. In conversation
giving feedback to Plaintiff, “if I’m hiring for
Kansas City in the future, I might not need
a leader, I might have a bunch of alphas
over there. I don’t need that. So it will vary
depending on that.” (Audio recording of
Plaintiff’s April 23, 2018 Meeting with
Radliff, Ex. 10 at 1:42). Radliff’s statement
showed that he was looking for someone
who was more “alpha” than Plaintiff.
Additionally, there were inconsistencies in
the reasons given. During the meeting
Radliff also emphasized the fact that Joshua
had not previously interacted with him or
reached out to him. (See Id. at 3:02). Yet
Radliff had had no such contact with the
two candidates hired. (Radliff Depo., Ex. 5,
108:5-7). When asked if the candidates
selected were “alpha” he claimed that they
showed the leadership skills he was looking
for in the interview. (Radliff Depo., Ex. 5,
75:23-76:4). However, Radliff acknowledged
the position was not a leadership position.
(Radliff Depo., Ex. 5, 126:4-8). Also, Radliff
checked the box showing that Plaintiff
“demonstrated” teamwork and leadership in
his interview. (Radliff Depo., Ex. 5, 61:10-15).

App.179a
86. Radliff concluded Chavez was a more qualified
candidate than Plaintiff because of his tenure with
Farmers, his prior experience with Farmers – especially
his prior experience in Phoenix where he served as a
trainer, and the quality of his interview. (Radliff
Dep., p. 27:11-27:22, Exhibit 3)
CONTROVERTED. There is substantial
evidence from which to infer other factors
played a role—specifically, Plaintiff’s failure
to conform to sex stereotypes, and that the
reasons given were a pretext. In conversation
giving feedback to Plaintiff, “if I’m hiring for
Kansas City in the future, I might not need
a leader, I might have a bunch of alphas
over there. I don’t need that. So it will vary
depending on that.” (Audio recording of
Plaintiff’s April 23, 2018 Meeting with
Radliff, Ex. 10 at 1:42). Radliff’s statement
showed that he was looking for someone
who was more “alpha” than Plaintiff. Additionally, there were inconsistencies in the
reasons given. During the meeting Radliff
also emphasized the fact that Joshua had
not previously interacted with him or reached
out to him. (See Id. at 3:02). Yet Radliff had
had no such contact with the two candidates
hired. (Radliff Depo., Ex. 5, 108:5-7). When
asked if the candidates selected were “alpha”
he claimed that they showed the leadership
skills he was looking for in the interview.
(Radliff Depo., Ex. 5, 75:23-76:4). However,
Radliff acknowledged the position was not a
leadership position. (Radliff Depo., Ex. 5,
126:4-8). Also, Radliff checked the box showing

App.180a
that Plaintiff “demonstrated” teamwork and
leadership in his interview. (Radliff Depo.,
Ex. 5, 61:10-15).
87. Plaintiff has no information or knowledge
that he was more qualified than either Harris or
Chavez for the AU positions. (Plt. Dep., p. 107:2107:5, 122:13-122:18, Exhibit 1)
[...]
. . . time that he did not have such
information, it does not mean he does not
now have it.
94. When Sims made the decision to terminate
Plaintiff, he was not aware Plaintiff had made any
internal complaints to Farmers or filed a Charge of
Discrimination/lawsuit. (Sims Dep., p. 18:5-18:21,
75:22-76:21, Exhibit 6)
CONTROVERTED. Sims was in regular
communication with Shelton about Plaintiff
and his discipline. See (Depo. Ex. 71,
Exhibit 21 at 1); (Depo. Ex. 82, Exhibit 25
at 1); (Depo. Ex. 72, Exhibit 22 at 1); (Depo.
Ex. 73, Exhibit 23 at 1); (Depo. Ex. 74,
Exhibit 24 at 1). On at least one occasion,
those conversations were taken off-line.
(Depo. Ex. 73, Exhibit 23 at 1). Indeed,
Sims was present for the meeting in which
Plaintiff received the final written warning.
(Sims Depo., Ex. 3, 15:26-16:6). It can be
reasonably inferred that Shelton told Sims
about the internal complaint and charge.
There is also reason to infer that he knew
about the lawsuit. First, there is reason to

App.181a
believe Canton knew about the lawsuit.
(See, Response to UF ¶ 95). In the day or so
before his termination, Plaintiff saw Canton
leave her office and go visit Sim’s desk,
something she seldom did. (Plaintiff Aff.,
Ex. 8 at ¶ 13). The jury could reasonably
infer that she was going to tell Sims about
the lawsuit, or instruct him to terminate
Plaintiff.
95. Canton was unaware that Plaintiff had filed
a lawsuit prior to his termination. (Canton Dep., p.
131:4-131:6, Exhibit 4)
CONTROVERTED. Plaintiff mailed the
waiver of service along with the Complaint
(Doc. 1) on October 19, 2018. (See Waiver of
Service, Doc. 3 at 1). It was mailed to 17000
West·119th Street, Olathe, Kansas 66061.
(Notice of a Lawsuit and Request to Waive
Service of a Summons Exhibit 11 at 1).
Canton worked at 17000 West 119th Street,
Olathe, Kansas 66061. (Canton Depo., Ex. 4,
131:7-11). Mail that was delivered to 17000
West 119th Street, Olathe, Kansas 66061
was opened by employees there and
distributed. (Canton Depo., Ex. 4, 131:1216). When a lawsuit would be sent to 17000
West 119th Street, Olathe, Kansas 66061,
the employees in Support Services would
receive it and provide it to someone in
human resources, either Canton, Tatum
Rider or Trudi Andernacht. (Canton Depo.,
Ex. 4, 132:9-18). Canton is the only person
in the HR department who oversaw the
service center on Olathe. (Canton Depo., Ex.

App.182a
4, 15:10-13). The Right to Sue Letter had
previously been mailed to her at that
address on August 1, 2018. (Doc. 1-2). She
had received it by August 2, 2018. (Chat
between Canton and White, Exhibit 14). On
October 24th or 25th before his termination,
Plaintiff saw Canton leave her office and go
visit Simm’s desk, something she seldom
did. (Plaintiff Aff., Ex. 8 at ¶ 13). The jury
could reasonably infer that she received the
lawsuit and either passed it on to Sims or
directed him to terminate Plaintiff while
they denied they had received it.
II. PLAINTIFF’S STATEMENT
MATERIAL FACTS

OF

ADDITIONAL

Pursuant to the Federal Rules of Civil Procedure
and D. Kan. Rule 56.1(b)(2), Plaintiff provides the
following additional facts.
P1. Plaintiff is male. (See Plaintiff Aff., Ex. 8 at
¶ 3).
P2. At the time Plaintiff was employed by
Defendant, he did not conform to stereotypes of how
males behave and act in a way that was noticeable to
his coworkers. (Plaintiff Aff., Ex. 8 at ¶ 3).
P3. At the time Plaintiff was employed by
Defendant, he wore clothing that, though professional,
was very stylish and fashionable in a way that did
not conform to the way males stereotypically dressed.
(Plaintiff Aff., Ex. 8 at ¶ 4).
P4. At the time Plaintiff was employed by
Defendant, he was very attentive to his appearance
and hygiene and kept his desk very tidy in a way

App.183a
that failed to conform to stereotypes of male behavior.
(Plaintiff Aff., Ex. 8 at ¶ 5).
P5. While Plaintiff was employed by Defendant,
during breaks, he socialized primarily with his female
co-workers, while most male co-workers socialized
with other male co-workers, in a way that failed to
conform to stereotypes of how males behave. (Plaintiff
Aff., Ex. 8 at ¶ 6).
a. Failure to Hire Plaintiff for the AU
Position
P6. Radliff was not aware that Chavez was gay
at the time of the interview. (Radliff Depo., Ex. 5,
85:4-13).
P7. Notes from the Behavior-Based Interview
Guide indicate that the following competencies were
covered in the interviews: Teamwork; Decisiveness;
Persuasiveness; Customer Service Skills/Customer
Orientation; Manage Change. (Ex. 12, Behavior-Based
Interview Guide – Brittany Harris interview).
P8. During his interview with J.D. White—who
was investigating Plaintiff’s charge of discrimination—
Radliff denied that Shelton mentioned anything about
Plaintiff’s familial status or ability to relocate. (Depo.
Ex. 127, Exhibit 28 at 17).
P9. Plaintiff sent an email requesting feedback
from Radliff at 7:26 a.m. on April 23, 2018. (Depo.
Ex. 19, Doc. 54-16 at 1).
P10. That morning at 10:15 a.m. Radliff sent
Plaintiff a message asking to chat message asking to
visit about “Job feedback,” to which Plaintiff responded

App.184a
he was on the phone and asked that Radliff email
him. (Id. at 3).
P11. Radliff stated that he would “prefer to chat
if possible . . . it can wait [un]til later or another day,”
and specified that he wanted to chat “in person” and
not online. (Id.).
P12. In the conversation giving feedback to
Plaintiff, “if I’m hiring for Kansas City in the future,
I might not need a leader, I might have a bunch of
alphas over there. I don’t need that. So it will vary
depending on that.” (Audio recording of Plaintiff’s
April 23, 2018 Meeting with Radliff, Ex. 10 at 1:42).
P13. Radliff’s use of the term “alphas” was a
reference to Plaintiff’s failure to conform to male sex
stereotypes. See (Doc. 54-18 at 1); (Doc. 54-22 at 3).
P14. During the meeting Radliff also emphasized
the fact that Joshua had not previously interacted with
him or reached out to him. (See Id. at 3:02).
P15. Radliff had had no such contact with the
two candidates hired. (Radliff Depo., Ex. 5, 108:5-7).
P16. When asked if the candidates selected were
“alpha” he claimed that they showed the leadership
skills he was looking for in the interview. (Radliff
Depo., Ex. 5, 75:23-76:4).
P17. Radliff acknowledged the position was not
a leadership position. (Radliff Depo., Ex. 5, 126:4-8).
P18. Radliff checked the box showing that
Plaintiff “demonstrated” teamwork and leadership in
his interview. (Radliff Depo., Ex. 5, 61:10-15).
P19. When Radliff was discussing the feedback
about Plaintiff via Skype with Kyle Velthouse, he

App.185a
asked to talk to Velthouse about it over the phone
(thus not creating a record). (Radliff Depo., Ex. 5,
93:22-94:21).
P20. During another Skype conversation, Shelton
said that a particular subject was “best spoken in
person.” (Radliff Depo., Ex. 5, 99:12-16).
P21. In his complaint of discrimination, Plaintiff
mentioned that Radliff “would not email or Skype.”
(Email Complaint, Doc. 54-17 at 2).
b. Final Written Warning
P22. Going directly to a final written warning
does not happen often. (Canton Depo., Ex. 4, 89:1-5).
P23. The effect of a final written warning is
that it prevents an employee from moving to another
position in the company, it prevents them from using
tuition reimbursement, and it can have an impact on
their performance rating which could subsequently
affect their annual bonus or merit increases. (Canton
Depo., Ex. 4, 89:6-22)
P24. A final written warning is the step prior to
termination in Defendant’s progressive discipline
process. (Canton Depo., Ex. 4, 89:23-90:6).
P25. HR is consulted prior to discipline (Canton
Depo., Ex. 4, 18:10-13).
P26. But Canton only remembered one instance
in which she disagreed with the manager. (Canton
Depo., Ex. 4, 18:14-19:16).
P27. Canton said Plaintiff was a good employee
with Sebers. (Canton Depo., Ex. 4, 136:25-137:3).

App.186a
P28. Canton called him a strong performer when
talking to JD White. (Depo. Ex. 125, Exhibit 28 at 2).
P29. During her deposition, Canton admitted
that Plaintiff was placed on the final written warning
in response to his filing of the internal complaint:
Q.

Okay. And so prior to the EEOC charge, did
you resolve this complaint?

A.

I felt as though his concerns were resolved
after we had gone through the providing
information to him from Talent Acquisition
offering to meet with him and Jarrod to
discuss further. Ultimately, he did end up
on a final warning, but he had the open
door with Karilynn, his director, so based
off of Karilynn sharing with me how that
conversation went, I felt as those concerns
were resolved.

(Canton Depo., Ex. 4, 52:23-53:8).
P30. Canton admitted that issues with emotional
resilience are not unusual amongst employees (Canton
Depo., Ex. 4, 61:13-62:2).
P31. Other employees aside from Plaintiff have
had issues with emotional resilience. (Canton Depo.,
Ex. 4, 61:21-25).
P32. Canton could not think of a specific instance
where emotional resilience issues themselves led to
corrective action. (Canton Depo., Ex. 4, 62:17-19).
P33. Sebers never gave Plaintiff any formal
discipline. (Deposition of Corporate Representative,
Exhibit 7, 44:1-4).

App.187a
P34. On May 10, 2018, Shelton sent an email to
his supervisor Karilynn Reeves stating that he was
working with his entire team on empathy. (Depo. Ex.
25, Doc. 54-19 at 1).
P35. On May 7, 2018 Shelton memorialized
communications he had with Plaintiff (in which he
instructed Plaintiff to come see him “so we can talk
in person”, presumably to have the purported discussion) and he told Plaintiff that he “noticed some good
improvements in your small talk and tone on the
phone today.” (Doc. 54-11 at 14-15).
P36. In deciding whether to approve the document
in question that led to Plaintiff’s write-up, Shelton
said he did some research, meaning google research
(Shelton Depo., 143:3-10, 144:22-145:16, Doc. 54-2 at
64).
P37. Shelton admitted that there was no policy
at Farmers that directed employees to do that. (Shelton
Depo., Ex. 2, 142:24-144:23).
P38. Shelton said he learned that googling is
what he should do through “just my own knowledge”
(Shelton Depo., Ex. 2, 144:21-145:1).
P39. In regard to the conversation that led to
Plaintiff’s final written warning, Shelton wrote in
the Interaction Log “I called [Plaintiff] over to my
desk to talk about how I came to my conclusion.”
(Doc. 54-11 at 18).
P40. There is no contemporaneous writing in
which Shelton tells Plaintiff to come to his desk for
this reason, even though up to that point the discussion
had been by email. (See Doc. 54-20).

App.188a
P41. In an email the day following the conversation that led to Plaintiff’s final warning, Plaintiff
stated the coaching session was over when he got up
and left. (Doc 54-22 at 3).
P42. Shelton told JD White that Joshua said in
the final written warning meeting that Joshua thought
the meeting was over (Depo. Ex. 127, Exhibit 28 at 10)
P43. Shelton “didn’t have any idea” whether
Joshua thought the meeting was over (Shelton Depo.,
Ex. 2, 292:18:22).
P44. Shelton was aware when he went directly
to a final written warning was available as a lesser
form of discipline. (Shelton Depo., Ex. 2, 242:1-243:16).
P45. Shelton did not recall considering a written
warning on May 17, 2018. (Shelton Depo., Ex. 2, 244:
21-25).
P46. Shelton said he did not know whether such
a warning would have helped the situation. (Shelton
Depo., Ex. 2, 215:10-12).
P47. Shelton had not given Plaintiff any written
warnings, any discipline, formal discipline prior to
that point. (Shelton Depo., Ex. 2, 214:23-215:1).
P48. Sims only remembers one time he skipped
directly to final written warning. (Sims Depo., Ex. 3,
22:19-23:2).
P49. Canton also said going directly to a final
written warning does not happen often. (Canton
Depo., Ex. 4, 89:1-5).
P50. The warning claims that Plaintiff’s behavior “creates a negative work environment with your
peers.” (Doc. 54-21 at 1).

App.189a
P51. None of Plaintiff’s coworkers complained
about his behavior. (Canton Depo, 64:21-24).
P52. Plaintiff’s Final Written Warning faults
Plaintiff in the area of “accepting and applying feedback to grow.” (Doc. 54-21 at 1).
P53. On May 1, 2018 Amy Canton sent an email
in which, unprompted, she described a “recent
‘coaching’ experience” as she and Shelton had with
Plaintiff as “a great experience to share because we
were able to see quick results in terms of the employee
acceptance and ownership.” (Depo. Ex. 119, Exhibit
26 at 1).
P54. Plaintiff was also faulted in the area of
“emotional resilience” in his Final Written Warning
(Doc. 54-21 at 1).
P55. Canton admitted that issues with emotional resilience are not unusual amongst employees
(Canton Depo., Ex. 4, 61:13-62:2).
P56. Canton could not think of a specific instance
where emotional resilience issues led themselves to
corrective action. (Canton Depo., Ex. 4, 62:17-19).
P57. On March 26, 2018, Shelton complimented
Plaintiff on his “rock-solid performance” because of
his good metrics. (Shelton Depo., Ex. 2, 90:3-13).
P58. On March 27, 2018, Plaintiff asked a question about the areas he did not receive a perfect score
on so he could focus on these items and Shelton
responded “Excellent question. This is the type of
attitude that I appreciate and will make you more
successful in your role;” Shelton said he said this
because Joshua was taking ownership of his performance. (Shelton Depo., Ex. 2, 94:8-15).

App.190a
P59. Also on March 27, Shelton told Plaintiff
“I’m listening to your call. I love how you’re telling
him and showing him how to do it. Nice work.”
(Shelton Depo., Ex. 2, 110:17-111:8).
P60. On March 31, 2018, Shelton wrote in his
observation log to Plaintiff “You do an excellent job
with your development.” (Shelton Depo., Ex. 2, 294:23295:11).
P61. Also on March 31, 2018, Shelton provided
feedback to Plaintiff, and wrote “I appreciate how
open you are to feedback and I know you’re going to
do well in this area.” (Shelton Depo., Ex. 2, 298:1298:18).
P62. On April 3, 2018, an agent emailed Shelton
to “commend” him on Plaintiff, for thinking outside
the box and going the extra mile to resolve an issue.
(Depo. Ex. 46, Exhibit 17 at 1).
P63. On May 10, 2018, at 7:34 a.m., Shelton
messaged Plaintiff his metrics and said “This is
fantastic, nice work sir.” (Depo. Ex. 49, Exhibit 18 at 1).
P64. After Plaintiff thanked him for the feedback,
Shelton added “Yeah great job! You’re really supporting
our team more than you know with phone metrics.”
(Id.).
P65. In a June 13, 2019 meeting with Canton,
Shelton told her that Plaintiff was “engaged,” and
that he recognized areas where he needed to improve.
(Shelton Depo., Ex. 2, 259:18-260:19).
P66. On June 14, 2019, Shelton told Plaintiff
“You’re a rockstar sir and I truly appreciate how
you’re already implementing these positive steps.”
(Shelton Depo., Ex. 2, 159:16-160:19).

App.191a
P67. On July 10, 2019, Shelton received agent
feedback about Plaintiff, praising him for going “out
of his way” to address an issue and commenting that
it is “unusual to find that kind of dedication.” (Depo.
Ex. 52, Exhibit 19 at 1).
P68. In his Deposition, Shelton admitted that it
was not accurate that Plaintiff had not made
improvements in those areas. (Shelton, 224:23-226:11).
P69. On May 3, 2018, Plaintiff emailed Canton
and complained that the “1 on 1” meeting he had had
with Shelton was “pretty clear retaliation.” (Depo.
Ex. 120, Exhibit 27 at 1).
c. Shelton and Sims Collaborate to Discipline Plaintiff
P70. Sims was present during the May 17, 2018
meeting at which Plaintiff was issued his final written
notice. (Sims Depo., Ex. 3, 15:26-16:6).
P71. Shelton claimed the reason Sims was there
was that Shelton “was delivering a final [written
warning] and I generally always want somebody to
be there.” (Shelton Depo., Ex. 2, 247:20-22).
P72. On Friday, June 1, 2018, Sims sends a
Skype message to Shelton advising him to listen to a
call Plaintiff had made. (Depo. Ex. 70, Exhibit 20 at 1).
P73. The following Tuesday, June 5, Sims follows
up about the call with Shelton. (Depo. Ex. 71, Exhibit
21 at 1).
P74. On June 28, 2018, Sims again reaches out
to Shelton notifying him about a call Plaintiff was on,
saying he was “[j]ust passing [it] along to” Shelton.
(Depo. Ex. 82, Exhibit 25 at 1).

App.192a
P75. Sims becoming Plaintiff’s supervisor was a
decision that involved Shelton and that Plaintiff had
no say in. Sims Depo., Ex. 3, 13:24-14:4).
P76. On September 14, 2018 Sims messages
Shelton again, saying he wants to talk to Shelton
about Plaintiff off chat. (Depo. Ex. 72, Exhibit 22 at
1). On September 25, 2018, Sims sends Shelton a
message about a call, and says “Looks like there
needs to be a little coaching session with him.”
(Depo. Ex. 73, Exhibit 23 at 1).
P77. On October 23, 2018 Sims reaches out to
Shelton for information on how to create certain
kinds of reports and about the October 22, 2018 call
that was the purported basis for terminating Plaintiff.
(Depo. Ex. 74, Exhibit 24 at 1).
P78. By contrast, Shelton does not recall
contacting Sebers before issuing the final written
warning. (Shelton Depo., Ex. 2, 245:1-3).
P79. Shelton did not recall reviewing the
interaction log that Sebers had kept about Plaintiff
prior to Plaintiff moving from being supervised by
Sebers to being supervised by Shelton. (Shelton Depo.,
Ex. 2, 301:5-11).
P80. Shelton did not remember another instance
where he had conversations with other managers
about employees he did not supervise (Shelton Depo.,
Ex. 2, 280:18-281:1).
P81. Shelton did not remember another situation
where he was asked to listen to a call of an employee
not managed by him and to give feedback. (Shelton
Depo., Ex. 2, 281:5-11).

App.193a
P82. Shelton knew about Plaintiff’s internal
complaint of discrimination.
P83. When J.D. White interviewed Shelton, he
asked about Plaintiff’s allegations in the Charge of
Discrimination. (Depo. Ex. 127, Exhibit 28 at 8-11).
d. Plaintiff’s Awards, Recognition, and Positive Reviews
P84. Canton believes Plaintiff’s 2016 review as
above successful and 2017 review “was outstanding
as well.” (Canton Depo., Ex. 4, 50:17-21).
P85. Canton called Plaintiff a strong performer
to J.D. White based off of the fact that his prior
performance ratings were outstanding. (Canton Depo.,
Ex. 4, 136:4-12).
P86. Shelton said in his deposition that Plaintiff
was a good employee. (Shelton Depo., Ex. 2, 48:13-19).
P87. On June 22, 2018, Plaintiff was recognized
as a Certified Author which is a designation achieved
by only ten percent of the team. (Deposition of
Karilynn Reeves, Exhibit 6, 88:2-7; 85:19-22). At
Farmers, employees “can create knowledge to share
with others,” and they “become a certified author
through a process and showing the ability to do that
in a way that others can leverage it.” (Reeves Depo.,
Ex. 6, 84:19-85:1).
P88. Plaintiff received numerous “Perfect 10”
ratings and notices praising his performance (Awards
received by Plaintiff, Exhibit 15).
P89. “Perfect 10” recognition was an agent rating
of the employee. “Perfect 10” meant an agent was
very satisfied with the employee’s performance in all

App.194a
areas and Sims would see Plaintiff get these often.
(Sims Depo., Ex. 3, 31:23-33:8)
e. Recognition of Plaintiff’s Acceptance of
Feedback
P90. In her 2015 mid-year review, Sebers, who
was Plaintiff’s supervisor at the time, wrote “I have
seen you are willing to accept feedback in regards to
your performance.” (Shelton Depo., Ex. 2, 303:1-17).
P91. In her 2015 mid-year review, Sebers, who
was Plaintiff’s supervisor at the time, wrote “You
have always been open to feedback and I am confident
you are taking the necessary feedback from your
opportunity on the EST team to work on the particulars
to be an even stronger team member.” (Shelton
Depo., Ex. 2,, 307:16-25).
P92. In a June 13, 2018 meeting between Canton
and Shelton, Shelton said that Plaintiff was open to
Shelton’s feedback and was implementing that feedback. (Canton Depo., Ex. 4, 44:7-46:25).
P93. Plaintiff took a call on October 19th, 2018,
in which the agent was very rude and disrespectful,
about which Canton admits Sims told her that Plaintiff
handled the call very well and demonstrated his
abilities and emotional resiliency. (Canton Depo., Ex.
4, 94:1-15)
P94. In the October 24, 2018 meeting, Mazzetta
asks Plaintiff if the coaching session had changed his
mind about whether phone call was “alarming” because
at the beginning of this conversation, Plaintiff thought
the call was ok and was normal; Plaintiff responded
that the call was not saying is normal, and it was
definitely a “stand out” call. (Audio recording of

App.195a
Plaintiff’s October 24, 2018 meeting with Sims and
Mazzetta, Exhibit 9, at 30:18).
P95. Plaintiff acknowledged that the agent was
frustrated when concluding the call. (Id. at 23:42).
P96. Plaintiff acknowledged things he could have
done better on the call, such as having looked on the
County assessor’s website, and before he could finish
listing the ways he could improve, Mazzetta cut him
off. (Id. at 32:40).
P97. Plaintiff was told by Sims that if Sims was
not available, Plaintiff should reach out to someone
in the office or another facility. (Id. at 21:30).
P98. Plaintiff had never been trained to do this
before. (Plaintiff Aff., Ex. 8 at ¶ 10).
P99. Plaintiff was receptive to this feedback,
and said “okay.” (Audio recording of Plaintiff’s October
24, 2018 meeting with Sims and Mazzetta, Ex. 9 at
22:30).
P100. At the end of the meeting, Sims told
Plaintiff that the meeting was a coaching opportunity,
something for Plaintiff to listen to and use going
forward, which Plaintiff said “okay” to in a receptive
manner. (Id. at 35:30).
P101. The “Memo” that Sims wrote to give the
reasons for Plaintiff’s termination did not expressly
state that Plaintiff’s purported previous failure to
accept feedback was part of the reason for his
termination. (See Doc. 54-25).
f. Plaintiff’s Termination
P102. At the end of the October 24, 2018 meeting,
Sims told Plaintiff that the meeting was a coaching

App.196a
opportunity, something for Plaintiff to listen to and
use going forward. (Audio recording of Plaintiff’s
October 24, 2018 meeting with Sims and Mazzetta,
Exhibit 9, at 35:30).
P103. Curt Sims was in a meeting at the time of
the October 22, 2018 call. (Id. at 9:50 and 20:30).
P104. During that call, the caller said she would
get the documents, call back, and speak to someone
else. (Audio recording of Plaintiff’s call with Agent on
October 22, 2018, Doc. 54 27 at 3:35).
P105. She also called it ridiculous that Plaintiff
would not apply the discount for the reasons she
gave. (Id. at 3:40).
P106. Plaintiff apologized to her. (Id. at 3:46).
P107. Plaintiff gave the caller his name when
asked. (Id. at 3:49).
P108. Throughout all of that, Plaintiff maintained
a steady affect. (Id. at 3:35-3:56).
P109. This instance alone, without any prior
final written warning, would not have been enough
for termination; it was only enough in this case
because “it was repeated behavior.” (Sims Depo., Ex.
3, 52:9-15, Doc. 54-06 at 6).
P110. Sims and Mazzetta acknowledged that
Plaintiff followed Defendant’s guidelines for the
backdating of discounts. (Id. at 11:50).
P111. However, he was told “You have a guideline
telling you not to back date it, but what did you do
differently? And that’s what’s going to set you apart
from other people. Everybody can follow guidelines.”
(Id. at 17:45).

App.197a
P112. Sims did not fault Plaintiff for not knowing
if voicemail as set up and not transferring the call in
question to his voicemail not knowing if he had
voicemail or not and said “that’s fine” (Id. at 24:20).
P113. Another employee on chat had communicated the same information as Plaintiff and Sims
stated there was no reason to discipline or terminate
that employee (Depo. Ex. 37, Exhibit 16) (Sims
Depo., Ex. 3, 34:25-35:18).
P114. Sims did not see any issue with this
interaction because “the agent was straightforward”
and the agent did not request to escalate the interaction
(Sims Depo., Ex. 3, 35:10-18).
P115. Plaintiff offered to have a supervisor call
the agent back but the agent did not state that she
wanted this (Audio recording of Plaintiff’s call with
Agent on October 22, 2018, Doc. 54 54-27).
P116. In his deposition, Sims admitted that it
would not have been inappropriate for Plaintiff not to
tell Sims about a call if he had offered the agent a
call back and the agent did not ask for it. (Sims Depo.,
Ex. 3, 51:20-52:5, Doc. 54-06 at 5-6).
P117. Sims said he was faulting Plaintiff (“a
bit”) for the call ending with the agent frustrated and
Plaintiff not emailing Sims. (Id. at 24:30).
P118. The termination notice claims that Plaintiff
“showed no resilience during the coaching session.”
(Doc. 54-25 at 1).
P119. When asked what he meant by this, Sims
explained that it was that Plaintiff had not seen
anything he could have done differently on the call.
(Sims Depo., Ex. 3, 70:11-72:3, Doc. 54-06 at 12-14).

App.198a
P120. The recording of the call reflects multiple
instances of Plaintiff recognizing things he could
have done differently. (See Response to UF ¶ 71).
P121. The main criticism Plaintiff received related
to the call was his purported failure to escalate the
call to a supervisor. (See Sims Depo., Ex. 3, 49:2550:6, Doc. 54-06 at 3-4).
P122. Canton had never had it brought to her
attention that Plaintiff had issues not escalating to a
supervisor (Canton Depo., Ex. 4,, 96:10-14).
P123. Sims defined emotional resilience as being
receptive to feedback. (Sims Depo., Ex. 3, 71:24-72:6,
Doc. 54-06 at 13-14).
P124. Shelton defines emotional resilience as
follows: “emotional resilience generally is . . . if a caller
was yelling or whatnot at you . . . thinking through it
and working passed it and putting it to the side and
working through that. Not letting it affect your
attitude.” (Shelton Depo., Ex. 2, 124:1-7).
P125. Plaintiff filed his charge of discrimination
on May 21, 2018. (Charge of Discrimination, Doc. 1-2).
P126. On June 1, 2018, Shelton and Sims began
discussing Plaintiff’s discipline. (Depo. Ex. 70, Exhibit
20 at 1).
P127. Sims becoming Plaintiff’s supervisor was a
decision that involved Shelton. (Sims Depo., Ex. 3,
13:24-14:4).
P128. Plaintiff was terminated less than a week
after filing this action on October 19, 2018. (See,
Complaint, Doc. 1).

App.199a
P129. Plaintiff mailed the waiver of service along
with the Complaint (Doc. 1) on October 19, 2018. (See
Waiver of Service, Doc. 3 at 1).
P130. It was mailed to 17000 West·119th Street,
Olathe, Kansas 66061. (Ex. 11, Notice of a Lawsuit
and Request to Waive Service of a Summons at 1).
P131. Canton worked at 17000 West 119th Street,
Olathe, Kansas 66061. (Canton Depo., Ex. 4, 131:711).
P132. Mail that was delivered to 17000 West
119th Street, Olathe, Kansas 66061 was opened by
employees there and distributed. (Canton Depo., Ex.
4, 131:12-16).
P133. When a lawsuit would be sent to 17000
West 119th Street, Olathe, Kansas 66061, the
employees in Support Services would receive it and
provide it to someone in human resources, either
Canton, Tatum Rider or Trudi Andernacht. (Canton
Depo., Ex. 4, 132:9-18).
P134. Canton is the only person in the HR
department who oversaw the service center on Olathe.
(Canton Depo., Ex. 4, 15:10-13).
P135. The Right to Sue Letter had previously
been mailed to her at that address on August 1,
2018. (Doc. 1-2).
P136. She had received it by August 2, 2018.
(Ex. 14, Chat between Canton and White).
P137. On October 24th or 25th before his
termination, Plaintiff saw Canton leave her office
and go visit Simm’s desk, something she seldom did.
(Plaintiff Aff., Ex. 8 at ¶ 13).

App.200a
P138. This instance alone, without any prior
final written warning, would not have been enough
for termination; it was only enough in this case
because “it was repeated behavior.” (Sims Depo., Ex.
3, 52:9-15, Doc. 54-06 at 6).
[...]

